<html>
<title> - REEVALUATING THE TRANSITION FROM SERVICEMEMBER TO VETERAN: HONORING A SHARED COMMITMENT TO CARE FOR THOSE WHO DEFEND OUR FREEDOM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 REEVALUATING THE TRANSITION FROM SERVICEMEMBER TO VETERAN: HONORING A 
       SHARED COMMITMENT TO CARE FOR THOSE WHO DEFEND OUR FREEDOM 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, MARCH 28, 2012

                               __________

                           Serial No. 112-53

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-774 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                             March 28, 2012

                                                                   Page

Reevaluating The Transition From Servicmember To Veteran: 
  Honoring A Shared Commitment To Care For Those Who Defend Our 
  Freedom........................................................     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared Statement of Chairman Runyan........................    40
Hon. Jerry McNerney, Ranking Democratic Member...................     2
    Prepared Statement of Hon. Jerry McNerney....................    40
Hon. Russ Carnahan...............................................     4
    Prepared Statement of Hon. Russ Carnahan.....................    42

                               WITNESSES

John Medve, Office of VA-DoD Collaboration, U.S. Department of 
  Veterans Affairs...............................................     5
    Prepared Statement of John Medve.............................    42
Mr. Jim Neighbors, Director, Requirements and Strategic 
  Integration, U.S. Department of Defense........................     6
    Prepared Statement of Jim Neighbors..........................    44
    Executive Summary of Jim Neighbors...........................    52
Dr. Gail Wilensky, Senior Fellow, Project HOPE...................    17
    Prepared Statement of Gail Wilensky..........................    53
    Executive Summary of Gail Wilensky...........................    56
Mr. Ken Fisher, Chief Executive Officer, Fisher House Foundation, 
  Inc............................................................    19
    Prepared Statement of Ken Fisher.............................    56
LTG James Terry Scott USA (Ret.), Chairman, Advisory Committee on 
  Disability Compensation........................................    21
    Prepared Statement of LTG James Terry Scott..................    58
Mr. John Wilson, Assistant Legislative Director, Disabled 
  American Veterans..............................................    27
    Prepared Statement of John Wilson............................    60
Mr. Phil Riley, Senior Benefits Liaison, Wounded Warrior Project.    29
    Prepared Statement of Phil Riley.............................    64
    Overview of Wounded Warrior Project Testimony................    72
Mr. Eric Greitens, Chief Executive Officer, The Mission Continues    31
    Prepared Statement of Eric Greitens..........................    72


 REEVALUATING THE TRANSITION FROM SERVICEMEMBER TO VETERAN: HONORING A 
       SHARED COMMITMENT TO CARE FOR THOSE WHO DEFEND OUR FREEDOM

                              ----------                              


                       Wednesday, March 28, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Stutzman, McNerney, Walz, 
Carnahan.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good morning and welcome, everybody. The 
Oversight Hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    We are here today to examine the current framework in the 
ongoing efforts to streamline the transition process between 
active duty soldier to veteran. The streamlining of this 
process has been the implementation of the Integrated 
Disability Evaluation System, otherwise known as IDES. This 
program was created in December of 2007, following the 
recommendations of the Veterans Disability Benefits Commission 
and the President's Commission on Care for American Returning 
Wounded Warriors, otherwise known as the Dole-Shalala 
Commission.
    The IDES goal was to improve the timeliness, effectiveness 
and transparency of the former legacy DES review process which 
has been in place for over 60 years. In October of 2010, the VA 
and the DoD worked in concert to begin the permanent shift to 
IDES around the country in 139 locations.
    The ultimate objective remains to fully close the gap which 
occurs between the separation from active duty service to the 
receipt of VA benefits and compensation.
    I am pleased to see the process being made to meet this 
objective under the new system, specifically helping to cut the 
transition time between active duty and veteran status. 
However, there are several issues and unforeseen problems which 
need to be addressed. First, issues with the processing times 
remain problematic; whereas some recovering warriors experience 
lengthy delays in their attempt to navigate through the IDES 
system, others are rushed through without receiving the proper 
medical attention that they need.
    Secondly, many recovering warriors reported that they find 
the IDES process to be extremely confusing and difficult to 
understand. Further efforts must be made to work directly with 
our recovering warriors to ensure that they are making the 
right decision for themselves, their families and their 
futures.
    Finally, IDES is not as simple in practice as the various 
Commission reports were hoping it would be when it was first 
proposed. Now, nearly five years after its inception, it is 
important for both the VA and the DoD to continue evaluating 
the system and their efforts to achieve its goals of increasing 
transparency, improving consistency and eliminating duplicate 
processes.
    As a new generation of active duty servicemen and women 
return home from conflicts overseas, we must be prepared to 
meet our commitment to see that their transition to civilian 
and veteran life is as efficient and as simple as possible. 
This is our duty to see that their service is honored as best 
as our resources will permit.
    It is my hope that this Oversight Hearing will shed some 
light on some of the problems that we have encountered in the 
implementation of IDES so we may work together to find the best 
solution possible.
    I want to thank the VA, the DoD, and the present VSOs, Dr. 
Wilensky, Mr. Fisher and General Scott for their valuable input 
as we work together to find important solutions.
    We welcome today's witnesses and we now call on the Ranking 
Member for his opening statement.

    [The prepared statement of Chairman Jon Runyan appears in 
the Appendix]

           OPENING STATEMENT OF HON. JERRY MCNERNEY, 
                   RANKING DEMOCRATIC MEMBER

    Mr. McNerney. Thank you, Mr. Chairman. I would like to 
thank you for holding today's hearing.
    The purpose of this hearing is to focus on the transition 
process of servicemembers to veterans, with a particular focus 
on the implementation of the Integrated Disability Evaluation 
System, also known as IDES, which is a joint VA/DoD examination 
and records integration effort initiated in 2007 as a result of 
the fallout from deplorable conditions and disjointed care 
found for our wounded warriors at the Walter Reed Army 
Hospital.
    This hearing will allow us to not just to assess the 
effectiveness of the Integrated Disability Evaluation System, 
but other components of the Pre-Discharge Program established 
by the Departments of Defense and Veterans Affairs to 
streamline servicemembers' transition from active duty to 
veterans' status.
    Today's discussion on IDES also follows up on our work 
implementing the Veterans' Benefits Improvement Act of 2008, 
Public Law 110-389, which also paved the way for a number of 
initiatives targeting the VA claims backlog.
    In 2007, the Dole-Shalala Commission, set recommendations 
for the care of wounded warriors, and concluded that it is not 
nearly enough to patch a system for transition to civilian 
life, as has been done in the past. The experiences of our men 
and women returning home complaining about lack of a clear 
outline of access to care, benefits, and services available to 
them highlighted the need for fundamental changes in the care 
management and disability systems.
    The Dole-Shalala findings marked the siren call for the 
creation of a joint effort between DoD and VA to move to a one-
exam platform which today we know as the Integrated Disability 
Evaluation System or IDES.
    We must make every effort to focus our resources toward 
assisting transitioning servicemembers with the comprehensive, 
coordinated care and benefits that they deserve. This must 
occur at the very beginning of a servicemember's reintegration.
    To this end, any member of the Armed Forces who has seen 
active duty, including those in the National Guard or Reserves, 
is eligible to apply for VA disability benefits prior to 
leaving military service through the Benefits Delivery at 
Discharge, Quick Start, or IDES pre-discharge programs.
    During the application process, servicemembers can get help 
in completing forms and preparing other required documentation 
from VA personnel located at their bases. Additionally, IDES 
combines the health exam required by the DoD upon exiting the 
military and the VA Disabilities Assessment Exam into a single 
process, albeit for different purposes.
    In the meantime, in an effort to provide even greater 
transition assistance, more elements and players, like the 
Federal Recovery Coordination Program, have been added to 
assist our wounded warriors.
    I know the intent of these programs are well meaning and 
have helped numerous veterans across our country, but I still 
hear from veterans in my district who have gone through these 
programs and continue to experience significant delays, 
confusion and other problems with effective reintegration.
    In fact, to that end, I would like to mention that Mr. 
Barrow, my colleague, has a helpful bill pending before the 
Health Subcommittee, H.R. 3016, that would improve 
reintegration efforts and require that the Federal Recovery 
Coordination Program operate jointly under the DoD and VA.
    Since its full implementation at the end of 2011, IDES has 
been expanded from 3 military bases to more than 139 sites 
globally and nationally.
    With the draw down of troops over the next few years, I am 
particularly concerned by the fact that the average processing 
time takes 400 days and that there are about 200,000 
servicemembers already in the system. We don't need another 
backlog and want to avoid that kind of outcome at all costs.
    I look forward to having an open dialogue with the panels 
here today, and with my colleagues, on ways to overcome 
challenges within the IDES system, and to accelerate processing 
without sacrificing quality. Separating servicemembers should 
not wait more than a year for assessments and benefits.
    It is my hope that through our examinations of the IDES and 
other pre-discharge programs today, coupled with the electronic 
integration and other business reformation efforts accomplished 
over the last few years, we will continue to improve and 
transform today's VA claims processing system and help our 
servicemembers successfully transition back into our 
communities, and not into another backlog.
    I look forward to hearing from our esteemed witnesses, and 
I thank you, Mr. Chairman. I yield back.

    [The prepared statement of Hon. McNerney appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. McNerney. With that being said, 
in the order of business I would like to welcome our colleague, 
Mr. Carnahan, here. I ask unanimous consent that he participate 
in this hearing.
    Hearing no objection, so ordered.
    Do any other Member wish to make an opening statement?
    Mr. Carnahan is recognized.

            OPENING STATEMENT OF HON. RUSS CARNAHAN

    Mr. Carnahan. Thank you, Mr. Chairman and Ranking Member 
McNerney. I am pleased to be sitting with the Subcommittee 
today and especially proud to have an organization from my 
district in St. Louis that has grown nationally. I had the 
pleasure of working with them. Testifying for them today will 
be their CEO, Eric Greitens of The Mission Continues.
    The Mission Continues is truly a remarkable organization 
that empowers veterans to transform their lives and the lives 
of others by participating in community service fellowships. 
The Mission Continues fellows serve six months as community 
nonprofit organization and afterwards either obtain full-time 
employment, pursue higher education or permanent roles in 
service.
    This is truly a remarkable program that not only gives 
veterans a much needed sense of purpose following military 
service, but also eases an often extremely difficult transition 
to civilian life and is an organization that is run by a Navy 
SEAL and many former members of the military. The Mission 
Continues has a keen understanding of the many challenges 
facing our servicemembers when they return home.
    As this organization continues to make this model more 
accessible and available to veterans across our country, my 
colleagues and I stand ready to continue to support them and 
their work in this life-changing mission for our veterans.
    With that, Mr. Chairman, again, I want to thank you for 
allowing me to join in the Subcommittee today. I look forward 
to hearing the testimony, not only of The Mission Continues but 
the other organizations who are here today to talk about these 
important issues.
    I yield back.

    [The prepared statement of Hon. Russ Carnahan appears in 
the Appendix]

    Mr. Runyan. Thank you very much. I would like to welcome 
panel one, now. First, we will be hearing from Mr. John Medve 
with the Office of VA-DoD Collaboration and the Department of 
Veterans Affairs. And next we will hear from Mr. Jim Neighbors 
who is the Director of Requirements and Strategic Integration 
of Department of Defense.
    Your complete written statements will be entered into the 
hearing record. And Mr. Medve, you are now recognized for five 
minutes for your oral statement.

 STATEMENT OF JOHN MEDVE, OFFICE OF VA-DOD COLLABORATION, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; JIM NEIGHBORS, DIRECTOR, 
  REQUIREMENTS AND STRATEGIC INTEGRATION, U.S. DEPARTMENT OF 
                            DEFENSE.

                    STATEMENT OF JOHN MEDVE

    Mr. Medve. Thank you, Mr. Chairman.
    Good morning, Chairman Runyan, Ranking Member McNerney, and 
Members of the Subcommittee. My name is John Medve, Executive 
Director of the Department of Veterans Affairs Office of VA-DoD 
Collaboration within the VA's Office of Policy and Planning. I 
am pleased to be joined by Mr. Jim Neighbors from the 
Department of Defense, as well as Mr. Michael McDonald from the 
Federal Recovery Care Coordination Program, Ms. Debbie Ender 
from the VHA, Mr. Tom Murphy from VBA.
    I ask that my complete statement be included in the record.
    The Subcommittee asked that I focus my testimony on the 
status of the transition process from DoD to VA, with an 
emphasis on the Integrated Disability System, IDES, and the 
Federal Recovery Coordination Program, FRCP, as well as VA's 
Veterans Affairs Schedule for Ratings Disabilities, VASRD, 
modernization efforts.
    With respect to IDES, much has been accomplished to improve 
the DoD disability process in the wake of the issues identified 
in 2007 at Walter Reed Army Medical Center.
    In early 2007, VA partnered with DoD to make changes to 
DoD's legacy Disability Evaluation System, which resulted in 
the implementation of IDES. IDES is now the standard process 
for all servicemembers who are being medically transitioned out 
of their respective service.
    The goals of the joint process were to eliminate the 
benefits gap, increase transparency for servicemembers, reduce 
the processing time and improve the consistency of ratings for 
those who are ultimately medically separated. We have 
accomplished those goals. We are now focused on continuing 
improvement to that process.
    With respect to the Federal Recovery Coordination Program, 
FRCP, it was created in October 2007 in direct response to the 
Dole-Shalala Commission's recommendation for improved care 
coordination for wounded, ill and injured servicemembers. 
Federal Recovery Coordinators, FRCs, are located in 12 
facilities across the country, including four military 
treatment facilities, two VA Medical Centers, three VA poly-
trauma centers, and three Wounded Warrior Program offices.
    FRCs assist severely wounded, ill, and injured 
servicemembers, veterans and their families through each 
client's recovery, rehabilitation, and reintegration. The FRC 
creates a Federal Individual Recovery Plan for each client 
based on the goals expressed by the client, with input from his 
or her family and/or caregiver and health care team.
    FRCP is unique to other programs in that once an FRC is 
assigned to a client, the FRC is the constant point of contact 
for that client throughout all transitions.
    With respect to the Veterans Affairs Schedule for Ratings 
Disabilities, the VASRD, it is a regulatory framework through 
which VA provides veterans with compensation for diseases and 
injuries they incur while serving our Nation. It is this rating 
schedule that guides the disability rating personnel of VA and 
DoD in making the correct determination of the compensation 
benefit level applicable for Veteran's service-connected 
conditions.
    VA has partnered with DoD and the academic community to 
collaborate on revisions to the rating schedule. The 
collaboration involves public forums in which medical experts, 
members of the Advisory Committee on Disability Compensation, 
DoD officials, Veterans Service Organizations, and other 
stakeholders provide input and subsequently form working groups 
to substantively revise the rating schedule.
    The VA remains fully committed to meeting the needs of our 
Nation's heroes and their families. VA and DoD are partners and 
will continue to work together diligently to resolve transition 
issues while aggressively implementing improvements and 
expanding existing programs.
    Thank you again for your support of our wounded, ill and 
injured servicemembers, veterans and their families. This 
concludes my testimony and I will be happy to respond to any 
questions.


    [The prepared statement of John Medve appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Medve.
    Mr. Neighbors, you are now recognized for your oral 
testimony.

                   STATEMENT OF JIM NEIGHBORS

    Mr. Neighbors. Good morning, Chairman Runyan, Ranking 
Member McNerney and Members of the Committee. My name is Jim 
Neighbors and I am the new Executive Director for DoD-VA 
Collaboration Office within the Office of Personnel and 
Readiness.
    It is my pleasure to be here with my friend, John Medve, to 
testify on the transition of our servicemember to veterans 
status. I would also like to take this opportunity to thank 
John publicly for helping to bring me up to speed on our very 
important work.
    Taking care of our servicemembers is the highest priority 
of the Department of Defense. Over the past five years, DoD and 
VA have worked together with assistance and guidance from 
Congress to reform the cumbersome and often confusing 
bureaucratic processes which provide care and benefits to our 
servicemembers when and where they need them.
    Working closely, deliberately and collaboratively, our 
departments have established governance at the highest levels 
to facilitate continuous improvements and to achieve our goal 
of seamless transition from servicemember to veteran. The duty 
of VA to an executive council co-chaired by the Deputy 
Secretary of Veterans Affairs and the Under Secretary of 
Defense for Personnel and Readiness is the body created by 
Congress to formalize the collaboration between our departments 
ensuring interagency oversight to streamline, deconflict and 
expedite efforts to improve health care, disability processing 
and the seamless transition of servicemembers to veteran 
status.
    Additionally, the Secretary of Defense and the Secretary of 
Veterans Affairs meet on a quarterly basis to discuss high 
priority matters that span both departments such as the 
Integrated Disability Evaluation System and electronic health 
records. They will continue the dialogue toward resolving any 
issues and critical areas of collaboration between our 
departments.
    There are three areas I would like to particularly 
highlight on our work and focus on servicemembers. First, 
Recovery Care Coordination Program was established by Congress 
to provide recovery care coordinators or RCCs whose 
responsibilities include ensuring servicemembers' non-medical 
needs are met during recovery, rehabilitation, reintegration 
and in addition to assisting with the development and 
implementation of individual comprehensive recovery plans.
    Currently, there are 171 RCCs and 198 Army advocates in 84 
locations worldwide within the service Wounded Warrior 
Programs. More than 3,800 servicemembers and families have 
received the assistance of an RCC.
    Second, the Integrated Disability Evaluation System, 
streamlining the DES process with servicemembers receiving a 
single set of physical disability examinations conducted 
according to VA examination protocols, proposed disability 
ratings prepared by VA that both DoD and VA can use and 
processing by both departments to ensure the earliest possible 
delivery of disability benefits.
    The IDES is in use at 139 locations across all services. 
The Department is continuously monitoring statistics on IDES 
and exploring ways to improve the system and drive down 
processing time to reach our 295-day goal. As long as one 
servicemember is in the system longer than perceived helpful, 
we are obligated and committed to do all that we can to enhance 
the experience and make improvements.
    Finally, DoD and VA spearhead numerous interagency 
electronic health data-sharing activities and delivering IT 
solutions that significantly improve the secure sharing of 
appropriate electronic health information. Interagency health 
information exchange capabilities that levers the existing 
electronic health records of each department are in use today, 
and as both departments work to address the need to modernize 
our EHRs, we are working together to synchronize planning 
activities and identify a joint approach to modernization.
    To date, DoD has transmitted health data on more than 
5,800,000 retired or separated servicemembers to VA. Of those, 
approximately 2,300,000 have presented to VA for care, 
treatment or claims to termination.
    Mr. Chairman, I cannot overstate how far DoD has come in 
partnership with VA in recent years and we realize there is 
still more to do on these extremely important efforts. We will 
continue work with all of our partners to do anything and 
everything we can to provide our servicemembers with the 
absolute best care in treatment that they so rightfully deserve 
in return for their service to our Nation.
    Thank you again for the opportunity to be with you today. I 
look forward to your questions.

    [The prepared statement of Jim Neighbors appears in the 
Appendix]

    Mr. Runyan. Thank you very much. And with that, we will 
begin questioning in the order of arrival, which I think 
everybody here was at gavel call, or sitting in.
    First of all, Mr. Neighbors, according to the DoD 
Recovering Warrior Task Force 2011 Report, there is still work 
to be done identifying the recovery team and acknowledging the 
role VA has in the system. In previous hearings and testimony 
before this Committee, veterans seem to be confused on what 
part of the process is VA and what is DoD. Can you really 
explain why this is happening because I'm going to drill into 
many avenues of confusion? This is just the first one.
    Mr. Neighbors. I understand. Mr. Chairman, I apologize. The 
Recovery Care Coordination Program that we have within DoD and 
then the FOC program that VA has, we consider them very 
complementary programs. We see different things that are 
involved with what DoD brings to this process and what the VA 
brings to the process.
    As I stated in my oral remarks, we look at non-clinical 
kinds of care things to help both the servicemember and the 
family. Now, if I could, I would like to kind of put a 
philosophy or a statement that we take very seriously and that 
is never alone known, as a servicemember who has come through a 
very, very traumatic happening obviously with some traumatic 
injury that has occurred to their body and even their mind, we 
take the efficacy very, very important to be very efficient, 
excuse me, very effective in what we are doing. And we realize 
that does, at times, appear to be-- what is the word--redundant 
within our own selves and even across the boards but we are 
going to look at the things that we provide to a servicemember 
all along this continuum as that approach and philosophy 
``never alone,'' so there may be some things there where we are 
making very good warm handoffs to the person, which I think is 
very true between not only the DoD entities and the VA, but 
there may be times when the person thinks they have four or 
five people, but we will err on the side of being very, very 
effective to that person 24 hours a day, seven days a week, 
always to have somebody that they can call on even if it is one 
or two or three levels deep within the points of contact that 
they have.
    And we also ensure that there is a warm handoff. And what I 
mean by that is there is notification through a number of 
channels that VA knows very directly every servicemember goes 
from a RCC to an FRC. Thank you, sir.
    Mr. Runyan. And just talking to the FRC and the RCC, I have 
experienced, through the veterans I have talked to, a lot of 
confusion on who is the go-to guy, where do I go when I have a 
problem if something is not working as I anticipated and/or the 
lack of the communication throughout that process. Can you 
touch on that because that obviously, is going to come up in a 
later panel with some of the VSOs that have a lot more 
experience with it.
    Mr. Neighbors. I understand, sir, and I will obviously 
yield over to my VA counterpart to talk about the FRC piece of 
this since this is obviously within their daily work.
    I grant you and we have within the DoD continuous process 
improvements efforts that are always ongoing and looking at 
different things, not only within just the specific area, but 
with electronic records and everything else in transition that 
we are talking about. So I do recognize and agree that there 
are better ways to do things. We do take inputs and we work 
those regularly with VA. In fact, I think we have one coming up 
on Friday in which we are meeting again to discuss outputs from 
some of the things we have had in this area, so I agree, I 
guess, from my point of view as we are working these 
continuously and moving forward.
    Mr. Medve. Mr. Chairman, clearly if somebody is assigned a 
Federal Recovery Coordinator, that person should be the prime 
individual for the veteran or servicemember to go to and should 
be the one directing them across the whole set of issues that 
they are dealing with.
    The advantage of an FRC, clearly, is they handle both 
clinical and nonclinical issues. They are masters trained, 
nurses, social workers, and so part of the issue has been that 
the services want to ensure that they got kind of activity with 
that servicemember, and so the team of having an FRC and an RCC 
is complementary. In talking to the program directors in the 
field, this seems to be working better, that there is better 
coordination between the two, that the Federal Recovery 
individual recovery plan that is developed is now aligning 
better so there isn't confusion for the servicemember on what 
the plan is since it is their plan.
    So there have been confusions in the past. We believe we 
are seeing improvement and we are working, obviously, to 
continually improve that.
    Mr. Runyan. And how are you actually educating them-- 
obviously we are talking about servicemember and veteran in 
transition, how are you educating them to the process so they 
can understand it more when these problems do arise?
    Mr. Medve. If you don't mind, Mr. Chairman, I would defer 
to Mr. McDonald who is here from the program to answer that 
question because he has got more hands-on experience than I do.
    Mr. Runyan. Okay.
    Mr. McDonald. Mr. Chairman, the purpose of the FRC to work 
with the individual is to let them know what responsibilities 
the FRC will handle. Being both clinical and non-clinical, they 
can work on both sides there. They can work on the DoD side and 
the VA side and what they try to do is to let the servicemember 
know, the servicemember and the family in some cases, know what 
they can do and what they can assist them with, and if they 
need that assistance, they can reach out and touch them. They 
will, at a minimum, stay in contact with their folks every 30 
days and a lot of time when they are working on specific 
issues, that will be much more often obviously. Does that 
answer your question, sir?
    Mr. Runyan. Somewhat, but it goes back, just to make a 
point, with what Mr. Medve said, who the point of contact 
should be. I think that part of the confusion is who is the go-
to guy as we move through this process, and I think making that 
definition clear to everyone, because you said it three times 
in your answer to that question.
    Mr. McDonald. The problem, the reality is, sir, sometimes 
we will tell them we are available to reach out and they will 
sometimes call someone else. That's the reality. What we try to 
inform them is, if they have an issue, let us know so we can be 
working on it with all the members of the team, which will 
include the RCC, the treatment team, the various case managers, 
such as that.
    One of the things that the FRC does is a continuous 
availability in terms of if they are assigned a client whether 
in the medical treatment facility, they will stay with that 
client using various transitions to other MPFs to PA poly-
traumas, sometimes to private treatment centers, and the same 
MRCC stays with that person so that they are familiar, build a 
trust with the individual so that they know that that is the 
person to come back and advise us.
    In the first part, as with any relationship, is it is a 
developing thing and sometimes it is not clear. We can explain 
to please let us know what the issue is, but if they don't come 
back to us, then that is difficult sometimes to manage that 
relationship.
    Mr. Runyan. Thank you. And I obviously, in dealing with it 
by speaking to veterans, know that clarity in the way we move 
forward in the process is essential--the process a lot of times 
is the issue. The process is unclear to a lot of people and 
obviously it falls on all of us not only to educate veterans, 
servicemembers and their families, but to have the system as a 
resource to where, we can access it and understand how we move 
through it, so thank you.
    And with that I will recognize the Ranking Member, Mr. 
McNerney for his questions.
    Mr. McNerney. Thank you, Mr. Chairman. I think we made a 
little progress here in your questioning, so good work there.
    I think the goal is to make it seamless for the 
servicemember, obviously that is the goal. Are there technical 
issues, like communication between computers or any of that? Is 
that a problem at all? Can we just put that one to bed now, or 
do we need to talk about that for a little while?
    Mr. Medve. So, Congressman, thanks for the question. We are 
working on that. You know, I am sure you are familiar with that 
word, trying to develop or out on the boards developing an 
integrated electronic health record which once that comes into 
fruition, will, I think, be a great asset for us. In terms of 
the Integrative Disability Evaluation System and moving people 
through that process, we have one system called the Veterans 
Tracking Application that we use to manage where people are in 
the process so that we have the metrics and understand where 
they are at.
    We monitor those things every two weeks at the VA. The VA 
Chief of Staff holds a biweekly performance meeting with every 
senior executive that manages a part of that process down to 
the local level. As part of those discussions, if there are 
issues that we are having in terms of transmissions of data or 
anything like that, he immediately calls our Office of 
Information Technology to bore in on the problem and to fix it.
    Mr. McNerney. Well, that sounds good. Except, I want to get 
an idea of when these medical records are going to be 
standardized so that we can get this transition, that part of 
it, out of the way. So do you have an idea about when that can 
be expected to be finished?
    Mr. Medve. Sir, I know the two secretaries, as Mr. 
Neighbors alluded to, meet every quarter. At the last meeting 
at the end of February 27th, one of the marks on the wall is 
that we are putting the Integrated Electronic Health Record at 
the James A. Lovell Federal Health care Center. That's the 
pilot site for it. They have required that there be two 
additional sites be in place by 2014 in order to build this, 
and so it is going to be a rolling development over the next 
several years.
    Mr. McNerney. That is not good enough. That is just not 
even good enough. Yes, Mr. Neighbors.
    Mr. Neighbors. Sir, if I could chime in and thank you for 
your question. DoD and VA are actually sharing more health 
information right now than any two organizations in the Nation. 
If I could just give you some statistics, please, on what that 
sharing is.
    Servicemembers' data, again, that has been shared with VAs 
over a million times already, and what that turns into is for 
laboratory results. We have shared 23,000,000 of them to date, 
and these are in IT form. This is machine readable things that 
we push for, so they are not paper in this area-- radiology, 
3,600,000 million reports; pharmacy, 24,000,000 records. And 
patients have engaged on their medication, allergy information 
from what was about 27,000 to now 1,200,000, which is a 
significantly improving patient safety.
    Those are just some areas. It is an entire IEHR.
    So between our organizations, we actually are doing some of 
the sharing already. And if I could, there are actually four 
locations pilot-wise which we are including private providers, 
such as a Kaiser Permanente or something, what we would bring 
to them into the fold here to.
    So between governmental entities, we have that actually 
going on right now. So you are right. We are not where we need 
to be. We are not completely there, absolutely, but there is 
stuff going on that is servicing our veterans.
    And the second thing I would like to say, sir, if I could, 
please, that is entity to entity. As far as giving a VA, excuse 
me, a veteran, or even a servicemember their health records, we 
can do that right now. We are working very closely with VA to 
enroll our servicemembers as they come in the door, into a 
platform, an IT platform called the E-Benefits Platform, that 
allows--we have got 1,400,000 of them already signed up right 
now, but at any point in time after that from anywhere in the 
world, 24/7, they can actually download their medical records 
and hand them off to a private provider or anybody that they 
are involved with through that continuum right now, and that's 
called the blue button capability. Maybe you have heard that or 
not.
    Mr. McNerney. No, I haven't heard that. One of the things 
that Mr. Medve was saying is that you can track an individual 
through the process, but is there an advocate for that 
individual or does that get passed on and the individual finds 
himself or herself calling in and getting the runaround.
    I mean, what we need is an advocate, whether it is DoD or 
VA or the joint effort--Mr. McDonald started going into that--
but an ombudsman or an advocate or some coordinator that that 
person can go to when they are in trouble from start to finish.
    Mr. Medve. Sir, yes. Thank you for your question, again, 
Congressman. In IDES, when someone is enrolled in it, there is 
the PEBLO, the Physical Evaluation Board Liaison Officer. When 
that individual is referred is who greets them at the entrance 
to that process. That is the single point of contact that will 
shepherd them through IDES. As they are in each different 
stage, they are briefed by that person where they stand, 
whether they are medical, when their medical evaluations are 
done, when they are supposed to appear before any boards, all 
that.
    Once we get to a point where they are going to be 
determined to be separated, we, the VA sitting with the DoD 
PEBLO, we call the military service coordinators, that then sit 
down with the individual as a team and explain to that 
individual what their VA benefits are, so that is what happens 
inside the IDES.
    Mr. McNerney. Does the servicemember or former 
servicemember get to check off on that and say that they are 
okay with that transition?
    Mr. Medve. I will defer to Mr. Neighbors since that gets 
into the military's administrative process.
    Mr. Neighbors. Absolutely, sir. At any point in time when 
an evaluation takes place, that servicemember has reclama 
capability at a number of venues. Each one of the services has 
a local board that does exactly what we are talking about here, 
which is the evaluation of their disability and the rating. 
They can then take that to a department-wide--excuse me, let me 
say this again. The service-wide board is more of a formal 
activity in which they make sure that the rulings have been 
applied equally across from the local board itself.
    If the servicemember doesn't believe that is equitable, 
they actually can go to another level and they can actually go 
to what is called the Board of Correction for Military Records 
level, also. So there are a number of points that the person 
can say, you know what, this wasn't fair, I need another look, 
and they can be reversed or they can be upheld as any kind of 
board would do, but yes, sir, there is.
    Mr. McNerney. Okay. I am going to yield at this point.
    Mr. Runyan. I thank the gentleman. Mr. Walls.
    Mr. Walz. Thank you, Mr. Chairman, for holding this 
hearing. Thank you both for being here. This issue of singles 
transition, like you, I feel like I have spent most of my adult 
life talking about it and trying to get us there and I am 
please to see both of you sitting here. It certainly is a move 
forward where we have both DoD and VA, and I know the things 
you have talked about and trying to get us there through 
electronic records, through the coordination and collaboration. 
It is not only the right thing to do. It will save us resources 
and money in the long run preparing for our veterans, and so I 
appreciate what both of you do, and I know that you are two 
representatives sitting there and if the Chairman will indulge 
me a bit, I am going to--I am very thankful, I think, listening 
to the name of this hearing, honoring the Shared Commitment to 
Care for those who defend our freedom.
    I am thinking about this and watching the two of you set 
this idea of a handoff or whatever, there was some more news 
this week again. And those of you on this Committee, I have 
been here long enough, I certainly don't turn to the 
sensational to highlight this, but I am going to highlight this 
issue of the discharges from DoD on personality disorder.
    I am truly troubled by this. If this is truly about 
honoring the Commitment to Care, this is the third hearing I 
have set here where we have talked on something like this. In 
2007 we were going to get this fixed. We were going to get it 
fixed in 2010, September 15th, and there is a report today and 
my friends over at the Vietnam Veterans of America, through a 
Freedom of Information Act, were at it again.
    So we got soldiers. They go to war, they come back and they 
are being diagnosed with adjustment disorder or personality 
disorder. It gets stamped on their discharge papers, 
``Discharge for Personality Disorder.'' They are denied VA 
benefits and that is on their permanent record to follow them 
for employment.
    So Mr. Neighbors, I know this is not your area of 
expertise, if I could say. I am not putting you on the spot for 
the entire Department of Defense, but I would like you to--what 
do you think when you hear this again because all the issues 
you are talking about, I don't want to distract us from this 
very, the broader issue, but I do feel like I need to speak up 
for these 31,000. I do need to try and figure out how we right 
this wrong because the idea that you would be diagnosed with an 
adjustment disorder after being in Afghanistan, I don't know, 
if I could just turn it over to you, and I thank you, and I 
know it is very general but it just troubles me.
    Mr. Neighbors. I understand and I really appreciate the 
question. It is a very important issue. I am going to go out on 
the limb a little bit here and try to narrow it a little bit. I 
think what you are referring to is what has happened maybe at 
Madigan out on the West Coast. Am I correct on that or is it--
--
    Mr. Walz. Well, there was a new--I had the thing, we just 
had a Freedom of Information Act request and the study was put 
together on this from Vietnam Veterans of America. I will make 
sure we get a copy to you----
    Mr. Neighbors. Okay.
    Mr. Walz. --to let you see that. But it is pretty much we 
are on the same pace as we have been in the last 10 years, 
releasing these folks. This came to our attention when Joshua 
Kors wrote the piece, ``The Disposable Soldiers in the 
Nation.''
    We had three hearings on it again. Vietnam Veterans brought 
it up again, and it is probably the most striking example for 
me of how somebody does fall through the cracks or how we are 
not seamlessly to handing off folks and I am just curious on 
your part.
    Mr. Neighbors. Okay. And I appreciate that, sir.
    Mr. Walz. Yeah.
    Mr. Neighbors. If I could, I would like to yield back to 
one of my SMEs that I have brought that I think can more, give 
you much----
    Mr. Walz. That would be greatly appreciated.
    Mr. Burdett. Councilman, I think you are calling an issue--
I am Phillip Burdett. I work with----
    Mr. Runyan. Would the gentleman, please, speak into the 
microphone, please.
    Mr. Burdett. Councilman, I am Phillip Burdett and I am Mr. 
Neighbors' colleague and we work in the IDES system. And 
particularly, I think the behavioral health issue that you've 
highlighted is a critical one for us. As we have made non-
visible injuries a priority, we have seen them skyrocket in 
diagnosis, we struggle to hire behavioral health professionals, 
and I think the answer to your strategic question is how do we 
train those behavioral health professionals correctly and then 
how do we administer the policies and regulations, and we have 
made some great steps in 2010, think we had this issue fixed, 
and when it flares up, I think it comes back to training those 
behavioral health professionals, making sure we have the right 
and adequate ones at our bases' posting stations, give them the 
diagnoses.
    Mr. Walz. Are we benchmarking now because my question, I 
think what the public comes up to is how do you know that 
person came in with a preexisting condition of a personality 
disorder? How are you making that judgment?
    Mr. Burdett. I think two issues come to mind here. It is 
such a new science in so many areas. We have talked of PTSD, 
directly the TBI, and then the manifestation of both of those 
conditions with the incredible physical problems at the same 
time, so as our diagnoses have skyrocketed, we have invested a 
tremendous amount, especially with our Assistant Secretary of 
Health Affairs. The investments in that have been significant.
    Now, we need to then recognize are we using some good 
medical standards across the board, are we then making sure 
that our doctors are using those diagnoses, following the 
regulations that we have implemented in the accordance with the 
laws that you have passed. We owe that. I think we have made a 
great effort in acknowledging what we know and don't know about 
behavioral issues and then putting together solid policies and 
regulations.
    Mr. Walz. And I appreciate that and I do acknowledge the 
progress we have made and this is a difficult area. And I guess 
my question is how do we right what I think is an egregious 
wrong for some for these folks? I think they went in and the 
horrific experience they experienced, they are coming out with 
what others have, which I would say in some cases is a normal 
reaction. They have been diagnosed with this, which is 
basically a black ball to them, that they are not welcome at 
the VA, they are not welcome at the employers.
    Do you have a suggestion? And I appreciate your candidness 
from both of you on this issue of trying to address it.
    Mr. Burdett. I think, Congressman, I would say that I think 
that Mr. Neighbors highlighted is we have made this a 
servicemember centric policy and regulations since the 
beginning and the ability for a servicemember either on the VOD 
side of the equation or the VA side to then challenge and come 
back and open these cases and say I would like you to look at 
it again. Those have not been abridged. They have been 
extended. And the opportunity for those servicemembers to 
recognize, you know, I may have gotten out in 2004 and then had 
this condition that I need to have reevaluated.
    The VA has done fantastic work at making those avenues 
available to those veterans to come back and say, let us look 
at that case again.
    Mr. Walz. You think it is too harsh where VVA (Vietnam 
Veterans of America) is just point blank calling these illegal 
discharges?
    Mr. Burdett. I think the role of the VSOs is critical. I 
sometimes refer to them as our conscience, making sure, holding 
us accountable to make sure that we understand things. I 
appreciate their flexibility and also understanding that the 
behavioral health issue is such a new area of science for the 
medical community, for the policy makers, and then for the----
    Mr. Walz. Well, I am going to try and figure out a route to 
figure out how we get these folks back, how we give a fair 
shake at them because I think we got folks--and I say this 
again from the moral perspective, but also from an economic 
perspective. They are probably not working. Our suicide rates 
can be tied to some of this. There are just different issues 
that we have got to go back and capture them with the new data 
that has gone--and I will be the first to tell you that I think 
in the ten years in seeing what we were first doing in the war 
zones, what we are doing now, great kudos to everybody 
involved, behavioral health and integration.
    Mr. Neighbors. I just want to add one other thing, Mr. 
Congressman, to what Mr. Burdett said, and that is the basic 
military training, you touched a little bit on preexisting 
conditions. There is a vast array of medical diagnoses--not 
diagnoses, evaluations that take place even as a person is 
coming in the door for basic military training in which you 
alluded to preexisting conditions. Those are all documented.
    Mr. Walz. Why did we keep them then?
    Mr. Neighbors. Oh, no, no. There is a wash out period there 
also, sir.
    Mr. Walz. But you know, we got some of these folks that 
went, they served their time, some up to eight years, went to 
Iraq, came back and then they were stamped on their as a 
preexisting condition for personality disorder. Why the heck 
did we keep them if that was the case? Why didn't we get them 
out otherwise? I mean, how do I respond to those people? You 
see where this is going?
    Mr. Neighbors. I do.
    Mr. Walz. And we are this close to a class action suit 
against DoD on this. You feel that coming. My case is I just 
want to correct the problem and make sure it doesn't go 
forward.
    Mr. Neighbors. And I understand completely, sir. Again, 
they have multiple avenues to go back to up to include Board of 
Corrections for military records, which I sat on for the Air 
Force. I saw many of those kinds of cases and saw some actually 
overturned also, so there are avenues for people. You are 
absolutely correct. There is more that needs to be done, and 
there are more things that I believe we can do and we are 
working on those with the services to move forward, but I do--
--
    Mr. Walz. You think the avenues exist without us getting--
my take is is to help and figure out a channel through the 
proper existing process of appeals or rectifying these. You 
think those set out there and are ready to go?
    Mr. Neighbors. I will be happy to work with you. Obviously, 
I----
    Mr. Walz. Yeah, and we will be following up with others, 
but I thank you, Mr. Chairman. I know you gave me extra time, 
but I want to thank both of you for your candidness and attempt 
to get out this. I appreciate it.
    Mr. Runyan. I thank the gentleman. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. I really just had 
one quick question I wanted to ask our two witnesses. I 
understand there have been some informal sessions for 
demobilized and separating National Guard and Reserve members. 
Can you talk about some of the unique challenges associated 
with educating and processing these servicemembers and do you 
have any thoughts on how to deal with them more effectively? Go 
ahead. Jump in.
    Mr. Neighbors. I apologize. Sir, a great question. There is 
no doubt that there are differences, especially in timeliness 
as far as how servicemembers from the Guard Reserve come 
through the IDES specifically, but I do know that we are 
taking, as for us, especially Recovery Care Coordinators, and 
things have a standardized training regime. They all receive 40 
hours of training or more to make sure that they are engaging 
with servicemembers, not only active duty, but Guard and 
Reserve, so that they understand all the processing the same.
    There is no doubt, as far as transition is concerned, 
servicemembers that are Guard Reserve have issues of employment 
that are in and out of their employment. There is a large--in 
fact, thank you, gentlemen, for the VOW Act that you graciously 
gave to the DoD last year. As far as transition is concerned, 
we are working very hard. Some of, I think, what answers what 
you are saying there is an involved in implementing that Act 
which we are working with the White House on right now.
    Many issues in making sure that Guards and Reservists get 
that exact same training that is funding, that it's moving 
forward in the same way that the active duty is getting. We are 
working very hard with the VA in ensuring that that transition 
takes place. Does that kind of get to what we are talking here?
    Mr. Carnahan. Yeah.
    Mr. Neighbors. Okay. All right, sir.
    Mr. Medve. Congressman, again, thanks for the question. In 
terms of overall in the process of demobilization, I know that 
we have VA reps at the de-mobe sites there to work people 
through to ensure they understand what they are eligible for. 
In terms of IDES, you know, we currently have a major effort 
going down on Pinellas Park with a number of Reservists' 
records that are being gone through to determine whether or not 
they had profiles that had to be validated to see if they were 
such a level to require medically being separated from the 
service. We are working hand in hand with DoD.
    We have a number of Reservists and National Guard who do 
collect VA benefits when they are off of active duty, and as 
part of that process we share with the DoD as they are looking 
at these records in terms of medically separating people to 
validate conditions that exist and all that, so we have got 
good information sharing between the departments on that.
    But a Reservist going through IDES gets the same attention 
going through the process because they are still on active duty 
when they are going through IDES, so the PEBLO that I talked 
about before, they are walking them through the process. They 
have access to the military's service coordinators that go 
through the process, so they are treated no different from our 
point of view, than active duty, somebody who is on active duty 
all the time. servicemen are going through the process.
    Mr. Carnahan. Thank you, gentlemen. I yield back.
    Mr. Runyan. Thank you, gentlemen--and on behalf of this 
Subcommittee, I thank you for your testimony and your time. 
Obviously, we have a lot of work ahead of us trying to make 
sure that we take care of our warriors, our true heroes of this 
country, so with that being said, I look forward to working 
with you on that and continuing to make this process what it 
truly deserves and needs to be.
    So with that being said, both of you are excused. Thank 
you.
    I want to call the second panel to the witness table at 
this time. At this time I welcome Dr. Gail Wilensky, a Senior 
Fellow with Project HOPE. Dr. Wilensky also served as a 
Commissioner on the Dole-Shalala Commission. And next we will 
hear from Mr. Ken Fisher, Executive Officer of the Fisher House 
Foundation. Mr. Fisher also served as a Commissioner on the 
Dole-Shalala Commission. And finally we will hear from 
Lieutenant General James Terry Scott who served on the Advisory 
Committee on Disability Compensation.
    We appreciate all of your attendance here today. Your 
complete and written statements will be entered into the 
hearing record.
    And Dr. Wilensky, you are now recognized for five minutes 
for your oral statement.

 STATEMENTS OF DR. GAIL WILENSKY, SENIOR FELLOW, PROJECT HOPE; 
 KEN FISHER, CHIEF EXECUTIVE OFFICER, FISHER HOUSE FOUNDATION, 
    INC.; LIEUTENANT GENERAL JAMES TERRY SCOTT USA, (RET.), 
    CHAIRMAN, ADVISORY COMMITTEE ON DISABILITY COMPENSATION.

                   STATEMENT OF GAIL WILENSKY

    Ms. Wilensky. Thank you, Chairman Runyan and Ranking Member 
Mr. McNerney and Members of the Subcommittee.
    I am pleased to be here to talk about the transition from 
servicemember to veteran with particular emphasis on the 
Integrated Disability Evaluation System.
    As you mentioned, I am currently a Senior Fellow at Project 
Hope, an International Health Education Foundation. I also 
serve as a regent for the Uniformed Services University of the 
Health Sciences, USUHS. I have had the honor and privilege of 
being on the Dole-Shalala Commission as you mentioned. I was 
also a Co-Chair of the congressionally mandated study on the 
future of military health care and earlier in the decade I co-
chaired the President's task force to improve health care 
delivery for our Nation's veterans, initially with your 
colleague, Gerald Solomon, who unfortunately died early in that 
period, and then with John Paul Hammerschmidt. The views I am 
going to express are my own, however, not those of these other 
organizations.
    Before the introduction of the IDES, servicemembers needed 
first to separate from his or her service and then to enter the 
VA process, requiring as you have mentioned, two different 
exams. The process and criteria for determining fitness 
differed across services. They differed between the services 
and the VA. The result was real and as important, perceived 
differences, in equity across the services and between the 
services.
    It was frequently a lengthy process, as you have mentioned. 
It was also frequently a contentious process which was equally 
bound to have happen.
    The difference now with the IDES is that there is a single 
exam done by a VA certified physician that serves both as the 
basis for determining fitness to serve and also by the VA to 
establish a level of disability. The services continue 
importantly to determine fitness to service and the VA, the 
disability level.
    The time has been reduced substantially, although not as 
much as it should be. The goal that was talked about this 
morning of 295 days is a substantial improvement. Initially, 
there has been some discussion of a goal of 100 days. That is 
obviously still a long way out.
    And there are some lengthy and inexplicable delays that 
occasionally reported. Last summer at a Senate hearing there 
was a discussion of a marine who had been in Afghanistan in 
2010, lost both his arms and legs and had his papers sitting on 
someone's desk for 70 days; clearly, not something acceptable 
to anyone.
    There are some questions that remain in my mind as somebody 
who had run Medicare and Medicaid in the early 1990s, as to why 
it is taking quite so long to fully roll out the IDES, until 
the fall of 2011. It has now happened and I am glad, but that 
length of time is inexplicable to me.
    There are also questions about what are the real goals of 
the program, and that means not just reducing time but what 
actually is it that you are trying to do.
    I also want to talk for a minute about another area where 
we had recommended change and that was the Disability and 
Compensation System, trying to make sure that it was speedy 
with, reduced inequities and, most importantly, helped veterans 
return to their productive lives as fully and completely as 
possible.
    We recommended a transition payment be made while 
individuals are receiving rehab and training, and that this was 
to be followed up by an earnings-loss estimate which may remain 
after training, but in our service-oriented information economy 
may not remain. There was also to be a quality-of-life payment 
recognizing that even if there was a loss, there was not a loss 
of earnings capability, there may well be a real quality of 
life decrement which should be compensated.
    Two of the young men on our Commission really fit into that 
role. One was getting an MBA at Harvard. One was having a 
double major at George Mason. Both of them would probably not 
experience earnings losses, but they had major injuries that 
would result in quality of life decrements.
    We also need to make sure that other recommendations that 
we made in Dole-Shalala are carried out, making sure that care 
is available for those needs of PTSD and TBI services. We 
recognize that is going to be a challenge because of the 
shortage of mental health providers and professionals in the 
country in general and, therefore, afflicting those services as 
well.
    And we have recommended extending respite care and 
extending the FMLA, the Family Leave Act, for up to six months 
for spouses and parents of seriously injured people. This, of 
course, is going to be difficult in our fiscally challenged 
environment, but it is one that is important.
    Let me just end on a positive note. While the 
recommendations we made are important and we are glad to see 
some of them being carried out, we also noted that the problems 
were not quality-of-care problems, but rather problems with the 
handoff, the transitioning from inpatient to outpatient, from 
active duty to veteran.
    We, of course, need to make sure that both are appropriate 
for our returning wounded warriors, but I would hate to have 
people think that it was a quality of care that we found 
wanting after 2007. It was not. It was these other processes 
which we are pleased that you are taking on.
    Thank you.

    [The prepared statement of Gail Wilensky appears in the 
Appendix]

    Mr. Runyan. Thank you very much. Mr. Fisher.

                    STATEMENT OF KEN FISHER

    Mr. Fisher. Chairman Runyan, Members of the Committee, on 
behalf of Co-Chairs Dole and Shalala who could not be with us 
today, the Members of the Commission, and my fellow 
Commissioner Gail Wilensky, I appreciate the opportunity to 
appear before you today.
    Both as a Commissioner and as Chairman of the Fisher House 
Foundation, I have devoted the last 12 years of my life towards 
improving both the care and the quality of life of our 
military, those wounded, veterans and their families. Today's 
hearing on the DES and the seamless transition are critical to 
this Nations' security and I am proud to discuss my work on the 
Commission, recommendations and action steps, and how this 
system must be made simple, easily understandable and easier to 
navigate.
    But I must admit to being a bit confused. This is the 
greatest Nation on earth, with the greatest equipped and best 
trained military in the history of the world. What puzzles me 
is we are here five years after the roll out of this report.
    Before I begin, I feel compelled to preface my statement by 
explaining our mission. We were charged by President Bush to 
examine, evaluate, and analyze the care and process related to 
our returning wounded global war on terror servicemen and 
women. We looked at the system through the eyes of the wounded 
service people. We were solution driven. We held numerous field 
hearings, interviewed wounded, interviewed commanders, doctors, 
family members as well as others who played a role in the 
recovery process.
    We not only examined problems and inadequacies but also 
looked for best practices that might help improve their care. 
Our goal was to simplify and help eliminate the log jam, which 
was the result of fighting lengthy two front wars with a VA 
that was already challenged by the weight of an intolerable 
bureaucratic system. And by doing this, we sought to eliminate 
the backlog and claims that had reached at the time 
approximately 800,000 to 900,000.
    While the living conditions at Walter Reed were indeed 
horrendous, this was only the tip of a massive iceberg. We 
found hundreds of troops waiting months for follow up 
appointments or awaiting the ratings process. This gap in 
benefits caused massive problems known to but a few.
    The Commission was given six months to evaluate the entire 
disability evaluation system and our findings were thoughtful, 
inclusive, and implementable. It was not our intention to put 
forth hundreds of recommendations that would have been 
difficult to implement or too expensive as a whole.
    And by the way, as a side bar I would like to join my 
colleague and say that I want to compliment this Nation's 
military health care professionals whose work and use of the 
latest technologies resulted in a battlefield survivor rate of 
better than 95 percent, which is unprecedented.
    Today, five years after our report was made public, there 
has been progress, to be sure, but with all due respect, not 
nearly fast enough, and with not nearly enough sense of 
urgency. Tracking the results of the Commission has been 
difficult, as admittedly I would not expect the process to be 
transparent. But again, the task we were given with that of 
OEF/OIF, and I hope of its adoption would have moved the system 
along faster.
    Now, rather than go in and be redundant on points already 
covered, I would like to--we have heard about disability and 
the new IDES, although I feel that there are staffing problems 
which are causing problems in the implementation of IDES. I 
also am confused as to why a VA doctor would be doing a DoD 
physical, but I don't want to get into that either at this 
point.
    What I would like to discuss is the--pardon me--is the PTSD 
and I would like to remove the word or the letter ``D'' because 
I don't believe that post-traumatic stress is a disorder. We 
recommended lifetime treatment for post-traumatic stress. These 
men and women have endured multiple deployments, have been in 
intense urban fighting, often against civilian insurgents who 
too often hide behind innocent women and children. They have 
seen horrific injuries caused by IEDs. And the stigma 
associated with coming forward and asking for help leaves too 
many to suffer in silence, and if they are home, their families 
to suffer as well.
    We believed this was a major problem when our report was 
made public, and it has been for any servicemember who has 
fought in battle be it World War II, Korea, Vietnam or today.
    Today it is evident why this was a major recommendation. 
Five years after our report was made public, there have been 
well over 1000 suicides, outpacing the civilian population, 
domestic violence, and divorce, drug and alcohol abuse, 
homelessness, joblessness, all at unacceptable levels.
    Just the other day in USA Today, an article appeared 
discussing alcohol within the ranks of the Army and the fact 
that they have delayed for three years a confidential counsel 
program for treatment. They had begun a pilot program in 2009, 
but it was ended after a high dropout rate. According to the 
article, 25 percent had a drinking problem.
    In the interest of time, Mr. Chairman, I will end my 
statement there, and I thank you for the opportunity to appear 
here and look forward to your asking questions.

    [The prepared statement of Ken Fisher appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Fisher.
    General Scott.

    STATEMENT OF LIEUTENANT GENERAL JAMES TERRY SCOTT (RET.)

    Lieutenant General Scott. Chairman Runyan, Ranking Member 
McNerney and Committee Members, it is a pleasure to appear with 
you today representing the Advisory Committee on Disability 
Compensation and the Veterans Disability Benefits Commission 
that met from 2005 to 2007 and reported out to you in October 
of that year.
    It is also a distinct honor to serve on a panel with Mr. 
Kenneth Fisher whose contributions to servicemembers and 
veterans are known and appreciated.
    Mr. Fisher. Thank you.
    Lieutenant General Scott. The Advisory Committee is 
chartered by the Secretary of Veterans Affairs in compliance 
with Public Law 110-389 to advise the Secretary with respect to 
the maintenance and periodic readjustment of the VA Schedule 
for Rating Disabilities. Our charter is to, ``Assemble and 
review relevant information relating to the needs of veterans 
with disabilities; provide information relating to the 
character of disabilities arising from service in the Armed 
Forces; provide an on-going assessment of the effectiveness of 
the VA's Schedule for Rating Disabilities; and to provide 
ongoing advice on the most appropriate means of responding to 
the needs of veterans relating to disability compensation in 
the future''.
    Your letter asked me to testify on the Advisory Committee's 
views regarding the transition from servicemember to veteran, 
with a particular focus on the implementation of the IDES.
    At the time the Veterans Disability Benefits Commission was 
created by the National Defense Appropriations Act of 2004 it 
was already apparent that the peacetime system for 
transitioning sick and injured servicemembers to veteran status 
was overwhelmed. From the outset, and well before the 
reprehensible situations at the Walter Reed Barracks and other 
locations were recognized, the Commission saw the need for a 
rapid and seamless process that protects the servicemember 
while he or she progressed to veteran status. Transition became 
one of the major issues studied by the Commission. Interim 
recommendations addressing transition issues were offered as 
deliberations progressed.
    The VDBC examined the policies and processes within the 
Departments of Defense, Veterans Affairs, Labor, Health and 
Human Services, and the Social Security Administration that 
affected separation or retirement. Each of these entities plays 
a significant role in the transition of veterans and their 
families.
    Of the many recommendations the Commission made, many of 
them pertained to improving the transition process. I am 
providing for the record a list of the key transition 
recommendations and the status of their implementation as I 
understand it.
    Of the recommendations pertaining to transition of both the 
Veterans Disability Benefits Commission and the Advisory 
Committee on Disability Commission have offered, the one with 
the most potential to reduce the time to process claims and 
improve accuracy and consistency is the ongoing plan to revise 
the VASRD, the rating schedule. This complex, multi-year 
revision will incorporate current medical knowledge and 
technology as well as streamline the diagnosis, evaluation, and 
adjudication processes.
    Another key recommendation with potential long term 
positive effect is the movement to an electronic claims record. 
This is another example of an extremely complex challenge that 
VA has accepted and is working on. When fully implemented, it 
will simplify and expedite the claims process. As well, the 
Integrated Electronic Health Record which was mentioned in the 
previous testimony.
    The Advisory Committee on Disability Compensation took up 
where the VDBC left off on making recommendations for 
improvements to the systems and processes to transition 
servicemembers to veteran status. Particular emphasis has been 
on the injured and the ill servicemembers who are eligible for 
the IDES program. However, the scope of our activities, it 
covers all servicemen transitioning to veterans.
    Our recommendations have included specific statutory and 
regulatory changes such as increased family support services, 
educational, vocational training and rehabilitative support. 
Many of these recommendations have been adopted in whole or in 
part. We have recommended the VA undertake an in depth 
longitudinal and independent evaluation of the VR&E Program as 
soon as possible to determine the effectiveness of the program 
in serving disabled veterans. We believe there are significant 
opportunities for improving access offerings and management.
    We have offered recommendation for reducing a number of 
contact points a veteran must touch in order to understand and 
receive benefits, also mentioned in previous testimony. We are 
in the process of reviewing the availability of mental health 
programs for veterans. The Committee is also tasked to look at 
unique Reserve and National Guard transition issues and we 
recently added a U.S. Air Force Reserve medical officer to the 
Committee to assist us in that regard.
    The current IDES program incorporates many of the 
recommendations of the Veterans Disability and Benefits 
Commission and the Advisory Committee on Disability 
Compensation. It represents a tremendous effort on the part of 
VA and DoD to focus on the transition of members who are sick 
or injured to veteran status.
    All parties, including the Congress, are frustrated by the 
average time still required to complete the transition. From 
the perspective of someone who has the opportunity to work on 
this effort over the last eight years, I do believe that 
progress is significant and more importantly that the progress 
will continue.
    On behalf of the Advisory Committee, thank you for the 
opportunity to testify on this important matter.

    [The prepared statement of Lieutenant General James Terry 
Scott appears in the Appendix]

    Mr. Runyan. Thank you very much, General Scott, and I thank 
you for your service to this country and your continuing 
service to our heroes. I appreciate it.
    With that, we will begin a round of questioning. My first 
question is for Dr. Wilensky. In your testimony you mentioned 
the importance of recognizing that there are different 
functions that medical exams can serve and there are many 
different goals. How would you incorporate your suggestion of 
the ongoing periodic medical evaluations into a single 
disability exam process?
    Ms. Wilensky: It is a good question, Mr. Chairman. The 
reason I mention that is having spoken with many medical 
officers, those currently and previously in the military, they 
reminded me of the different functions that a medical exam can 
fill, a physician maybe determining the diagnosis or the 
process of treatment and then the progress in terms of that 
individual over time, which may be on an ongoing basis. When it 
comes to an exam that is done in order to determine fitness to 
serve or a disability status, that is a moment in time. I mean, 
it is an important moment in time. It needs to be on a single 
basis as is being done. But it needs to be recognized within 
the context that there will be ongoing periodic evaluations, 
both in order to be able to treat the individual, whether he or 
she returns to duty or becomes a veteran, and also periodically 
should be done in order to establish whether or not the 
disability is continuing as it was initially established.
    It's important to recognize that a single exam may include 
different components, it will be a snapshot and a moment in 
time, but it doesn't mean that it is the only medical exam that 
will be occurring over time. If you have a medical problem, you 
would want to have your medical professional seeing you when 
carrying out the course of treatment. It is to recognize that 
the focus on having this one exam done by a VA certified 
physician is appropriate for the particular purpose of 
establishing fitness to serve or a VA disability as of that 
moment, but there will be, should be continuing medical exams 
over time for these other purposes.
    It's really to remind people this is not once and never 
again will you have a medical exam because that would not 
provide optimal care.
    Mr. Runyan. Thank you for that. And also, talking about 
disability and payment steps as we begin to deal with the 
transition and then loss of earnings and finally quality of 
life, can you give your assessment of the current state of 
these steps and how we can improve that process?
    Ms. Wilensky. Thank you very much, Mr. Chairman. This is an 
area that for me as an economist was particularly important. We 
on our Commission recognize that the payment, the orientation 
and thinking of the disability payment was heavily tied to 
post-World-War-II thinking where the loss of a limb or a 
certain type of injury could have very major impacts on 
earnings-potentials of individuals of post World War II, Korean 
and Vietnam eras.
    We were recognizing that we are now in an information and 
service oriented economy. And what that means is that with the 
help of the VA, the GI bill and others, even seriously injured 
individuals can be helped to reach a higher functioning state 
with the proper support, both VRA for those who need 
vocational, but higher education for those who are in a 
position to do so, and may be able to reduce or eliminate any 
earnings loss per se. Even for those individuals, they may well 
merit a quality of life decrement payment such as was the case 
for two out of the three injured on our Commission.
    I mentioned in my testimony that the wife of a third 
individual, Tammy Edwards, her husband is not somebody who is 
ever going not to have a major earnings loss as well as a 
quality of life decrement, no matter how much training and 
education was provided because of the severity of his injuries, 
including brain injuries as well as major burns.
    So it is important to recognize that even in an information 
and service society, there will be people who will continue to 
have significant earnings losses and quality of life 
decrements. But for people, like, two of our members, they 
would not have earnings losses. They would require a lot of 
support, payments while they were going to school, as well as 
what was as expensive support for their education.
    To the best of my knowledge, we have not made much progress 
in this area, although as you know, there has been a 
significant improvement in the educational support to people 
post service.
    Mr. Runyan. I have one question for Mr. Fisher quickly. I 
assume you have communication insight into the world of Wounded 
Warrior support, obviously through your organization. What is 
the general feel in this area pertaining to how the DoD and the 
VA utilize and communicate to organizations such as The Fisher 
House? Obviously, a lot of what we are talking about today 
deals with the lack of communication or lack of knowing the 
pathway forward.
    Mr. Fisher. Thank you, Mr. Chairman, and I would say in 
general we have maintained a very, very good dialogue with both 
the DoD and the VA. It is necessary for us to do so because the 
way we determine where a house is located is by dealing with 
the VA or the Surgeons General. So communication for us is 
absolutely essential so that we don't waste money. Every 
donation we get is precious. So we can't afford to have a house 
built where it doesn't belong.
    So the communication with the VA and the DoD has been 
fairly good in terms of our ongoing dialogue.
    Mr. Runyan. Thank you very much. With that, I recognize Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Fisher, I would just like to thank you for dedicating 
so much of your life to the service of other people.
    In your experience, what if anything can be done to ensure 
a better continuity of care for wounded warriors before they go 
home to live with their families, especially ones without PTSD 
and traumatic brain injuries? I know this is a tremendous 
burden on the families. Is there anything we could do or that 
the DoD or the VA could do to make that transition easier so 
the families can deal with this enormous burden?
    Mr. Fisher. Thank you, sir. I would, I think in my prepared 
statement I suggested that there potentially could be kind of a 
spousal education program upon deployment or as they entered 
the military and if a serviceman or woman enters the military 
as a single person and gets married while in the military, that 
their spouse at the time join a program.
    I think it is essential for the spouses to learn what the 
signs are or what to look for. They don't always manifest 
themselves with violence off the bat or the screaming and mood 
swings and so forth. I think that sometimes it could be just, 
you know, something as simple as not sleeping at night after 
deployment.
    So I think some kind of a spousal educational program that 
would kind of educate them, let them know what the signs or 
what the early warning signs are when they come home.
    Mr. McNerney. So this education would have to start before 
they come home basically.
    Mr. Fisher. Well, in terms of the spousal program, I would 
like to see something like that happen upon deployment before 
they leave, and I mean the first time, not if we are talking 
about multiple deployments.
    Mr. McNerney. Thank you. Ms. Wilensky, I was struck by 
something you said, the starkness of your statement that the 
problem is in the handoff, not in the quality of care, but then 
you also said that the IDES exam is just a single point in 
time. Things change and so I would like to get your idea of how 
we could make this work better. I mean, you must have a vision 
of how this would work.
    Ms. Wilensky. The good news, as I indicated, was that our 
observations, and that is supported by others as well, is that 
the actual quality of care being delivered. Once the person is 
in the place they are supposed to be, either active duty 
military or in the VA system, has been very good, and that the 
problems have occurred whenever they are making a change. There 
is not a single handoff.
    When they move from inpatient to outpatient care, there 
were major problems. It was why the Wounded Warrior Recovery 
Program was so important to put in place. And while that has 
reportedly helped, there are still concerns about whether it is 
completely getting the job done, whether those transitions and 
handoffs are occurring for the especially very seriously 
wounded as well as they need to be and whether that will 
continue as we go out because we are still seeing very 
seriously wounded individuals coming out of Afghanistan and 
other places.
    So it is not even there a single handoff. It is every time 
somebody moves to a different part of their care is when the 
problems have been occurring and those are the places where we 
remain vulnerable.
    With regard to the point in terms of evaluation, something 
like a three year evaluation of a disability is appropriate, so 
that there can be an assessment as to how the person is 
progressing and the kinds of needs that they have at that 
point, and again it was the emphasis that this is not anything 
other than a snapshot. It needs to be a really good snapshot 
because you are making a decision about fitness to serve and 
disability for the person who is leaving the service, but it 
has to be a series of follow-on snapshots, and three years is 
the time that was recommended to us.
    Mr. McNerney. Thank you.
    Ms. Wilensky. We did, by the way with respect to your 
question to Mr. Fisher, specifically recommend for the families 
of those who are severely wounded that the legislation be 
passed to allow them a six month family leave period as well as 
extended respite care to the parents or spouse of the severely 
injured.
    Mr. McNerney. Okay. I want to yield back to the Chairman.
    Mr. Runyan. I apologize to everyone. We just had a bill 
called in Natural Resources and I don't have any other Members 
on my side, so we are going to have to go into a recess for 
about a half an hour and reconvene at that point. I apologize 
and we will be back shortly. Return at noon.

    [Recess.]

    Mr. Runyan. The Committee will again come to order and I 
apologize for the delay and appreciate your patience in working 
with this. I have a question for General Scott. Based on what 
you heard this morning in respect to DoD and the VA's testimony 
on the progress of IDES as this point, generally how would you 
grade their progress with the recommendations of the Veterans 
Disability Benefits Commission?
    Lieutenant General Scott. Well, I think that both 
departments picked up on the problem after it was brought to 
their attention. As I said, it was pretty clear early on that 
some peacetime arrangement where the VA and the DoD was not 
satisfactory for large numbers of returning soldiers.
    Again, like you, sir, I was present when there was nothing, 
you know, when the VA and DoD essentially were not 
communicating at all about how to transition particularly 
injured or ill servicemembers, but all servicemembers to VA.
    It was basically, it was, well, here are your discharge 
papers, period. So I would say that I would give them a B to 
B+, and to get to an A they have got to reduce the average 
time, understanding that there are always going to be some 
cases that are just really complex, that are going to take an 
inordinate amount of time, and that makes the average, that 
runs the averages up.
    But I am pretty sure from what I heard this morning and 
from what I know from working with the VA in particular, that 
they are working to get these numbers down. And of course, 
numbers are not everything because we have got to be sure that 
we are taking care of the servicemember. As was said earlier, 
you have to be careful about trading off efficiency for 
effectiveness of speed for accuracy.
    Having said that though, I think that anyone who was 
testifying here or the backups would agree that we can do 
better and I can't tell you what the right number is, but I 
believe that these two departments are going to get it lower in 
that regard, so I give them a B to a B+ for progress certainly 
higher than that for an effort.
    Mr. Runyan. Thank you. Just one final question. Mr. Fisher, 
you talked about how the communication back to the departments 
is good. Are they providing you with the right amount of 
information and access to the wounded warriors to fulfill your 
mission? Or are there other things that you would like to be 
able to help?
    Mr. Fisher. No. We are being provided with the information 
and the access to the wounded warriors, absolutely. We are 
doing fine in terms of our interaction on that front.
    Mr. Runyan. Thank you for that. Okay. With that being said, 
again I apologize for the delay and I thank the panel for their 
testimony and look forward to continuing to have these 
discussions as we work to help our warriors transition into 
their life, so with that being said, the panel is excused. 
Thank you very much.
    I call the third panel up at this time. First we will hear 
from Mr. John Wilson, Legislative Director from Disabled 
American Veterans, and then we will be hearing from Mr. Phil 
Riley, the Senior Benefits Liaison for the Wounded Warrior 
Project, and then, Mr. Eric Greitens, the Chief Executive 
Officer from The Mission Continues.
    We appreciate your attendance today, and your complete and 
written statements will be entered into the hearing record. And 
Mr. Wilson, you are now recognized for five minutes for your 
oral statement.

  STATEMENTS OF JOHN WILSON, ASSISTANT LEGISLATIVE DIRECTOR, 
    DISABLED AMERICAN VETERANS; PHIL RILEY, SENIOR BENEFITS 
    LIAISON, WOUNDED WARRIOR PROJECT; ERIC GREITENS, CHIEF 
           EXECUTIVE OFFICER, THE MISSION CONTINUES.

                    STATEMENT OF JOHN WILSON

    Mr. Wilson. On behalf of the Disabled American Veterans and 
our 1,200,000 million members all of whom are wartime and 
disabled veterans, I am pleased to be here today to testify 
before the Subcommittee on Disability Assistance and Memorial 
Affairs about the Integrated Disability Evaluation System or 
IDES.
    IDES is the result of a recommendation of several 
commissions, as we know, with the goal of DoD and VA creating a 
single, comprehensive standardized medical exam that the DoD 
administers serving DoD'S purpose of determining fitness and 
VA's of determining initial disability ratings.
    A comparison between the DES pilot that was launched in 
2007 by the DoD and the VA, and the legacy DES found Active 
Component military members completed the pilot in an average of 
289 days, and Reserve Component military members completed it 
in an average of 270 days, compared to the legacy DES average 
of 540 days.
    Surveys revealed significantly higher satisfaction among 
DES pilot participants from those in the legacy system, and on 
July 30, 2010, the DoD Senior Oversight Committee Co-Chairs 
directed that IDES expand worldwide and it was by October of 
2011.
    While the DAV is generally pleased with the IDES, there are 
two topics I wish to address in my oral testimony. First, we 
are concerned about the military members going through the IDES 
not having ready access to representation from a veteran 
service organization as they did under the legacy DES.
    The issue of access to counsel to advise military members 
on the disability claims process is a concern of DAV and other 
VSOs and is also cited as a concern by the Recovering Warrior 
Task Force. The Task Force conducted surveys to determine the 
effectiveness of DoD programs and policies of for Recovering 
Warriors to include IDES. Their survey results reinforce the 
importance of providing legal counsel for the Medical 
Evaluation Boards as well as Physical Evaluation Boards. And 
even though the surveys clearly demonstrate the value of having 
legal counsel available throughout the disability evaluation 
process, the majority of Task Force focus group participants 
said they do not have any personal experience with or knowledge 
of these specialized legal services.
    As a result, they may be accepting PEB decisions that are 
not in their best interest, and the benefits they receive, may 
be less than what they would received have had if they 
understood the long term consequence of their acceptance of a 
particular PEB decision.
    We believe that all those going through the IDES process 
should have a clear understanding about it. That understanding 
would be best provided if they had access to the free 
assistance from certified representatives of VSOs who can not 
only explain the process and their rights, but can also act as 
their advocates.
    There has been some positive movement in this area that 
partially addresses VSO representation. The VA's Integrated 
Disability Evaluation System Implementation Guide issued in 
December of last year states that VA Military Services 
Coordinators will ``explain the availability of Veterans 
Service Organizations and provide a VA Form 21-22, Appointment 
of Veterans Service Organization Claimant's Representative, if 
the servicemember expresses interest.''
    While this is an improvement, we find it too passive. We 
recommend this guidance be modified so the Military services 
Coordinator explain the option of VSO representation whether or 
not the military member ``expresses an interest.''
    The second area to address is the effectiveness of the 
Physical Evaluation Board Liaison Officers or PEBLOs, who are 
supposed to guide servicemembers through IDES on the DoD side 
of the process, to ensure they are aware of their options.
    The Task Force found that many participants had limited 
knowledge about the role of PEBLOs. More often than not, 
comments about PEBLOs were negative and military members seemed 
to expect them to be more of an advocate than they are. That is 
not their role.
    While DAV has received information from the field that 
indicates the performance of PEBLOs has improved generally, 
there have been occasions when PEBLOs have incorrectly advised 
members. Recently, a PEBLO advised a member that he could not 
personally appear before the Formal Physical Evaluation Board 
to appeal the Informal Physical Evaluation Board's decision. 
This is clearly in error. But one of DoD's National Service 
Officers was able to provide the correct information to the 
member.
    And another case, a PEBLO incorrectly advised a master 
sergeant that he would received 10 percent as his retirement 
pay as a result of the IDES decision, even though he had been 
in the military 22 years. We clarified for the member that, in 
fact, he would be eligible for 55 percent of his base pay due 
to his 22 years of service, and that 10 percent that he would 
receive was his VA disability rating, not his retirement pay, 
and that would be offset.
    In order to prevent these types of errors and improve 
satisfaction levels, we believe it is imperative that training 
and quality control be reviewed and strengthened to make sure 
that VA is getting the rating decision right for the first 
time.
    As stated earlier, military members expect PEBLOs to be 
more of an advocate. The role of advocacy is key. Most 
servicemembers may not realize how complex the disability 
adjudication process is and have little time to learn, given 
the new time constraints. DAV believes that military members 
best interests would be served with greater access to the free 
assistance from representatives of VSOs who not only help them 
understand the claims' process, but will also act as their 
advocates.
    Mr. Chairman, that concludes my testimony. I would be glad 
to answer any questions you may have.

    [The prepared statement of John Wilson appears in the 
Appendix]

    Mr. Runyan. Thank you very much.
    Mr. Riley.

                    STATEMENT OF PHIL RILEY

    Mr. Riley. Chairman Runyan, Members of the Board, 
Subcommittee, rather, Wounded Warrior Project welcomes this 
opportunity to share our views in the Integrated Disability 
Evaluation System, IDES.
    As a Senior Benefits Liaison with Wound Warrior Project, it 
is my privilege to represent wounded, injured and ill as they 
go through the IDES leading to military retirement, separation 
or possible return to duty.
    Wounded Warrior Program recognizes that VA and DoD staffs 
have worked hard to improve disability evaluation process. We 
have seen some improvement, but much more work needs to be done 
to realize the goals set for IDES.
    As we see it, VA is meeting its commitments to IDES, but 
DoD has more work to do. IDES was created as a streamlining 
effort to replace separate DoD and separate VA medical 
evaluations and disability ratings. The goals were to create a 
less complex non-adversarial system that was faster, produced 
more consistent evaluations and compensation and led to a 
seamless transition from military to civilian life. In large 
part these critical and important goals have not yet been 
achieved.
    IDES begins with the warrior being referred to a Medical 
Evaluation Board or MEB for short. A board of several medical 
officers charged with evaluating, if the warrior is able to 
meet medical retention standards and return to full duty. When 
MEB determines that the warrior does not meet retention 
standards, it makes recommendation to the final deciding 
authority, the Physical Evaluation Board or PEB.
    The MEB's findings are documented in a narrative summary 
called the NARSUM. That summary (NARSUM) becomes the most 
important evidence the PEB uses. But in doing its work, the MEB 
does not examine or usually does not even meet with the 
servicemember.
    In our experience the critical summary the MEB prepares is 
often incomplete and inaccurate, and the servicemember has 
limited time to review and challenge the MEB summary. As a 
result, critical errors frequently go uncorrected.
    Allow me to share a case study from case experience of one 
of many wounded warriors we have worked with to illustrate some 
of these problems. The Army officer sustained a penetrating 
head injury in Iraq. Early in the course of his rehabilitation, 
he and his wife were pressured into signing papers and rushed 
him into the MEB and cut short some treatment.
    The NARSUM ultimately prepared by the MEB failed to include 
any description of the officer's day-to-day functional 
impairment. Instead, it simply listed medical conditions. Even 
at that, one of those conditions, loss of the use of an arm was 
omitted from the critical document.
    Later, the warrior transition unit he was assigned to 
actively discouraged him from appealing the PEB decision as 
``that would slow the process down.'' Their experience 
illustrates that IDES is subject to troubling, disruptive 
pressures.
    Overall, this profoundly wounded officer was prematurely 
pushed into a Medical Board process that produced a deeply 
flawed decision document that led to an erroneous decision and 
ultimately a lengthy but fortunately successful appeal.
    A less experienced young warrior with similar injuries and 
without the expert representation this officer secured might 
have fared much differently. It would be a mistake to judge 
IDES solely by reference to timeliness. That would overlook the 
dangers of moving too quickly, focusing only on the major 
unfitting conditions, at the expense of all medical conditions. 
Moving quickly often results in erroneous rating decisions and 
in servicemembers not getting needed medical care.
    IDES is highly vulnerable to quality control issues, 
incomplete exams, exam reports that fail to include new 
diagnosis, incomplete or insufficient NARSUMs and missing 
critical documentation.
    MEBs often don't have the time to review a warrior's 
medical records or do needed research on depth. The NARSUMs too 
often are not fully developed, not comprehensive and 
inaccurate, and too often fail to identify and fully document 
all of the warrior's medical conditions or minimizes them. 
These problems are often due to pressures to move cases along 
but errors ultimately prove harmful to the warrior. Wounded 
warriors and caregivers themselves generally are both poorly 
informed and under represented in navigating IDES.
    In theory, the PEBLO, that is Physical Evaluation Board 
Liaison Officer, should close any information gaps. In reality 
some of those liaison officers don't fully understand the 
system themselves and have such large caseloads that they can't 
provide adequate assistance to everyone.
    Also, there is considerable variability in the JAG's 
expertise on the IDES and there are just not enough JAG 
officers with necessary expertise.
    For recommendations, the Wounded Warrior Project has a 
number of recommendations to offer to more fully realize the 
goals set for IDES. We urge the Committee to work with Armed 
Services Committee to spur the executive branch to make needed 
changes.
    High among the recommendations in our written submission, 
we urge that DoD be directed to re-engineer and institute 
quality controls on its part of the IDES process.
    In conclusion, today, almost five years after the 
bipartisan commission called for streamlining the complicated 
Disability Evaluation System, the goals and vision for that 
system have yet to be realized.
    Thank you for this opportunity to testify.

    [The prepared statement of Phil Riley appears in the 
Appendix]

    Mr. Runyan. Thank you very much.
    Mr. Greitens, you are now recognized.

                   STATEMENT OF ERIC GREITENS

    Mr. Greitens. Thank you. Mr. Chairman, Congressman 
Carnahan, Members of the Subcommittee, thank you for the 
opportunity to testify this morning as the Founder and CEO of 
The Mission Continues. The Mission Continues is a national 
nonprofit organization that challenges veterans to serve and 
lead in communities across America.
    We believe that any system that is designed to create 
successful transitions for veterans, will only work if veterans 
are recognized for the immense abilities that they bring back 
to their communities. We have learned that by focusing on these 
strengths, despite some of the most severe disabilities, we can 
facilitate successful transitions from warrior to citizen.
    As a Navy SEAL, I served four tours in the Global War on 
Terrorism. On my last deployment in Iraq, my unit was hit by a 
suicide truck bomb. I was treated at the Fallujah surgical 
hospital and returned to full duty 72 hours later, but some of 
my friends--some of whom were standing an arms length from me--
were hurt far worse than I was.
    When I returned home, I visited them and went to Bethesda 
Naval Hospital to visit other wounded servicemembers. When I 
asked them, ``What do you want to do when you recover,'' each 
one of them said, ``I want to return to my unit.'' Their bodies 
had been injured, but their spirit of service had endured.
    My experience at Bethesda that day was not unique. In a 
recent survey of post-9/11 veterans, 92 percent strongly agreed 
or agreed that serving their community is important to them.
    At The Mission Continues we create successful transitions 
by challenging veterans to continue their service and engaging 
them in six-month fellowships at nonprofit and public service 
organizations in their communities. Today, an Army specialist 
from the 82nd Airborne now trains service dogs for the 
disabled; an airman now serves at a women's shelter; a Marine 
Corps sergeant now builds homes with Habitat for Humanity.
    During their fellowships, our veterans are provided with 
stipends and mentors, and are engaged in a comprehensive 
curriculum designed to achieve one of three post-fellowship 
goals. They go on to full-time employment, full-time education, 
or participate in an ongoing role of service in their 
communities. To date, we have awarded fellowships to 255 post-
9/11 veterans, who have served with 168 organizations across 
the country.
    For example, in Mississippi County, Arkansas, Anthony Smith 
served his fellowship working with under-privileged youth. In 
2004, Anthony was serving as a major in the Army when he was 
hit by a rocket-propelled grenade. After spending 64 days in a 
medically induced coma, he awoke to find that he was blind in 
one eye, had lost his right arm underneath the elbow, and that 
parts of his leg, hip and spinal cord were damaged. Like many 
of the veterans that we work with, his transition was 
difficult, and he started to doubt whether or not he was needed 
here at home.
    After Anthony became a Mission Continues Fellow, he found a 
renewed sense of purpose. Through his fellowship, Anthony is 
using martial arts to mentor at-risk youth. Using pushups, 
modeling patience, and teaching self-control, Anthony teaches 
character lessons to dozens of students every day.
    In two independent research reports, the George Warren 
Brown School of Social Work at Washington University has found 
that nearly 80 percent of the participants in our program 
reported that serving in the community had a positive effect on 
their future employability, performance, and promotion; 86 
percent of participants reported transferring their military 
skills to civilian employment; and 100 percent of fellows 
reported that they will probably or definitely stay involved in 
volunteer activities and public service in the future.
    Mr. Chairman, Congressman Carnahan, the story of this 
generation of veterans is still being written. Some have a 
tendency to rely on PTSD figures, unemployment statistics, and 
suicide rates to tell us how our veterans are transitioning. 
But these statistics do not tell the whole story. These 
statistics do not capture a veteran's desire to continue to 
serve and their willingness to lead in communities upon their 
return.
    They do not tell the story of Shawn, an Army veteran who is 
now a youth football coach in Massachusetts, or April, the Army 
veteran who serves as a mentor to refugee children in the 
Chicago classrooms.
    Across America veterans are serving again. In fact, the 
majority of the members in this Committee have Mission 
Continues fellows serving in their district or neighboring 
districts. And last year, with our fellows as examples, The 
Mission Continues engaged over 15,000 Americans to spend a day 
of service with veterans in their communities. Our Mission 
Continues fellows are enduring leaders who have overcome pain 
and turned it into wisdom. They are veterans whose commitment 
to our country did not end on the battlefield.
    In order for veterans to transition successfully, 
communities across America must begin to recognize the service 
they still have to give. We believe that when the story of this 
generation of veterans is written, it will not only be a story 
of the wars they have fought overseas; it will also be a story 
of the homes built, the parks restored, the young minds engaged 
by veterans whose mission continues here at home.
    Mr. Chairman, we are grateful for your support and the 
support of this Subcommittee. I would welcome any questions 
that you or other Members may have. Thank you.

    [The prepared statement of Eric Greitens appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Greitens. I appreciate that. I 
thank you for your service and what you are doing to help our 
servicemen and women. On a personal note, I am fortunate enough 
to have in my district office a wounded warrior. I would say 
she is probably one of the top employees we have around there 
and she deals with all of our veterans case work.
    Mr. Greitens. Yes.
    Mr. Runyan. And does a very good job at it. So I agree with 
pretty much everything you said.
    Mr. Greitens. Thank you.
    Mr. Runyan. Especially as to on how motivated these 
individuals are, and how giving and service oriented they are.
    Mr. Greitens. Yes.
    Mr. Runyan. Mr. Wilson, I have a question for you. Do you 
think the VA and DoD have adequately taken the recommendations 
of the various Commission reports into account and of those 
recommendations, which of those recommendations have or have 
not been implemented?
    Mr. Wilson. There are certainly a number of recommendations 
that the Commission has put forward. One of the ones that we 
were most concerned about had to do with the single 
comprehensive exam, letting the VA, in fact, do what they do 
best, which is evaluate disabilities and provide overall rating 
examinations. They have now done that and generally it seems to 
be an effective program. There continues to be concerns with 
the DoD and VA staffing levels for physicians in order to make 
sure the exams are being timely that the narrative summaries 
are fully developed by the DoD, and again that there are a 
sufficient number of physicians on staff to make this as timely 
as possible.
    The other issue is JAG representation. It is critical for 
an individual to know their legal rights. You have to have a 
sufficient number of JAG officers, Judge Advocate Generals, to 
advise personnel about what those rights are. They may not 
fully understand them, and that is a concern to us. The 
staffing levels of the PEBLOs is also a concern because they 
need to have a certain number of PEBLOs in order to manage the 
cases.
    PEBLOs are asked to address issues that are cross 
functional which leads to some of the problems that I alluded 
to in my testimony.
    Mr. Runyan. And in talking about knowing your rights, 
whether it is getting to a JAG or dealing with a PEBLO, do you 
see the possibility of the VSO having a role in that?
    Mr. Wilson. Yes, sir. In my written testimony, I highlight 
some statistics that we had for DAV exclusively and other 
Veteran Service Organizations could provide additional 
information I am sure.
    We have seen a steady decline in the number of individuals 
we have represented over the years since the implementation of 
the IDES program. Now, that may be as a result of individuals 
thinking that a 30 percent disability rating with VA is good. 
It gives me retirement so I move on.
    Our concern is that 30 percent may not be an accurate 
rating of their disabilities and some of those individuals who 
may have gotten a 10 or 20 and severance pay instead, may not 
have received an accurate rating of disabilities either. It 
depends on what information you provide and how well it is 
documented in your medical record, of course.
    Veterans Service Organizations can advise military members 
on the IDES and are excellent at doing so. That is DAV's forte, 
as a matter fact.
    Mr. Runyan. Thank you.
    Mr. Riley, if you could identify one fundamental problem 
with the IDES program that should be addressed immediately, 
what would that be?
    Mr. Riley. The NARSUM preparation needs much better quality 
control by DoD and the Services.
    Mr. Runyan. Okay. In dealing with how the VA and the DoD, 
and the contrast between recovering warriors that have the long 
delays and those others that are expedited right through it, 
how do we bring that gap together where it is more consistent, 
because obviously some of them do need to be expedited, but 
there is always going to be a breakdown there and try to, 
obviously cut that down--I think you mentioned or someone in 
the other panel mentioned we would like it to be at 100 days if 
we could. How do we get there?
    Mr. Riley. I think that is a question that the medical 
command has to come to grips with but basically if there are 
serious conditions, not just unfitting conditions that need 
treatment, the treatment should be given, and there should be 
some control over that, instead of just pushing them through as 
soon as they have gotten identified as unfitting or several 
unfitting conditions and making it go fast at that point. The 
other thing, of course, is getting good advice to some of the 
people to make sure they make the most of their medical 
treatment availability, don't miss their appointments and 
administrative things of that nature.
    Mr. Runyan. Thank you. Mr. Greitens, I just have one 
question for you, specifically because you deal with a lot of 
these wounded warriors day in and day out. What is the feedback 
you get from them about this program?
    Mr. Greitens. Sir, generally, with this program there has 
been a lot of----
    Mr. Runyan. Is your mic on?
    Mr. Greitens. Yes, sir. Yes, sir. With this program, what 
we have seen from a number of veterans, certainly a broad 
spectrum of responses, but I think with many of the veterans 
there has been frustrations, though with this process, and the 
frustration, sir, is that as they are coming back, it is not 
just dealing with the system for getting a solid disability 
rating. The larger point is that there is not a clear avenue 
for them out of this process, so there in a disability process. 
But the question is, of course, for them, what comes next.
    Our answer at The Mission Continues is that you can 
continue your service to your country as you come back, and of 
course we need to have answers to them both around employment 
and education.
    And what we believe is that in order for this transition 
process to be successful, what those veterans have to see very 
early on is that there is this light at the end of tunnel, and 
one of the things that I would recommend, we found that 
oftentimes the very best people who can actually advocate for 
and work with wounded veterans are oftentimes wounded veterans 
themselves because they have been through the process, they 
have lived through it and one of the things that they can also 
offer to their colleagues is some hope that at the end of this 
process there is a way to turn this pain into wisdom, there is 
a way to turn the suffering and the strength, and there is a 
way for them to continue their mission of public service to 
their country, sir.
    Mr. Runyan. Thank you very much.
    Mr. Greitens. Yes, sir.
    Mr. Runyan. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. I want to start with 
Mr. Wilson and Riley and really follow up on the things you 
touched on about getting a good advice and to what extent that 
you mentioned, Mr. Riley, the shortage of JAG officers, but 
also, Mr. Wilson, you mentioned the legal counsel that is 
available through your organizations. How are those coordinated 
and are there ways that that can begin, try to maximize the 
resources that are out there to be sure they are getting that 
good advice in the process?
    Mr. Wilson. To address the issue of access to Disabled 
American Veterans, representatives or other certified Veteran 
Service Organizations, we know when we look at the guidance 
currently available from DoD and VA, the VA and Military 
Services Coordinator, his task, as I said in my testimony, with 
the task of letting you know you have an interest, that there 
are VSOs who can assist you.
    Having an interest is a concern to us. If a person is 
rather passive in their discussion, the VA Military Services 
Coordinator may not pick up on the fact that, yes, they would 
like to know about this, so we would prefer that it would be 
very direct information sharing from the VA's Military Services 
Coordinator. We also believe strongly that the PEBLO who is 
supposed to be key to driving the train on the DoD side of this 
process, also clearly lets them know that Veteran Service 
Organizations are available to assist them as well. You don't 
have to be a veteran in order to get Veteran Service 
Organization representation and that shift thinking of someone 
on active duty versus thinking of themselves as soon to be 
veterans may be a part of a problem. As individuals are going 
through this IDES process which is new to them, they are 
learning as they go. They get many months of training through 
the various military specialties but they don't get very many 
months of training when it comes to the IDES process, They are 
focused first, getting healthy. Later in the healing process 
they focus on, what they are going to do when they get out of 
the military. In trying to make that transition they then come 
to understand they need legal representation which we can 
provide.
    Mr. Carnahan. And let me ask Mr. Riley to respond as well.
    Mr. Riley. Well, I find that oftentimes when I meet Wounded 
Warriors families and the warriors in the wards that they 
really want to know something about the benefits process, but 
they don't know who to ask, and they don't get information 
right up front.
    First of all, I think, when you have got seriously wounded 
people, you need to get information right up front and we do a 
number of bedside briefings and what have you if we are allowed 
to.
    The PEBLO gives basically a PowerPoint briefing to the 
servicemember, and unfortunately most of the time we don't get 
engaged until we have been called in by someone who is 
concerned about their narrative summary and also they don't 
take advantage of the JAGMEB/PEB Officers. There are some good 
JAGs and real trusted JAGs out there now, but there weren't a 
few years ago, and soldiers tend to resist, thinking that they 
have got a lawyer that is not on their side when it is a 
government lawyer, but now they actually have MEB and PEB 
lawyer JAGs that are very helpful. I have worked several cases 
in conjunction with JAG officers and that has worked very well.
    So what I would finally say is if the Department of Defense 
would encourage and bring us on to do more, we could really 
help with the success of the IDES process.
    Mr. Carnahan. Thank you. Let me turn to Mr. Greitens. You 
mentioned this avenue out of the process which I think 
obviously is a critical component. What is the biggest 
challenge that you have found for your fellows in being able to 
get to that avenue?
    Mr. Greitens. Yes, you know, well, Congressman, one of the 
challenges is, is to make sure that as a community 
organization, that we have the opportunity to work with men and 
women who are interested in this program. Over 50 percent of 
our recommendations are coming from Mission Continues Fellows 
and Mission Continues alumni who are saying to their 
servicemembers, saying to men and women who they are in the 
hospital with, this really changed my life, you should get in 
touch with The Mission Continues.
    We have, at present, a number of excellent advocates, 
individuals in the VA system who have seen their patients go on 
to become Mission Continues Fellows. But one of the challenges 
at present is that for an organization like The Mission 
Continues or other organizations that offer services to help 
veterans make this transition, there is no central way to 
become accredited as a high quality service organization that 
can actually work within the DoD and the VA.
    And so what happens is that for many small nonprofit 
organizations who might have a national footprint but don't 
have the ability to go to every military base around the 
country, right now you would have to get an individual 
memorandum of understanding to work on that base.
    One of the things that would be incredibly helpful is if 
there is a joint VA and DoD process that could accredit 
organizations who are often very high quality services. As you 
know, Congressman, there also is a great number of veterans 
organizations that are out there. Not all of them provide high 
quality services, and so if the VA and the DoD create an 
accreditation process, it would help these organizations to get 
that accreditation. It would kind of serve as a way to certify 
organizations who could help with this transition.
    Mr. Carnahan. Thank you.
    Mr. Greitens. Yes, sir.
    Mr. Carnahan. I have got a couple more that I want to ask 
you about and that Chairman has given me leave to ask a few 
others.
    Mr. Greitens. Yes, sir.
    Mr. Carnahan. But to your point.
    Mr. Greitens. Yes, sir.
    Mr. Carnahan. About the VA and DoD, the role that they are 
playing in helping to do that now, and sort of where is that 
room for improvement, if you could elaborate on what you just 
talked about.
    Mr. Greitens. Yes, sir. I think just to elaborate and what 
I would like to see is a joint process by which the VA and the 
DoD come up with a certain criteria that organizations need to 
meet in order to be accredited to provide services to 
servicemembers and returning veterans. Currently, that process 
oftentimes varies from base to base. It can sometimes vary from 
hospital to hospital.
    And so, in the same way The Mission Continues today, it is 
a Better Business Bureau accredited charity. The Better 
Business Bureau has 20 standards that we have to meet in order 
to get that accreditation. I think there is some room here for 
the Secretary of the VA and the Secretary of Defense to put 
together a joint Committee which would then say these are the 
standards that organizations have to meet in order to be 
welcome both on military bases and in VA institutions.
    Mr. Carnahan. I think that is a great idea and I think it 
is a conversation really worth digging into. And also I wanted 
to follow up and ask within what you do, do you see actions 
that Congress could do to better assist community-based 
organizations like yours to again help with this transition?
    Mr. Greitens. Thank you, Congressman. I think there are 
probably two things that Congress can do. One is, I think, 
because of the sort bully-pulpit power that individual members 
have, Congress has, that this Subcommittee has, I think it is 
very important for us to get the message out to the public 
about the capabilities that this generation of veterans has. 
Too often when people think about veterans, if you pulled ten 
people off of the street right now and you asked them to give 
you their top ten words about veterans, they would certainly 
say service, they would certainly say honor. But somewhere in 
that list of ten, they would also say post-traumatic stress 
disorder, they would say traumatic brain injury, they would say 
unemployment, they would say suicide.
    And I believe, Congressman, that we have a battle on our 
hands right now to determine what the future, what the legacy 
of this generation of veterans is going to be. So first, I 
think there is a kind of bully pulpit function of individual 
congressmen going out and talking about the wounded warriors 
who they have, who are doing incredible work, and let us get 
that message in front of the public about the capabilities that 
these men and women have.
    Secondly, my team and some of our other partners in the 
veterans service space right now are exploring ways that we 
might actually engage with existing Federal programs, existing 
Federal dollars that would help to enable veterans to begin to 
serve again in their communities.
    Our plan is to do this research and then come back to you, 
Congressman, and come back to the Subcommittee with a set of 
recommendations about how Congress could actually help to 
facilitate veterans coming home and continuing to serve in 
their communities and executing these successful transitions, 
and we welcome the opportunity to follow up with your staff and 
the staff of this Subcommittee on those ideas. Thank you so 
much.
    Mr. Carnahan. Thank you.
    Mr. Runyan. I just have one final question, for Mr. Wilson. 
In your written testimony, you stated that overall satisfaction 
rates are higher in the IDES program than the legacy DES 
program. Other than improved processing times, specifically 
what else is there that is moving that line?
    Mr. Wilson. I think it would be interesting to see what the 
individuals who are going through the processes themselves have 
thought thus far. If I recall correctly, they would like to 
have a better understanding of who their advocate is in this 
process, who is that person. How would the DoD and the VA go 
about improving this so that it is very clear to an individual 
that their advocate is going to be a certain single individual 
that they can go to? That is one area, I think, that is of 
great interest to us, and we would hope that the briefings are 
provided are not death by PowerPoint, but in fact but are given 
by PEBLO's who are well trained and understand the process well 
enough to explain IDES clearly.
    So quality control of the work done by PEBLOs or a Military 
Services Coordinators, or others, requires continued review and 
assessment.
    Mr. Runyan. I was looking to end on a positive note, other 
than the speed at which we do it, of the new system, what would 
that be, or isn't there one?
    Mr. Wilson. Oh, are there positives with new system besides 
the speed? Yes, sir. We are very pleased with the fact that we 
now have a single comprehensive exam done by VA, since they are 
experts in this area of providing disability ratings. It is 
much more efficient than it was previously and the combining of 
efforts and eliminating repetition or competition between the 
DoD and VA. No longer are disability ratings done by the DoD 
and then by the VA taking out unnecessary steps in this 
process. That has made a significant improvement. Timeliness 
has improved as well, and I think satisfaction rates are higher 
with this program, as a result of those kinds of modifications.
    Mr. Runyan. Thank you. You don't have any questions, do 
you?
    I want to, gentlemen, on behalf of this Subcommittee, I 
want to thank each of you for your testimony and we welcome 
working closer with you in addressing these issue that have an 
enormous impact on our American veterans and you all are 
excused now. I recognize Mr. Carnahan for a closing statement.
    Mr. Carnahan. Just again, Mr. Chairman, thank you for your 
leadership on the Committee and I want to thank our witnesses, 
all three panels today. This is, I think, been a really good 
overview. Some really good positive ideas have come out of this 
and we really look forward to working with you to be sure we 
can get these implemented. Thanks again.
    Mr. Runyan. With that, I ask unanimous consent that all 
members have five legislative days to revise and extend their 
remarks and include any extraneous material.
    Hearing no objection, so ordered. I thank the members for 
their attendance today, and this hearing is now adjourned.

    [Whereupon, at 12:59 p.m. the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
                                Remarks
    Good morning and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    We are here today to examine the current framework in the ongoing 
efforts to streamline the transition process between active duty 
soldier to veteran.
    The lynchpin of this streamlining process has been the 
implementation of the Integrated Disability Evaluation System, 
otherwise known as ``I.D.E.S.'' This program was created in December 
2007 following the recommendations of the Veterans' Disability Benefits 
Commission, and the President's Commission on Care for America's 
Returning Wounded Warriors, otherwise known as the Dole/Shalala 
Commission.
    I.D.E.S.'s goal is to improve the timeliness, effectiveness, and 
transparency of the former legacy DES review process, which had been in 
place for 60 years prior. In October of 2010, VA and DoD worked in 
concert to begin the permanent shift to I.D.E.S around the country in 
139 locations. The ultimate objective remains to fully close the gap 
which occurs between separation from active duty service and receipt of 
VA benefits and compensation.
    I am pleased to see progress being made to meet this objective 
under the new system, specifically, helping to cut the transition time 
between active duty and veteran status. However, there are several 
issues and unforeseen problems which need to be addressed.
    First, issues with processing times remain problematic. Whereas 
some Recovering Warriors experience lengthy delays in their attempt to 
navigate through the IDES system, others are rushed through without 
receiving the proper medical attention that they need.
    Second, many Recovering Warriors report that they find the IDES 
process to be extremely confusing and difficult to understand. Further 
efforts must be made to work directly with our Recovering Warriors to 
ensure that they are making the right decision for themselves, their 
families and their futures.
    Finally, IDES is not as simple in practice as the various 
Commission Reports were hoping it would be when it was first proposed. 
Now, nearly five years after its inception, it is important for both VA 
and DoD to continue evaluating the system and their efforts to achieve 
its goals of increasing transparency, improving consistency, and 
eliminating duplicate processes.
    As a new generation of active duty servicemen and women return home 
from conflicts oversees, we must be prepared to meet our commitment to 
see that their transition to civilian and veteran life is as efficient 
and simple as possible. It is our duty to see that their service is 
honored as best as our resources will permit.
    It is my hope that this oversight hearing will shed some light on 
some of the problems we have encountered in the implementation of IDES 
so that we may work together to find the best solutions possible.
    I want to thank the VA, the DoD, the present VSOs, Dr. Wilensky, 
Mr. Fisher, and General Scott for their valuable input as we work 
together to find important solutions.
    I welcome today's witnesses and would now call on the Ranking 
Member for his opening statement.

                                 <F-dash>
              Prepared Statement of Hon. Jerry McNerney, 
                       Ranking Democratic Member
    Thank you, Mr. Chairman. I would like to thank you for holding 
today's hearing.
    The purpose of this hearing is to focus on the transition process 
of servicemembers to veterans, with a particular focus on the 
implementation of the Integrated Disability Evaluation System (IDES), a 
joint VA/DoD examination and records integration effort initiated in 
2007 as a result of the fallout from deplorable conditions and 
disjointed care of Wounded Warriors at Walter Reed Army Hospital.
    This hearing will allow us to not just assess the effectiveness of 
the Integrated Disability Evaluation System (IDES), but other 
components of the Pre-Discharge Program established by the Departments 
of Defense (DoD) and Veterans Affairs (VA), and to streamline 
servicemembers' transition from active duty to veterans' status.
    Today's discussion on IDES also follows up on our work implementing 
the Veterans' Benefits Improvement Act of 2008, Public Law 110-389, 
which also paved the way for a number of initiatives targeting the VA 
claims backlog.
    In 2007, the Dole-Shalala Commission, set recommendations for the 
care of wounded warriors, and concluded that it is not enough to merely 
patch the system for transition to civilian life, as has been done in 
the past. The experiences of our men and women returning home 
complaining about a lack of a clear outline of the access to care, 
benefits, and services available to them highlighted the need for 
fundamental changes in the care management and disability systems.
    The Dole-Shalala findings marked the siren call for the creation of 
the Disability Evaluation System--a joint effort between DoD and VA to 
move to a one-exam platform, which today we know as the Integrated 
Disability evaluation System or IDES.
    We must make every effort to focus our resources toward assisting 
transitioning servicemembers with the comprehensive, coordinated care 
and benefits they deserve. This must occur at the very beginning of a 
servicemember's reintegration.
    To this end, any member of the Armed Forces who has seen active 
duty--including those in the National Guard or Reserves--is eligible to 
apply for VA disability benefits prior to leaving military service 
through the Benefits Delivery at Discharge, Quick Start, or IDES pre-
discharge programs.
    During the application process, servicemembers can get help in 
completing forms and preparing other required documentation from VA 
personnel located at their bases. Additionally, IDES combines the 
health exam required by the DoD upon exiting the military and the VA 
disabilities assessment exam into a single process, albeit for 
different purposes.
    In the meantime, in an effort to provide even greater transition 
assistance, more elements and players, like the Federal Recovery 
Coordination Program have been added to assist our wounded warriors.
    I know the intent of these programs are well-meaning, and have 
helped numerous veterans across the country. But I still hear from 
veterans in my district who have gone through these programs, and 
continue to experience significant delays, confusion and other problems 
with effective reintegration.
    In fact, to that end, I would like to mention that Mr. Barrow has a 
helpful bill pending before the Health Subcommittee, H.R 3016, that 
would improve reintegration efforts and require that the Federal 
Recovery Coordination Program operate jointly under both DoD and VA.
    Since its full implementation at the end of 2011, IDES has been 
expanded from 3 military bases to more than 139 sites globally and 
nationally.
    With the drawdown of troops over the next few years, I am 
particularly concerned by the fact that the average processing times 
takes 400 days, and that there are about 200,000 servicemembers already 
in the system. We don't need another backlog and want to avoid that 
outcome at all costs.
    I look forward to having an open dialogue with the panels here 
today, and with my colleague, on ways to overcome challenges within the 
IDES system, and accelerate processing without sacrificing quality. 
Separating servicemembers should not wait more than a year for their 
assessments and benefits.
    It is my hope that through our examination of the IDES and other 
pre-discharge programs today, coupled with the electronic integration 
and other business reformation efforts accomplished over the last few 
years, we will continue to improve and transform today's VA claims 
processing system and help our servicemembers successfully transition 
back into our communities. And NOT into another backlog.
    I look forward to hearing from all of our esteemed witnesses. Thank 
you, Mr. Chairman. I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Russ Carnahan
    Thank Chairman Runyan and Ranking Member McNerney for recognizing 
me here today.
    This isn't the normal Subcommittee that I sit on, but today I am 
proud to have an organization from my district that I've had the 
pleasure of working with testifying before this Committee. I'd like to 
use my opening remarks to recognize and introduce to the Committee Eric 
Greitens of the Mission Continues.
    The Mission Continues is truly a remarkable organization that 
empowers veterans to transform their lives and the lives of others by 
participating in community service fellowships. These Mission Continues 
fellows serve six months at community non-profit organization and 
afterwards either obtain full-time employment, pursue higher education 
or a permanent role of service. This is truly a remarkable program that 
not only gives veterans a much needed sense of purpose following 
military service, but also eases an often extremely difficult 
transition to civilian life.
    And as an organization that is run by a Navy Seal and many former 
members of the military, the Mission Continues has a keen understanding 
of the many challenges facing our servicemembers when they return home. 
As this organization continues to make this model more accessible and 
available to veterans across our country, my colleagues and I stand 
ready to continue to support them in this life-changing work.
    With that, Mr. Chairman, I again thank you for recognizing me, and 
I look forward to hearing the testimony of not only the Mission 
Continues, but the other organizations who are present here today to 
talk about this important issue.

                                 <F-dash>
                  Prepared Statement of John P. Medve
    Good morning Chairman Runyan, Ranking Member McNerney, and Members 
of the Subcommittee. My name is John Medve, Executive Director of the 
Department of Veterans Affairs (VA) Office of VA-DoD Collaboration 
within VA's Office of Policy and Planning. I am pleased to be joined by 
Mr. Jim Neighbors from the Department of Defense (DoD). My testimony 
will focus on the status of the transition process from DoD to VA, with 
an emphasis on the Integrated Disability System (IDES), the Federal 
Recovery Coordination Program (FRCP), and Veterans Affairs Schedule for 
Ratings Disabilities (VASRD) modernization. I will provide the 
Subcommittee with an overview of the status of the IDES, the process 
used to transition the wounded, ill, and injured who are unfit for 
continued military service. I will also provide an overview of care 
coordination efforts designed to assist severely wounded, ill, and 
injured servicemembers and Veterans through recovery, rehabilitation, 
and reintegration as it relates to the FRCP, and explain how VA and DoD 
are communicating about additions and revisions to the VASRD.
Integrated Disability System (IDES)
    VA and DoD's joint efforts have resulted in improvements and 
created an integrated disability process for servicemembers who are 
being medically retired or separated.
    Much has been accomplished to improve the DoD disability process in 
the wake of the issues identified at the Walter Reed Army Medical 
Center in 2007. In early 2007, VA and DoD partnered to develop a 
modified, integrated Disability Evaluation System (DES) and a DES Pilot 
was launched in November 2007. This new, joint process was designed to 
eliminate the duplicative, time consuming, and often confusing elements 
of the separate disability processes within VA and DoD. The goals of 
the joint process were to: (1) increase transparency of the process for 
the servicemember; (2) reduce the processing time; (3) improve the 
consistency of ratings for those who are ultimately medically 
separated; and (4) reduce the benefits gap that existed between the 
point of separation or retirement and before receipt of VA disability 
compensation. Authorization for the DES Pilot was included in the 
National Defense Authorization Act for Fiscal Year 2008.
    The DES Pilot was launched at three operational sites in the 
National Capital Region (NCR): Walter Reed Army Medical Center, 
National Naval Medical Center, and Malcolm Grow Medical Center on 
Andrews Air Force Base. The DES Pilot was recognized as a significant 
improvement over the legacy DES process, and, as a result of the Senior 
Oversight Committee (SOC) findings and the desire to extend the 
benefits of the Pilot to more servicemembers, VA and DoD expanded the 
Pilot. By the end of March 2010, the DES Pilot had expanded to 27 sites 
and covered 47 percent of the DES population. In July 2010, the co-
chairs of the SOC agreed to expand the DES Pilot and rename it IDES. 
Senior leadership of VA, the Services, and the Joint Chiefs of Staff 
strongly supported this plan and the need to expand the benefits of 
this improved process to all servicemembers. Expansion and full 
implementation of IDES was completed by September 30, 2011. Currently, 
there are 139 IDES sites operational worldwide, including the original 
27 DES Pilot sites.
    In contrast to the DES legacy process, the IDES provides a single 
set of disability examinations and a single-source disability rating, 
used by both Departments in executing their respective 
responsibilities. This results in more consistent evaluations, faster 
decisions, and timely benefits delivery for those medically retired or 
separated. As a result, VA can deliver benefits in the shortest period 
allowed by law following discharge thus reducing the ``benefit gap'' 
that previously existed under the legacy process, i.e., the lag time 
between a servicemember separating from DoD due to disability and 
receiving his or her first VA disability payment. This also prevents 
the servicemember from having to navigate the VA disability system on 
his or her own after separation. The DoD/VA integrated approach has 
also eliminated many of the sequential and duplicative processes found 
in the legacy system. Yet, there is more to be done.
    To monitor our overall performance for the IDES process, VA and DoD 
track the performance of the core processes on a bi-monthly basis for 
the over 25,000 servicemembers in IDES. In addition, VA's Chief of 
Staff conducts bi-monthly internal Video Teleconferences (VTCs) with 
Central Office and Field Executive staff. VA also has joint monthly 
VTCs with both Army and Navy/Marine Corps to discuss site performance 
and general collaboration opportunities.
    VA is responsible for four core processes within IDES: claims 
development, medical examination, proposed rating, and VA benefits. VA 
average processing time for VA core processes has decreased from 186 
days in February 2011 to 134 days as of February 2012. The VA target 
for combined processes is 100 days of the 295 day combined VA-DoD 
target. While VA is currently meeting the goals for claims development 
and medical examinations, it is still falling short of meeting the 
standards for developing the proposed rating and the delivery of VA 
benefits. To address these shortcomings, VA assigned additional raters 
to Disability Rating Activity Sites (DRAS), increasing the number of 
Ratings Veterans Service Representative (RVSRs) to 167 among the three 
IDES rating sites in Seattle, Baltimore and Providence, which 
represents a 35 per cent increase in personnel. To address the 
timeliness of benefit delivery, VA identified a process to receive 
servicemember separation data electronically. This functionality is 
scheduled to be deployed in May of this year.
    Despite the overall reduction in combined processing time achieved 
to date, challenges remain and there is room for significant 
improvement in IDES execution.
    VA and DoD are committed to supporting our Nation's wounded, ill, 
and injured Warriors and Veterans through an improved IDES. As such, VA 
believes that its continued partnership with DoD is critical and is 
nothing less than our servicemembers and Veterans deserve.
Federal Recovery Coordination Program (FRCP)
    The FRCP was created in October 2007 in direct response to the 
Dole-Shalala Commission's recommendation for improved care coordination 
for seriously wounded, ill and injured. The FRCP is designed to work 
and interact with existing military and VA health care teams, case 
managers, benefit coordinators, other Federal agencies and the private 
sector. FRCP provides seamless support from the servicemember's arrival 
at the initial Military Treatment Facility (MTF) in the United States 
through the duration of his or her recovery, rehabilitation, and 
reintegration. The FRCP staff at the policy level coordinates with 
their DoD counterparts under the umbrella of the Joint Executive 
Council. The FRCP is an integral part of VA and DoD efforts to address 
issues raised about the coordination of care and transitions between 
the two Departments for recovering servicemembers. Federal Recovery 
Coordinators (FRCs) are located in 12 facilities across the country 
including four MTFs, two VA Medical Centers, three VA Polytrauma 
Centers, and three Wounded Warrior Program offices.
    FRCs assist severely wounded, ill, and injured servicemembers, 
Veterans and their families through each client's recovery, 
rehabilitation, and reintegration. They are Masters-prepared nurses or 
clinical social workers who provide high-level care coordination for 
their clients. The FRC creates a Federal Individual Recovery Plan 
(FIRP) for each client based on the goals expressed by the client, with 
input from his or her family and/or caregiver and health care team. To 
show greater transparency with servicemembers and Veterans, the FIRP is 
available through the eBenefits portal 24 hours a day, seven days a 
week. eBenefits is a web-based toll that is now available all 
servicemembers and Veterans and currently has over 1.2 million 
subscribers. FRCs provide client-centric assistance by coordinating all 
clinical and non-clinical care, benefits, and services, that are 
aligned with their clients' FIRP goals, regardless of medical 
diagnosis, geographic location of injury or illness or place of medical 
treatment. Clients remain enrolled in the program as long as there is a 
perceived need and benefit to the client. FRCP is unique to other 
programs in that once a FRC is assigned to a client, the FRC is the 
constant point of contact for that client throughout all transitions.
Veterans Affairs Schedule for Ratings Disabilities (VASRD)
    The VA Schedule for Rating Disabilities (VASRD) is the regulatory 
framework through which VA provides Veterans with compensation for 
diseases and injuries they incur while serving our Nation. It is this 
rating schedule that guides the disability rating personnel of VA and 
DoD in making the correct determination of the compensation benefit 
level applicable for a Veteran's service-connected condition(s). The 
VASRD contains disability percentages ranging from 0 to 100% that 
translate into monthly compensation for Veterans based, by statute, on 
``the average impairments of earning capacity.'' (38, U.S.C., section 
1155) VA is proactively updating and comprehensively revising the 
entire VASRD, which currently includes 15 body systems. This effort is 
the result of an October 2009 Secretarial directive to revise and 
update all parts of the VASRD, using current medical science and 
econometric earnings loss data. The update process is statutorily 
required under Section 1155 of Title 38, which states that ``[t]he 
Secretary shall from time to time readjust this schedule of ratings in 
accordance with experience.'' VA has partnered with DoD and the 
academic community to collaborate on revisions to the rating schedule. 
The collaboration involves public forums in which medical experts, 
members of the Advisory Committee on Disability Compensation, DoD 
officials, Veterans Service Organizations, and other stakeholders 
provide input and subsequently form working groups to substantively 
revise the rating schedule.
    While the public forums and working groups gather input from these 
important entities, under title 38 U.S.C., section 1155, VA has 
ultimate responsibility for adjustments to the VASRD. The Veterans 
Benefits Administration (VBA) has implemented a project management plan 
detailing the organizational, developmental, and supporting processes 
to modernize the rating schedule by 2016. The plan calls for eight 
medical officers and six attorneys to work with the subject-matter 
experts and cross-agency working groups as described above. The public 
forum and working group system is based on a methodology consistent 
with the Institute of Medicine's method of involving medical subject 
matter experts across disciplines, agencies, and private sectors. 
During this ongoing update process, VBA is engaged in a seamless 
partnership with VHA.
    The VA remains fully committed to meeting the needs of our Nation's 
heroes and their families. VA and DoD are partners and will continue to 
work together diligently to resolve transition issues while 
aggressively implementing improvements and expanding existing programs. 
These efforts continue to enhance the effectiveness of support for 
Wounded Warriors and their families. While we are pleased with the 
quality of effort and progress made to date with our joint 
collaboration, we fully understand our two Departments have a 
responsibility to continue to improve these efforts.
    Thank you again for your support to our wounded, ill, and injured 
servicemembers, Veterans, and their families. This concludes my 
testimony and I will be happy to respond to any questions.

                                 <F-dash>
                Prepared Statement of James G. Neighbors
    Chairman Runyan, Ranking Member McNerney, and members of the 
Subcommittee, thank you for inviting us to testify before you on the 
care and transition of our recovering Service members from the 
Department of Defense (DoD) to the Department of Veterans Affairs (VA). 
Taking care of our wounded, ill and injured Service members is one of 
the highest priorities of the Department, the Service Secretaries and 
the Service Chiefs. The 2007 revelations regarding Walter Reed Army 
Medical Center were a stark wakeup call for us all. During the past 
five years, DoD has worked in tandem with VA to improve policies, 
procedures, and legislation that impacts the care of our wounded 
warriors.
    Due to efforts by both Departments, we have reached important 
milestones in improving care for our recovering Service members. These 
milestones include a new disability evaluation system and improved case 
management that are the result of a programmatic cohesion with VA that 
is better than ever before. More so than at any other time in our 
Nation's history, separating Service members are greeted by more 
comprehensive mental and physical care; by greater opportunity for 
education, and by a deeper societal commitment to ensuring their 
welfare.
    The Department's leaders continue to work to achieve the highest 
level of care and management and to standardize care among the Military 
Services and with other Federal agencies, while maintaining focus on 
the individual.
Disability Evaluation System/Integrated Disability Evaluation System
    The genesis of the Disability Evaluation System (DES) was the 
Career Compensation Act of 1949, and it remained relatively unchanged 
until November of 2007. As a result of public concern and congressional 
interest, the joint DoD and VA SOC chartered a DES pilot designed to 
create a ``Service member-centric'' seamless and transparent DES. The 
DES pilot implemented many of the changes recommended by groups like 
the Veterans' Disability Benefits Commission and the President's 
Commission on Care For America's Returning Wounded Warriors to the 
degree allowed within current law.
    The pilot launched at the three major military medical treatment 
facilities (Walter Reed Army Medical Center, National Naval Medical 
Center, Bethesda, and Malcolm Grow Air Force Medical Center) in the 
National Capital Region on November 21, 2007, and successfully created 
a seamless process that delivers DoD benefits to wounded, ill and 
injured Service members and VA benefits to Veterans as soon as possible 
following release from duty. We found the DES Pilot to be a faster, 
fairer and more efficient system. As a result, in July 2010, the Deputy 
Secretary of Defense and Deputy Secretary of Veterans Affairs directed 
worldwide implementation to start in October 2010 and to complete in 
September 2011. On December 31, 2010, the pilot officially ended and 
the first Integrated Disability Evaluation System (IDES) site became 
operational.
    The IDES, similar to the pilot, streamlines the DES process so that 
the Service member receives a single set of physical disability 
examinations conducted according to VA examination protocols, proposed 
disability ratings prepared by VA that both DoD and VA can use, and 
processing by both Departments to ensure the earliest possible delivery 
of disability benefits. Both Departments may use the VA protocols for 
disability examination and the proposed VA disability rating to make 
their respective determinations. Under Title 10 authority, DoD 
determines fitness for duty and compensates for unfitting conditions 
incurred in the line of duty, while under Title 38 authority, VA 
compensates for all disabilities resulting from disease or injury 
incurred or aggravated in line of duty during active military, naval, 
or air service for which a disability rating of ten percent or higher 
is awarded, and also determines eligibility for other VA benefits and 
services. The IDES permits both Departments to provide disability 
benefits at the earliest point allowed under both titles. It is 
important to point out that Service members who separate or retire 
(non-disability) may still apply to the VA for service-connected 
disability compensation.
    The National Defense Authorization Act (NDAA) for FY 2008, Public 
Law 110-181, also required the Department to utilize the VA Schedule 
for Rating Disabilities (VASRD). While the Department recognizes that 
the VA Secretary has ultimate responsibility and decision authority for 
the content of the VASRD, we believe DoD should have more developmental 
input, given the direct connection between the VASRD ratings and the 
decision to place Service members on the medical retirement list with 
annuities, benefits and healthcare. We appreciate VA's outreach to 
include DoD in the body system rating update review that began last 
year and the Services' participation through their subject matter 
experts. DoD plans to continue to participate in VA's public meetings 
as DoD and VA leadership continue discussing how to strengthen DoD's 
role in the VASRD rewrite process. We look forward to finalizing a 
memorandum of understanding with VA, which will formalize DoD's active 
voice in the future development and modernization of the VASRD.
    In summary, the IDES features a servicemember-centric design, a 
simplified process, more consistent evaluations and compensation, a 
single medical exam and disability rating, seamless transition to 
Veteran status, case management advocacy, and establishment of a 
Service member relationship with the VA prior to separation. It also 
provides increased transparency through better information flow to 
servicemembers and their families and a reduced gap between separation/
retirement from Service to receipt of VA benefits.
    As of early this month, IDES enrollment is 24,957 Service members 
(66 percent Army, 13 percent Marines, 10 percent Navy, and 11 percent 
Air Force). Since November 2007, cumulative enrollment has been 44,451, 
with 14,249 completing the process and receiving benefits. Including 
Service members who are returned to duty by the process, active 
component Service member IDES completion time averages 370 days as of 
February 2012, Reserve Component members averaged 358 days, and Guard 
members averaged 396 days. These averages are above our targeted goals 
but still are significantly lower than the 1940-era legacy system it 
replaced.
    This past year, the Department partnered closely with the VA to 
implement the IDES at all 139 DES sites worldwide; however, we 
recognize the need to do better in the areas of timeliness to complete 
the process. This year our focus will be on such timeliness 
improvements. We have made significant policy adjustments to remove 
impediments, implemented procedural improvements, enhanced oversight 
and assistance to the Military Departments, and added resources that 
should improve Military Department performance in this area, including 
increasing legal support to advise and counsel Service members 
undergoing disability evaluation. We will continue to enhance our 
emphasis on leadership, resourcing and execution of the IDES to handle 
increased volume while decreasing the time spent in the process.
    The Departments are looking closely at the stages of the system 
that are outside of timeliness tolerances and are developing other 
options to bring these stages within goal by December 2012 as the 
Secretaries of Defense and Veterans Affairs have directed. We are fully 
committed to working closely with Congress to explore new initiatives 
to further advance the efficiency and effectiveness of the disability 
evaluation process.
Recovery Coordination Program
    The Recovery Coordination Program (RCP) was established by the FY08 
NDAA, and was further defined by the Department of Defense Instruction 
(DoDI) 1300.24, entitled ``Recovery Coordination Program.'' The 
Department has implemented many of the changes recommended by the 
President's Commission on Care For America's Returning Wounded Warriors 
to the degree allowed within current law. The FY 2008 NDAA and the DoDI 
1300.24 together provide a comprehensive policy on the care and 
management of recovering Service members, including the assignment of a 
Recovery Care Coordinator (RCC) to help wounded, ill and injured 
Service members and families through the phases of recovery, 
rehabilitation and reintegration utilizing a Comprehensive Recovery 
Plan (CRP) that has been developed in coordination with the Recovery 
Team. The policy also provides for standardized training, and a 
caseload ratio of not more than 40 recovering Service members per RCC.
    Currently, there are 171 RCCs in 84 locations worldwide, placed 
within the Army, Navy, Marines, Air Force, United States Special 
Operations Command and Army Reserves Wounded Warrior Programs. More 
than 3,800 Service members and families have the assistance of an RCC, 
whose responsibilities include ensuring the Service member's non-
medical needs are met, and assisting in the development and 
implementation of the CRP. An automated solution was developed to 
increase efficiencies for RCC's to be able to maximize their time and 
service provision to our Service members and their families. Each RCC 
receives more than 40 hours of Department-sponsored standardized 
training, including information on roles and responsibilities and 
concepts for developing the CRP. After the October 2011 training, 90 
percent of students rated the instruction and course materials as 
``excellent.'' Additionally, we are now beginning to train Army 
``Advocates'' in order to bring their program into compliance with the 
legislative mandate that every recovering Service member be provided a 
DoD-trained RCC. This training is continually enhanced based on 
feedback from participants. The Department is committed to ensuring 
redundancies are mitigated with other agencies. We believe the Federal 
Recovery Coordination Program (FRCP) and the DoD programs are 
complementary and if there are perceived redundancies, we do not 
believe that is indicative of a problem.
    Over the past five years, we have increased the numbers of RCCs 
available to provide care coordination to our recovering Service 
members, and looking ahead, each Military Service will continue to 
identify and resource their requirements for additional RCCs. Following 
are descriptions of three priorities that play important parts in 
recovering members' recovery process. The RCP has expanded to include 
several other portfolios, many of them identified as key priorities for 
the non-medical care management of recovering Service members during a 
Wounded Warrior Care Coordination Summit held in March 2011.
    The Wounded Warrior Education and Employment Initiative (E2I) 
operates on a regional basis and engages recovering Service members 
early in the recovery process to identify their skills, career 
opportunities that match those skills, and any additional skills they 
may need for success as they recover and prepare to leave service. The 
E2I process relies on collaboration with the Service Wounded Warrior 
Programs and the VA, operating under a Memorandum of Understanding to 
provide VA's vocational rehabilitation services earlier in the recovery 
process than ever before.
    The Operation Warfighter program (OWF) works to place wounded, ill 
and injured Service members in non-paid Federal internship 
opportunities that positively impact their rehabilitation and augment 
career readiness by building resumes, exploring employment interests, 
obtaining formal on-the-job training, and gaining valuable Federal 
government work experience. There are currently more than 500 OWF 
interns working in approximately 75 Federal agencies and sub-components 
around the country, with a total of more than 2,500 placements in 105 
agencies and sub-components since the inception of the program. Going 
forward, the Regional Coordinators will continue to focus on local and 
regional outreach to strengthen relationships with Federal agencies to 
improve and enhance internship and employment opportunities for 
wounded, ill and injured Service members.
    The Military Adaptive Sports Program engages wounded, ill and 
injured Service members early in individualized physical activities 
outside of traditional therapy settings, inspiring recovery and 
encouraging new opportunities for growth and achievement. This new 
initiative is being implemented throughout the Department, in 
partnership with the Services and the United States Olympic Committee. 
The goals of the program include increasing awareness and participation 
in adaptive sports and recreation at the Service-level, preparing 
athletes for participation in competitive events such as the Warrior 
Games, and providing a seamless transition of participation from this 
program into VA's National Veteran's Sports program.
    These measures when taken together, substantially and materially 
affect the life experience of our men and women in uniform and the 
families who support them. Our work to improve the care of recovering 
Service members, especially as they transition from DoD to VA, is the 
core of our efforts to provide those who have sacrificed so much with 
the care and benefits they deserve. Despite the significant 
achievements, we should not underestimate what remains to be done as we 
care for a new generation of Veterans who have served under very 
difficult circumstances for sustained periods. We will continue to work 
with our colleagues at VA and throughout the government to provide our 
servicemembers with the highest quality care and treatment. Taking care 
of our wounded, ill and injured Service members is one of the highest 
priorities for the Department, the Service Secretaries, and the Service 
Chiefs.
Special Compensation for Assistance with Activities of Daily Living
    We recognize the strength of military families and caregivers of 
recovering Service members. If a Service member returns home wounded, 
ill or injured, the military family and caregiver are the glue that 
holds everything together during a Service member's recovery and 
transition--which can often be confusing, frightening, and 
overwhelming. On August 31, 2011 DoD promulgated policy, authorized by 
Public Law 111-84, to compensate all catastrophically wounded, ill, or 
injured Service members, with line of duty-related medical conditions, 
who needed caregiver assistance to live outside a resident medical 
facility or who required supervision to prevent harm to themselves or 
others. This policy, enacted through DoDI 1341.12, Special Compensation 
for Assistance in Activities of Daily Living (SCAADL), gives qualified 
Service members monthly compensation to help offset the economic burden 
borne by their primary caregivers providing non-medical care, support 
and assistance. As of February 29, 2012, 505 Service members have 
received the SCAADL compensation.
Transition Assistance Program (TAP)
    Today's Veterans face a number of challenges in making the 
transition to civilian life among these is embarking on a productive 
post-military career. For every success story of a Veteran who has 
turned skills developed in the military into success in the civilian 
workplace, there are, as President Obama has said, stories of Veterans 
who come home and ``struggle to find a job worthy of their experience 
and worthy of their talent.'' We see these struggles most clearly in 
high unemployment rates for Veterans. As we draw down from the wars in 
Iraq and Afghanistan and we make difficult decisions about our future 
force structure in light of the fiscal challenges the Nation faces, the 
situation becomes more urgent with the increased number of Service 
members--particularly young Service members--departing the military.
    Making a firm commitment to employ America's Veterans, in August 
2011, the President called for the creation of a Task Force led by the 
DoD and VA with and other agencies including the DoL, Department of 
Education (DoE), Department of Commerce, Small Business Administration, 
and the Office of Personnel Management, to develop proposals to 
maximize the career readiness of all servicemembers. In coordination 
with our VA, DoL, and DoE partners, DoD's implements and sustains a 
comprehensive plan to ensure all transitioning Service members have the 
support they need and deserve when leaving the military. This includes 
working with other agencies in developing a clear path to civilian 
employment; admission into and success in an academic or technical 
training program; or successful start-up of an independent business 
entity or non-profit organization. The effort is fully aligned with the 
VOW to Hire Heroes Act of 2011. It is also consistent with DoD's 
commitment for keeping faith with all of our military members and their 
families, providing them a comprehensive set of transition tools and 
support mechanisms as they complete their service to our Nation.
Interagency Electronic Health Data
    The collaborative Federal partnership between DoD and VA has 
resulted in increased integration of healthcare services to Service 
members and Veterans. DoD and VA spearhead numerous interagency 
electronic health data sharing activities and are delivering IT 
solutions that significantly improve the secure sharing of appropriate 
electronic health information.
    Today's interagency health information exchange (HIE) capabilities 
leverage the existing electronic health records (EHRs) of each 
Department. As both Departments are currently addressing the need to 
modernize their EHRs, we are working together to synchronize planning 
activities and identify a joint approach to modernization.
    Current HIE sharing capabilities do support data sharing between 
DoD and VA. The Federal Health Information Exchange (FHIE), 
Bidirectional Health Information Exchange (BHIE), and the Clinical Data 
Repository/Health Data Repository (CHDR) support continuity of care for 
millions of Service members and Veterans by facilitating the sharing of 
health care data as beneficiaries move beyond DoD direct care to the 
VA. The data shared includes information from DoD's inpatient 
documentation system which is in use in DoD's inpatient military 
treatment facilities, including Landstuhl Regional Medical Center, 
Germany, the evacuation and treatment center Service members pass 
through if they have a medical problem while deployed in the current 
theater of operations. The health data shared assists in continuity of 
care and influences decision-making at the point of care.
    Transmission of Data from Point of Separation: At separation, FHIE 
provides for the one-way electronic exchange of historic healthcare 
information from DoD to VA for Service members who have separated since 
2001. On a monthly basis DoD sends: inpatient and outpatient laboratory 
results; radiology reports; outpatient pharmacy data; allergy 
information; discharge summaries; consult reports; admission/discharge/
transfer information; standard ambulatory data records; demographic 
data; pre- and post-deployment health assessments (PPDHAs); and post-
deployment health reassessments (PDHRAs). To date, DoD has transmitted 
health data on more than 5.8 million retired or separated Service 
members to VA. Of those, approximately 2.3 million have presented to VA 
for care, treatment, or claims determination. This number grows 
constantly as health information on recently separated Service members 
is extracted and transferred to VA monthly.
    Access to Data on Shared Patients: For shared patients being 
treated by both DoD and VA, the Departments maintain the jointly 
developed Bidirectional Health Information Exchange (BHIE) system that 
was implemented in 2004. Unlike FHIE, which provides a one-way transfer 
of information to VA when a Service member separates from the military, 
the two-way BHIE interface allows clinicians in both Departments to 
view, in real-time, health data (in text form) from the Departments' 
existing health information systems. Accessible data types include 
allergy, outpatient pharmacy, inpatient and outpatient laboratory and 
radiology reports, demographic data, diagnoses, vital signs, problem 
lists, family, social, and other history, questionnaires and Theater 
clinical data, including inpatient notes, outpatient encounters and 
ancillary clinical data, such as pharmacy data, allergies, laboratory 
results and radiology reports.
    Use of BHIE continues to increase. As of January 2012, there is 
data available on more than 4.3 million shared patients, including over 
293,340 Theater patients, available through BHIE.
    To increase the availability of clinical information on a shared 
patient population, VA and DoD collaborated to further leverage BHIE 
functionality to allow bidirectional access to inpatient discharge 
summaries from DoD's inpatient documentation system. Use of this 
inpatient documentation system at Landstuhl Regional Medical Center 
plays a critical role in ensuring continuity of care and supporting the 
capture and transfer of inpatient records of care for recovering 
Service members. Information from these records including inpatient 
consultations, operative reports, history and physical reports, 
transfer summary notes, initial evaluation notes, procedure notes, 
evaluation management notes, pre-operative evaluation notes, and post-
operative evaluation and management notes are accessible stateside to 
DoD providers caring for injured Service members and to VA providers 
caring for injured Service members and Veterans. DoD's inpatient 
documentation system is now operational at all 59 DoD inpatient sites; 
ensuring inpatient documentation is available from all DoD inpatient 
beds.
    Recent improvements to BHIE include the completion of hardware, 
operating system, architecture, and security upgrades supporting the 
BHIE framework and its production environment. This technology refresh, 
completed in January 2011, resulted in improved system performance, and 
reliability.
    Exchange of Pharmacy and Allergy Data: The Clinical Data Repository 
(CDR)/Health Data Repository (HDR) interface (called ``CHDR'') supports 
interoperability between AHLTA's CDR and VA's HDR, enabling 
bidirectional sharing of standardized, computable outpatient pharmacy 
and medication allergy data. Since 2006, VA and DoD have been sharing 
computable outpatient pharmacy and medication allergy data through the 
CHDR interface. Exchanging standardized pharmacy and medication allergy 
data on patients supports improved patient care and safety through the 
ability to conduct drug-drug and drug-allergy interaction checks using 
data from both systems.
    The Departments have exchanged computable outpatient pharmacy and 
medication allergy data on over 1.4 million patients who receive 
healthcare from both systems.
    Wounded Warrior Image Transfer: To support our most severely 
wounded and injured Service members transferring to VA Polytrauma 
Rehabilitation Centers (PRCs) for care, DoD sends radiology images and 
scanned paper medical records electronically. Walter Reed National 
Military Medical Center and Brooke Army Medical Center are providing 
scanned records and radiology images electronically for patients 
transferring to VA PRCs in Tampa, Richmond, Palo Alto, Minneapolis, and 
San Antonio. From 2007 to the present, images for more than 480 
patients and scanned records for more than 585 severely wounded 
warriors have been sent from DoD to VA at the time of referral.
    Virtual Lifetime Electronic Record: The Departments are firmly 
focused on enhancing our electronic health data sharing and expanding 
capabilities to share information with the private sector through 
Nationwide Health Information Network (NwHIN) and the Virtual Lifetime 
Electronic Record (VLER). NwHIN will enable the Departments to view a 
beneficiary's healthcare information not only from DoD and VA, but also 
from other NwHIN participants. To create a virtual healthcare record--
and achieve the VLER vision--data will be pulled from EHRs and 
exchanged using data sharing standards and standard document formats. A 
standards based approach will not only improve the long-term viability 
of how information is shared between the Departments, but will also 
enable the meaningful exchange of information with other government 
providers and with civilian providers, both of which account for a 
significant portion of care delivered to the Departments' 
beneficiaries.
    VLER is being implemented iteratively through an operational pilot 
using incremental sets of functionality. The VLER pilot sites are 
demonstrations of exchanges of electronic health information between 
VA, DoD and participating private sector providers. The pilot continues 
to provide evidence of the power and effectiveness of coordinated 
development between the Departments for increasing the secure sharing 
of electronic health information while leveraging existing EHR 
capabilities. DoD's VLER pilot is underway in San Diego, California; 
Tidewater, Virginia; Puget Sound, and Spokane, Washington. In addition, 
VA is participating in seven other pilots with the private sector to 
expand the VLER capability.
    The Integrated Electronic Health Record (iEHR): In 2011, DoD and VA 
committed to establishing and refining an integrated electronic health 
record (iEHR). The iEHR will enable DoD and VA to align resources and 
investments with business needs and programs. Going forward, a joint, 
common EHR platform will be implemented. Maintenance of AHLTA and VistA 
throughout the deployment lifecycle of the iEHR will ensure continuity 
of operations.
    DoD and VA will purchase commercially available components for 
joint use when possible and cost effective. The iEHR will leverage open 
source and traditional approaches to software acquisition to foster 
innovation and expedite delivery of products to the user.
    The Departments anticipate that iEHR capabilities will evolve from 
existing service oriented architecture (SOA) compliant capabilities, 
commercial off-the-shelf (COTS), open source, and custom systems. The 
use of agile development for the iEHR will allow the Departments to 
deliver capabilities to customers at a more rapid pace.
    The DoD/VA Interagency Program Office (IPO) serves as a single 
point of accountability and execution for the iEHR and VLER Health 
initiatives to help ensure synchronization of these efforts.
World-Class Medical Care in the National Capital Region
    The Department completed its largest and most complex Base 
Realignment and Closure (BRAC) projects in history on time last Fall in 
the National Capital Region (NCR). These BRAC projects closed and 
transitioned Walter Reed Army Medical Center and inpatient capabilities 
at Joint Base Andrews to expanded facilities at Bethesda, establishing 
the Walter Reed National Military Medical Center (WRNMMC), and a 
replacement hospital at Fort Belvoir (FBCH). Today, wounded, ill, and 
injured Service members and their families receive care in 3 million 
square feet of world-class new and renovated facilities, with 160,000 
new equipment items and the latest medical technologies available.
    These BRAC projects were one part of the larger transformation of 
Military Medicine in the NCR. The NCR has the largest concentration of 
healthcare assets in the Military Health System. It contains a mix of 
nearly 40 Army, Navy, and Air Force Medical Treatment Facilities 
(MTFs), has 550,000 eligible beneficiaries and 12,000 staff, and runs 
on an annual operating budget of almost $1.5 billion. Its primary 
medical mission is care for wounded, ill, and injured Service members, 
and it receives over 70% of the critical care air transports returning 
from theater. In order to reduce redundancies inherent in operating 
three separate Service systems and increase effectiveness and 
efficiency, the Department directed the establishment of an Integrated 
Healthcare Delivery System (IDS) in the NCR to be managed by the Joint 
Task Force National Capital Region Medical (JTF CapMed).
    JTF CapMed has command authority over NCR MTFs. The presence of 
command authority provides a singular authority to drive the 
transformational change necessary to control unnecessary duplication 
among the Services and to increase interoperability. This improves 
responsiveness to our patients by aligning authority, responsibility, 
and accountability to a single entity that can make changes necessary 
to improve care. As an example, JTF CapMed has consolidated and co-
located appointment and referral processes in the NCR to standardize 
appointment and referral processes. This has improved services by 
eliminating the confusion of multiple appointment processes at 
different MTFs in the NCR and has increased the access to care by 
offering appointments at any MTF in the NCR in order to meet patient 
needs. The JTF's efforts have saved the Department $109 million through 
contract execution and $114 million in cost avoidance through equipment 
re-use program. Consolidation of the workforces at WRNMMC and FBCH and 
authorities sufficient to implement shared services will enable further 
efficiencies and economies of scale that will ultimately result in 
contractor and civilian personnel savings of approximately $60 million 
per year in fiscal year 2011 dollars.
    The NCR also has a specific congressional mandate to provide world-
class healthcare through the NCR IDS. As discussed in the Comprehensive 
Master Plan provided to Congress, JTF CapMed is implementing the NCR 
IDS to provide more effective and efficient healthcare in the NCR and 
is overseeing projects at Bethesda required to achieve the world-class 
facility standards required by the NDAA for FY 2010. The President has 
fully funded these efforts in his Budget Request for FY 2013.
Post-Traumatic Stress and Traumatic Brain Injury
    The VA-DoD Integrated Mental Health Strategy focuses on developing 
community organization collaboration and partnerships, such as with the 
National Institutes of Health and the American Psychological 
Association. Part of this work involves the creation of a network of 
experts on mental health issues, to include PTSD, so that there are 
coordinated efforts to improve access, quality, effectiveness, and 
efficiency of services for servicemembers, veterans and their families 
by sharing information and resources that enable partners to stay 
current with the changing science base and recommended best practices.
    The Substance Abuse and Mental Health Services Administration in 
the Department of Health and Human Services (HHS) maintains strong 
partnerships with VA and DoD to prepare community behavioral health 
care systems to provide trauma informed services that reflect an 
understanding of military culture, servicemembers' experiences, the 
range of post-trauma effects, and the effects of traumatic brain and 
other physical injuries. This is primarily accomplished through 
SAMHSA's Service Members, Veterans, and their Families Policy 
Academies, through which SAMHSA has provided--and continues to 
provide--intensive technical assistance to 23 States, two Territories, 
and the District of Columbia to help them enhance their behavioral 
health systems.
    Additionally, SAMHSA's National Child Traumatic Stress Network 
(NCTSN) has developed training materials for behavioral health 
providers who encounter veterans or servicemembers with traumatic brain 
injury. These materials were developed in collaboration with the VA 
Palo Alto Health Care Polytrauma Program. This two-hour comprehensive 
training is available through the NCTSN's Learning Center Military 
Families.
    In addition, to establish a network of public and private sector 
expertise in TBI, the Department of Defense has fostered collaboration 
with inter-Service working groups (Air Force, Army, Marine Corps, and 
Navy) together with other Department centers to include the Defense 
Centers of Excellence for PH and TBI and the Defense and Veterans Brain 
Injury Center (DVBIC) and the National Intrepid Center of Excellence 
(NICoE) and the Department of Veterans Affairs (VA). In addition, other 
Federal agencies such as the CDC and NIH have been collaborating 
partners to further the field of TBI and leverage expertise held within 
each agency. The working groups have further included public sector 
expertise through consensus conferences. The collaborative working 
group and consensus conference process has worked to define best 
practices for diagnosis and treatment of co-occurring disorders 
following TBI with focus on mild TBI. The collaborative working group 
has developed clinical recommendations for vestibular disturbances, 
vision disturbances, and endocrine dysfunction following TBI. These 
recommendations are intended to provide guidance to primary care 
providers in the MHS regarding the consideration and referral process 
for Service members with co-occurring disorders following mild TBI. The 
collaborative network efforts also addressed needs in the deployed 
setting with the revision of clinical practice recommendations/ 
algorithms for concussion management in the deployed setting. Finally, 
collaborations with professional sports organizations have been 
developed to help further common goals of addressing barriers to 
seeking care for TBI related issues.
    The development of a TBI repository of information for and by 
various Federal agencies via the Federal Interagency Committee has 
recently been established. This will include the following: mild TBI 
Translation (mTBI) Grand Rounds (research to clinical practice) through 
collaboration with Johns Hopkins Institutes; development of DoD centric 
common outcome measures and/or common data elements in partnership with 
US Navy and Marine Corps EpiData Center and the Health Analysis 
Department.
    The Department and VA have also produced a suite of co-branded 
education materials and curricula to train clinicians regarding the 
effective use of VA/DoD clinical support tools based on clinical 
practice guidelines for disorders such as Major Depressive Disorders, 
mild TBI, Co-Occurring Conditions, and Substance Use Disorder. 
Additionally, the Department has conducted a needs assessment survey 
for Behavioral Health and TBI providers as well as provided guidelines 
for training providers in evidence-based best practices for PTSD.
    The Department produced materials for insertion into Joint 
Professional Military Education based on the Chairman Joint Chief of 
Staff's Special Areas of Emphasis. These materials will be used to 
provide line leadership with core components for a myriad of topics 
including PH and TBI. DoD has added a 60-minute overview of PH and TBI 
in the DoD briefing into the DoD APEX Senior Executive Service 
Orientation, a two-week requirement for all new executives to the 
Department.
    The DoD and VA have partnered on the Integrated Mental Health 
Strategy, specifically by releasing the Operation Enduring Families 
curriculum, information, and support for Afghanistan and Iraq veterans 
and their families. The curriculum resides online at VA and Military 
OneSource websites. This guide was designed to assist parents, other 
family members and health care providers in addressing the mental and 
emotional health needs of military children through topic-specific, 
age-related, public-domain literature. Additionally, since its rollout 
in July 2010, 711 providers have been trained on the Defense and 
Veterans Brain Injury Center (DVBIC) family caregiver curriculum, a 
congressionally mandated guide that serves as a roadmap for those 
caregivers of patients with severe and penetrating brain injury.
    In response to the DoD Mental Health Task Force recommendation to 
address continuity of care, DoD developed the inTransition program. 
This program provides servicemembers experiencing a transition 
(location change, change in status or health care system) with a coach 
to motivate them to remain in treatment. Available 24/7, these coaches 
are master's level clinical staff trained in deployment- and 
readjustment- related issues. Between February 2011 and February 2012, 
the number of inTransition cases increased from 392 to 1660, an 
increase of over 300%. Of the servicemembers referred to the program, 
95% accepted the referral and 100% of those who completed a program 
survey reported the assistance they received from the inTransition 
Program increased the likelihood that they would continue their 
treatment.
    The Center for Deployment Psychology (CDP), a Uniformed Services 
University center, has conducted workshops for civilian providers 
throughout the United States. To date over 2300 civilian providers have 
attended these weeklong workshops. These workshops include information 
on the identification, diagnosis and treatment of PTSD and other 
frequently occurring psychological health issues such as depression, 
substance use disorders, and suicide. An additional 1200 civilian 
providers have attended shorter workshops that train evidence-based 
treatments for treating PTSD. TBI is also a topic presented to address 
these challenges in Service members and Veterans.
    Lastly, the VA and DoD jointly develop Clinical Practice Guidelines 
(CPGs) to serve as one means of communicating the state of the evidence 
to clinical providers in the field. VA/DoD CPGs are publically 
available through either Army Medical Command Quality Management 
Division's website (https://www.qmo.amedd.army.mil/pguide.htm) or the 
VA's Office of Quality and Safety website (http://
www.healthquality.va.gov/). An expert multidisciplinary panel of VA and 
DoD providers developed the VA/DoD CPGs recommendations by conducting a 
comprehensive and rigorous review of the currently available studies on 
psychotherapy and medication. Since the passage of the NDAA 2008, the 
VA and DoD have jointly developed or revised CPGs for Depression, PTSD, 
mTBI, Opioid Therapy for Chronic Pain, Substance Use Disorder, and 
Bipolar Disorder.
    The dissemination of existing TBI clinical guidelines and 
recommendations to various involved providers are conducted in various 
formats. The most powerful dissemination modality is through the 
Service TBI program managers who are leading the 56 Army TBI programs, 
6 Navy TBI programs and Air Force TBI teleconsultations and joint 
programs. Ongoing resources are provided in the form of a national 
level resource fact sheet for military case managers as well as 
information and educational opportunities via the Military TBI Case 
Management Quarterly Newsletter to promote and advance access to care. 
The nationwide dissemination of the Case Management of Concussion/mild 
TBI Guidance Document was conducted across the MHS. Technology is 
widely utilized to disseminate TBI information as well. The release of 
the Mild TBI Pocket Guide mobile application for the iPhone and Android 
smartphones and the Co-occurring Conditions Toolkit: Mild TBI 
Psychological Health mobile application for the iPhone and Android 
smartphones disseminated this information to a new market of users. 
Additionally six mTBI web-based case studies via MHS Learn for DoD, the 
VA Employee Education System and civilian healthcare professionals have 
been released. The web-based case studies use patient vignettes as a 
way in which to educate healthcare professionals about the clinical 
recommendations contained within the VA/DoD mild TBI/concussion 
clinical practice guideline. The technology-based efforts reported more 
than 4700 downloads of the Mild TBI Pocket Guide mobile application and 
more than 500 downloads of the Co-occurring Conditions Toolkit mobile 
application. To improve future efforts of dissemination the Department 
utilized the Interactive Customer Service Evaluation to obtain user 
feedback.
Conclusion
    While we are pleased with the quality of effort and progress made, 
we fully understand that there is much more to do. We have, thus, 
positioned ourselves to implement these provisions and continue our 
progress in providing world-class support to our Service members and 
Veterans while allowing our two Departments to focus on our respective 
core missions. Our dedicated, selfless Service members, Veterans and 
their families deserve the very best, and we pledge to give our very 
best during their recovery, rehabilitation, and return to the society 
they defend.
    Mr. Chairman, thank you again for your generous support of our 
wounded, ill, and injured Service members, Veterans and their families. 
I look forward to your questions.
Executive Summary
    Department of Defense Prepared Statement for House Veterans' 
Affairs Committee Disability Assistance and Memorial Affairs 
Subcommittee
    Hearing on Active, Guard, Reserve, and Civilian Personnel Programs
    The IDES features a Service member-centric design, a simplified 
process, more consistent evaluations and compensation, a single medical 
exam and disability rating, seamless transition to Veteran status, case 
management advocacy, and establishment of a Service member relationship 
with the VA prior to separation. It also provides increased 
transparency through better information flow to servicemembers and 
their families and a reduced gap between separation/retirement from 
Service to receipt of VA benefits.
    As of early this month, IDES enrollment is 24,957 Service members 
(66 percent Army, 13 percent Marines, 10 percent Navy, and 11 percent 
Air Force). Since November 2007, cumulative enrollment has been 44,451, 
with 14,249 completing the process and receiving benefits. Including 
Service members who are returned to duty by the process, active 
component IDES completion time averages 370 days as of February 2012, 
Reserve Component members averaged 358 days, and Guard members averaged 
396 days. These averages are above targeted goals but still are 
significantly lower than the 1940-era legacy system it replaced.
    The Recovery Coordination Program (RCP) was established by the FY08 
NDAA. Recovery Care Coordinators (RCC) are assigned to help wounded, 
ill and injured Service members and families through the phases of 
recovery, rehabilitation and reintegration. Currently, there are 171 
RCCs in 84 locations worldwide; more than 3,800 Service members and 
families have had the assistance of an RCC.
    The Special Compensation for Assistance in Activities of Daily 
Living program was established by the FY10 NDAA to provide qualified 
Service members with monthly compensation to help offset the economic 
burden borne by their primary caregivers providing non-medical care, 
support and assistance. As of February 29, 2012, 505 Service members 
have received the compensation.
    Today's Veterans face a number of challenges in making the 
transition to civilian life, and among these is embarking on a 
productive post-military career. As a result, the President created a 
Task Force led by the DoD and VA to develop proposals to maximize the 
career readiness of all Service members. The effort is fully aligned 
with the VOW to Hire Heroes Act of 2011 and is consistent with DoD's 
commitment for keeping faith with all of our military members and their 
families, providing them a comprehensive set of transition tools and 
support mechanisms.
    The collaborative Federal partnership between DoD and VA has 
resulted in increased integration of healthcare services to Service 
members and Veterans. DoD and VA spearhead numerous interagency 
electronic health data sharing activities and are delivering IT 
solutions that significantly improve the secure sharing of appropriate 
electronic health information. Today's interagency health information 
exchange capabilities leverage the existing electronic health records 
(EHRs) of each Department as we both address the need to modernize our 
EHRs, by synchronizing planning activities and identify a joint 
approach to modernization.
    The Department of Defense has fostered collaboration with inter-
Service working groups and Department centers such as the Defense 
Centers of Excellence, the Defense and Veterans Brain Injury Center 
(DVBIC), the National Intrepid Center of Excellence (NICoE), and the 
Department of Veterans Affairs (VA). The collaborative working group 
has developed clinical recommendations to provide guidance to primary 
care providers in the Military Health System regarding the 
consideration and referral process for Service members following mild 
TBI and addressed needs in the deployed setting. Collaborations with 
professional sports organizations have been developed to help further 
common goals of addressing barriers to seeking care for TBI related 
issues.

                                 <F-dash>
              Prepared Statement of Gail R. Wilensky, Ph.D
    Mr. Chairman and Members of the Veterans' Affairs Subcommittee on 
Disability Assistance and Memorial Affairs: Thank you for inviting me 
here to testify about the transition from servicemember to Veteran, 
with a particular focus on the implementation of the Integrated 
Disability Evaluation System (IDES).
    I am currently a senior fellow at Project HOPE, an international 
health education foundation that works to make health care available to 
people around the globe. I am also a Regent for the Uniformed Services 
University of the Health Sciences (USUHS). I have previously served as 
a Commissioner on the 2007 President's Commission on the Care for 
America's Returning Wounded Warriors (Dole/Shalala Commission), a co-
chair for the Congressionally-mandated study on the Future of Military 
Health Care (2007-2008) and also as a co-chair on the 2001-2003 
President's Task Force to Improve Health Care Delivery for our Nation's 
Veterans. The views I am presenting here reflect my training as an 
economist as well as the experiences I have had on these commissions 
and task forces. However, my testimony today reflects my personal views 
and not necessarily the views of Project HOPE or any of the other 
organizations with which I have been associated or continue to be 
associated.
    I am here primarily to discuss the need for an integrated 
disability evaluation system and what has been reported about its early 
implementation as well as to remind the Committee about the 
restructured compensation system that the Dole/Shalala Commission also 
recommended should be implemented. I will also briefly review some of 
the other issues that need to be considered in order to facilitate the 
transition from active duty servicemember to veteran status. Most of 
these are not new issues but rather have been recommended by various 
groups over the course of at least the last decade.
The Problem
    Before the introduction of the Integrated Disability Evaluation 
System, a servicemember needed to first separate from his or her 
service, with discharge papers in hand, before entering the VA process. 
Thus, two exams were required--one from the military services that 
determined fitness to serve and a second exam from the VA to determine 
a disability rating for purposes of compensation.
    The process and the criteria for determining fitness to serve 
differed across services and the process for determining disability 
differed between the services and the VA, which raised perceptions of 
equity of treatment across the different services. Also, servicemembers 
could potentially be rated at one level by their service and at another 
level by the VA, again raising questions of equity as well as causing 
confusion. In addition, these multiple steps ensured that the process 
was long and frequently contentious--averaging some 540 days.
The IDES
    Under the IDES, there is a single, comprehensive exam by VA 
certified physicians. A single-source disability rating is used that 
determines both for the purpose of fitness for continuing military 
service and also serves as the basis for the VA to rate the level of 
disability. Each military service continues to determine whether 
someone is able to continue military service.
    Service members who are unable to return to active duty are 
referred to a medical evaluation board, assigned a physician evaluation 
board liaison officer whose job is to help them through the process. 
Each servicemember is also assigned a VA military service coordinator 
to help them navigate through the VA system.
    The stated goal is to get the process done in 100 days. The 
estimates I have seen reported are that the former 540- day process was 
closer to 295 days as of mid 2011, indicating a clear improvement but 
also a time frame that is not as expeditious as might be desired. There 
are also still reports of inexplicable and frustrating delays such as 
was reported last summer at a Senate hearing where the application of a 
Marine who had lost both his arms and legs in Afghanistan in 2010 sat 
on a desk for 70 days, requiring a Senator's personal intervention in 
order to get it dislodged.
Preliminary Assessment of the IDES
    While the overall process is still relatively early in its 
implantation stage--having only gone fully live in the fall of 2011--
there are some observations that can be made at this stage.
    First, it is unclear why it has taken so long to get to this stage 
of the implementation process. The IDES was developed in 2007 in order 
to shorten the process of transition from active duty to veteran 
status. It followed from multiple recommendations that the Department 
of Defense and Veterans Administration use a single comprehensive 
standardized medical exam--including a recommendation from the Dole/
Shalala Commission but certainly not limited to that Commission. While 
it is true that the Defense Department published guidance for a 
voluntary, expedited Disability Evaluation System in early 2009 for 
servicemembers that had sustained catastrophic injuries, the full IDES 
was not implemented until later in 2011.
    Having run the Medicare and Medicaid programs in the early 1990's, 
I would agree that piloting a new system before taking it on-line is a 
reasonable and prudent step. Why it should take from 2007 until the 
fall of 2011 for a full transfer to the IDES is unclear to me.
    Second, shortening the time to process a disability claim is 
important but the time involved per se is only part of the issue. 
Clearly agreeing on its function and making sure that this is fulfilled 
is a necessary step as well. Some ways that would shorten the process 
may not improve its fairness, such as eliminating a servicemember's 
right of appeal.
    Third, while the use of a single disability exam makes sense, it is 
important to recognize that there are different functions that medical 
exams serve, even though they may provide overlapping data fields. They 
can serve to define a course of clinical treatment, providing 
information about diagnoses and progress as opposed to a medical exam 
that is a single snapshot ``finder of fact'' that determines a level of 
disability. Both uses suggest the need for ongoing, periodic medical 
evaluations but done for different purposes.
Restructuring the Disability and Compensation System
    The Dole/Shalala Commission also recommended a complete 
restructuring of the disability and compensation system. The purpose of 
the recommendation was to simplify the disability determination and 
compensation process, eliminate parallel activities, reduce inequities 
and perhaps, most importantly, provide a basis for veterans to return 
to productive lives as fully and quickly as possible.
    Like the present system, the Commission advocated having the 
Defense Department determine fitness to serve. For those who are deemed 
``not fit'', the Commission recommended that the DoD provide a pension 
that reflects a payment for the years served. The payment should be 
determined only by the individual's rank and the length of service. 
Those who are not fit because of combat-related injuries should receive 
TRICARE as should their dependents.
    The VA should continue to have the responsibility for establishing 
the disability rating and compensation and benefits that follow from 
it. The VA should initiate its education and training programs as early 
as possible and adopt a policy of reviewing disability states on a 
three year basis.
    The proposed restructuring of the VA disability payments was to 
work in steps. First, there would be a ``transition payment''. This 
payment would be to cover living expenses for injured veterans and 
their families. It would be defined as three months of base pay in the 
event there is not further rehab going on or a longer term payment for 
living expenses if the veteran continues in some form of rehab or 
education program.
    Second, following the completion of the rehab or education program, 
the disabled veteran would receive an ``earnings-loss'' payment in 
order to make up for any lower earning capacity that might remain after 
training, should that occur. In many cases, there should not be an 
earnings loss.
    Third, a ``quality of life'' payment would be made to compensate 
for ``non-work related'' effects in the event of permanent physical or 
mental combat-related injuries.
    The purpose of these steps is to support and encourage the injured 
veteran to advance as completely as possible using education and rehab 
and then to assess the effect on both earnings capacity and quality of 
life. It is recognition that in an information and service economy such 
as we have today, even significantly injured veterans may be able to be 
helped to a position where they would not experience an earnings-loss 
but would still be entitled to a quality of life payment.
    Two of the commissioners on the Dole-Shalala Commission were 
examples of how VA or GI Bill financed education could put someone in 
such a position. Marc Giammatteo, an Army Captain had been severely 
wounded in his leg while in Iraq. He was also attending Harvard 
Business School, getting an MBA and spending his summer working at an 
investment bank. Jose Ramos was a Navy Corpsman who had also been 
serving in Iraq and had lost his right arm to the shoulder. He was 
completing a double major in Arabic and national security at George 
Mason. Both of these individuals should be in a position where they 
would not experience an earnings loss but would experience a quality of 
life decrement. On the other hand, Tammy Edwards, also on the 
Commission, is the wife of an Army enlisted man who was severely burned 
and experienced a brain injury while on active duty. His earnings loss 
would be significant in addition to his quality of life decrement.
Other Areas Needing Strengthening
    As important as integrating the disability evaluation and 
restructuring the disability and compensations payment are to 
facilitating the transition from active duty to veterans' status, there 
are other areas that need to be strengthened. Among the most important 
of these is making sure adequate care is available for any veteran who 
is experiencing PTSD or TBI. The DoD and the VA have been working hard 
to improve the prevention, diagnosis and treatment of both PTSD and TBI 
but much remains to be done. In addition, reducing the stigma 
associated with PTSD remains a problem for both active duty and veteran 
populations.
    A major problem for both the Defense Department and the VA is that 
there is a national shortage of mental health professionals just as 
there is a national shortage of primary care professionals. 
Nonetheless, both departments will need to aggressively work on 
resolving this problem as aggressively and creatively as they can. It 
would also be helpful to provide programs to family members and 
caregivers to help them understand and deal with PTSD and TBI. Any 
efforts that can be undertaken to prevent PTSD and TBI from occurring, 
would be well worth-while on many fronts.
    Efforts also need to continue to strengthen support for families. 
We had recommended expanding Defense Department respite care and 
extending the Family and Medical Leave Act for up to six months for 
spouses and parents of the seriously injured. The latter is especially 
a challenge in our currently constrained fiscal environment.
    One of the most heartening findings of the Dole/Shalala Commission 
was that the quality of care provided to the wounded servicemembers was 
of very high quality. Most of the problems that occurred, occurred 
during the ``hand-offs''--that is, the transitioning from inpatient to 
outpatient status, from one facility to a second facility or from 
active duty to veteran status. Both the Defense Department and the VA 
have worked hard to reduce these problems and to simplify the path to 
recovery but more still needs to be done for our returning wounded 
warriors.
    Thank you Mr. Chairman. I would be happy to answer any questions 
you or the Committee may have.
Executive Summary:
    Before the introduction of the Integrated Disability Evaluation 
System (IDES), servicemembers first needed to separate from his or her 
service and then to enter the VA process, requiring two different 
exams. The process and criteria for determining fitness differed across 
services and the process for determining disability differed between 
the services and the VA. The result was real and perceived differences 
in equity of treatment across services and between the services as well 
as a lengthy and frequently contentious process.
    The IDES produces a single exam, done by a VA certified physician 
that serves both as the basis for determining fitness to serve and to 
establish a level of disability. The services continue to determine 
fitness to serve; the VA determines the disability level.
    The result has been to cut the time from about 540 days to less 
than 295 days. It is a substantial reduction but far from the stated 
goal of 100 days. In addition, occasional lengthy and inexplicable 
delays are still reported. Several issues remain. First, why did it 
take so long to have the IDES fully rolled-out--from its development in 
2007 until the fall of 2011? Second, shortening the time is important 
but clear agreement on the functions and goals of the disability 
evaluation program is equally important. Some questions remain here as 
well. The need also remains for ongoing, periodic medical evaluations 
to determine whether initial levels of disability continue in the 
future.
    The Dole/Shalala Commission, where I was a commissioner, also 
recommended the complete restructuring of the disability and 
compensation system. Like the IDES, the goal was to simplify the 
disability determination, reduce parallel activities and inequities and 
most importantly, provide a basis for veterans to return to productive 
lives as fully and quickly as possible. To do this, we recommended a 
``transition payment'' that would provide living expenses to the 
disabled veteran and their families during rehab, training and 
education. This was to be followed by an estimate of earnings-loss 
which may remain after training and/or education has been completed and 
which would also be accompanied by a quality of life payment, if 
appropriate. This division recognized that in an information and 
service economy, disabilities that previously would have produced 
earnings losses may no longer do so but quality of life decrements may 
continue. Three of the commissioners provided examples of how these 
differences might work.
    Other areas also need strengthening to facilitate the transition 
from active duty servicemember to veteran. These include assuring that 
care is available to any veteran experiencing PTSD or TBI and working 
to reduce the stigma attached to both of these. The ongoing shortage of 
mental health professionals in the U.S. will make this a challenge. 
Efforts are also needed to continue strengthening support for families. 
We had recommended expanding respite care and extending FMLA for up to 
six months for spouses and parents of the seriously injured. The latter 
is a challenge in our fiscally-constrained environment.
    On a positive note, most of the problems that were identified 
during the work of the Dole/Shalala Commission concerned the ``hand-
off'' process and not the quality of care actually delivered. We need 
to ensure that both are appropriate for our returning wounded warriors.

                                 <F-dash>
                  Prepared Statement of Kenneth Fisher
    Chairman Runyon, Members of the Committee:
    On behalf of co-chairs Dole and Shalala who could not be with us 
today, the members of the commission, and my fellow commissioner Gail 
Wilensky, I appreciate the opportunity to appear before you today. Both 
as a commissioner and a Chairman of the Fisher House Foundation, I have 
devoted the last 12 years of my life towards improving both the care 
and the quality of life of our military, those wounded, veterans and 
their families. Today's hearing on the DES and the seamless transition 
are critical to this Nations security and I am proud to discuss my work 
on the commission, its recommendations and action steps, and how this 
system must be made simple, easily understandable and easier to 
navigate. But I must admit to being a bit confused. We are the greatest 
Nation on earth, with the best equipped and the best trained military 
in the history of the world. What puzzles me is the fact that it has 
been five years since the findings of Dole Shalala and we are still 
having hearings on the same issues as 2007.
    Before I begin, I feel compelled to preface my statement by 
explaining our mission. We were charged by President Bush to examine, 
evaluate, and analyze the care and process related to our returning 
wounded global war on terror servicemen and women. We looked at the 
system through the eyes of the wounded service people. We were solution 
driven, and held numerous field hearings, interviewed wounded, base 
commanders, doctors and family members as well as others who played a 
role in the recovery process. We not only examined the problems and 
inadequacies but also looked for best practices that might help improve 
their care. Our goal was to simplify and help eliminate the log jam, 
which was the result of the fighting lengthy two front wars with a VA 
that was already challenged by the weight of an intolerable 
beaurocratic system. By doing this, we sought to eliminate the back log 
and claims that had reached approximately 800,000-900,000.
    While the living conditions at Walter Reed were indeed horrendous, 
this was only the tip of a massive iceberg. We found hundreds of troops 
waiting months for follow up appointments or awaiting the rating 
process. This gap in benefits caused massive problems known to but a 
few.
    The commission was given six months to evaluate the entire 
disability evaluation system and our findings were thoughtful, 
inclusive, and easily implementable. It was not our intention to put 
forth hundreds of recommendations that would have been difficult to 
implement or too expensive as a whole.
    And as a side bar, I would like to compliment our Nation's world 
class military healthcare professionals whose work and use of the 
latest technologies resulted in a 95% battlefield survivor rate.
    Today, five years after our report was made public, there has been 
progress, to be sure, but, and with all due respect, not nearly fast 
enough, and the appearance that there is no real sense of urgency. 
Tracking the results of the commission has been difficult, as 
admittedly I would not expect the process to be transparent. But again, 
we were given the task of OEF/OIF, with the hope that its adoption 
would have moved the system along faster.
    Our recommendations were short and to the point.
    Our first recommendation called for a recovery care coordination 
program - a plan to smoothly guide and support servicemembers from 
start to finish. This would apply to both the VA and the DoD. I believe 
this has been implemented, although I cannot speak to its success. On 
this I would have to differ to our VA and DoD representatives. In the 
interest of time I thought we would focus on the four issues that I 
think are crucial.
    Our second recommendation called for an overhaul of disability. Our 
plan called for one physical administered by DoD who then determines 
fitness to serve. If separation is required, they are compensated on 
rank and length of service, and then they are moved to the VA who 
determines their rating and benefits along with a series of payments. 
The joint DoD VA plan that is currently in use is the Integrated 
Disability Evaluation System which is now out of the pilot program and 
is in use system wide as they phase out the legacy program over the 
next two years. It calls for one physical administered by the VA. The 
DoD component is done simultaneously - they determine fitness to serve 
through the MEB and PEB. The VA rating systems apply, and the entire 
process is designed to eliminate the benefit gap. Pilot programs were 
able to take the legacy process of 500 days down to 300, but as the 
system was expanded - the waiting time climbed back to 500 days.
    According to the GAO, there are some glaring weaknesses - chief 
among them staffing issues. In addition, VA doctors are having 
integration issues at DoD facilities, which come as no surprise to me. 
There were disagreements in diagnosis, which is not uncommon - but it 
does add more time to the process. And I must admit to being a bit 
confused as to why VA doctors are performing the DoD physical. I 
believe an Army doctor, for example, is better suited to determining 
whether a soldier is fit to serve. This also frees up VA doctors not 
only to treat the younger veterans as they enter the VA but also an 
older set of veterans who are reentering the VA system. But I cannot 
emphasize enough - in the private sector the best possible plans are 
just words on paper if there isn't enough qualified people to implement 
said plan. This is an over simplified written in the interest of time 
constraints. This includes recovery care people as well PEBLO's and 
other crucial personnel.
    Another important recommendation highlighted is the incompatibility 
of the DoD and VA IT systems and as our report put it, this alone is 
not the silver bullet. However, if information could be transmitted 
this way, the veterans would have less paper work, and find out what is 
available to them much faster at the push of a button. We believed that 
information sharing was critical to the help of the system.
    We recommended life time treatment for PTSD. These men and women 
have endured multiple deployments; have been in intense urban fighting, 
often against civilian insurgents who too often hide behind innocent 
women and children. They have seen horrific injuries caused by IED's. 
And the stigma associated with coming forward and asking for help 
leaves too many to suffer in silence and if they are home their 
families do suffer as well. We believed this was a major problem when 
our report was made public, and it has been for any servicemember who 
fought in battle be it World War II, Korea, Vietnam or today.
    Today it is evident why this was a major recommendation. Five years 
after our report was made public, there have been well over 1000 
suicides - out pacing the civilian population, domestic violence, and 
divorce, drug and alcohol abuse, homelessness, joblessness, are all at 
unacceptable levels. Just the other day in USA Today, an article 
appeared discussing alcohol within the ranks of the Army, and the fact 
that they have delayed for three years a confidential counsel program 
for treatment. They had begun a pilot program in 2009, but it was ended 
after high dropout rates. According to the article, 25% have a drinking 
problem.
    The issue's importance is self explanatory because of the 
collateral damage it causes. Here again, staffing shortages are at the 
heart of the issue, as with disability. We need to consider engaging 
the private sector to help with has become the signature wound of this 
war. The stigma has not completely vanished, and this wound is the 
worst kind because it cannot be seen until after it manifests itself.
    Perhaps we need to reexamine screening before and after deployment, 
and I believe a spousal educational program is vital. They are the 
first line of defense, and if they know what to do after seeing their 
loved one's behavior change.
    I believe that progress has been made in our family support 
recommendation, as the family medical leave act has been extended to 
six months, and the VA now offers a caregiver stipend to the caregiver.
    Military families bear burdens that the average American has no 
concept of. And for too long, military families bear their stress 
either alone or with other military families. When one gets wounded, 
that stress can be unbearable. The private sector has stepped up and 
numerous foundations are in action and I would encourage Congress, the 
DoD and the VA to find the ones that work and embellish them, not 
impede them by making them part of the intolerable beaurcracy that 
exists system wide. They have the infrastructure, boots on the ground, 
and the overwhelming desire to help. There will always be unmet needs, 
but public private partnerships can bridge that gap, and paint the way 
to the future.
    Mr. Chairman, This concludes my statement. In the interest of time, 
I tried to keep the nuts and bolts of our report to a minimum, and the 
fact that most people are already familiar with our report, judging by 
the criticism it generated. It was always our intention to have 
Congress and the Veterans Service Organizations weigh in and while they 
objected to certain parts of our report, it must be emphasized that the 
needs of today's young veterans are immediate and this new generation 
of veterans are coming into the system by the thousands. Times are 
different, their wounds are different, but I assure you had we had the 
time we would have examined all veterans because anyone who has worn 
this Nation's uniform deserves the best we have to offer. A thank you 
for your service is not enough anymore. I am now ready to answer any 
questions you may have.

                                 <F-dash>
         Prepared Statement of James Terry Scott, LTG USA (RET)
    Mr. Chairman and Members of the Subcommittee: It is my pleasure to 
appear before you today representing the Advisory Committee on 
Disability Compensation and the Veterans Disability Benefits Commission 
that met from 2005 to 2007 and reported out to you in October of that 
year.
    The Advisory Committee is chartered by the Secretary of Veterans 
Affairs under the provisions of 38 U.S.C. in compliance with P.L. 110-
389 to advise the Secretary with respect to the maintenance and 
periodic readjustment of the VA Schedule for Rating Disabilities. Our 
charter is to ``(A)ssemble and review relevant information relating to 
the needs of veterans with disabilities; provide information relating 
to the character of disabilities arising from service in the Armed 
Forces; provide an on-going assessment of the effectiveness of the VA's 
Schedule for Rating Disabilities; and provide on-going advice on the 
most appropriate means of responding to the needs of veterans relating 
to disability compensation in the future''.
    Your letter asked me to testify on the Advisory Committee's views 
on the transition from servicemember to Veteran, with a particular 
focus on the implementation of the Integrated Disability Evaluation 
System (IDES).
    First, a bit of background. At the time the Veterans Disability 
Benefits Commission was created by the National Defense Appropriations 
Act of 2004 it was already apparent that the peacetime system for 
transitioning sick and injured servicemembers to Veteran status was 
overwhelmed. From the outset, and well before the reprehensible 
situations at the Walter Reed Barracks and other locations were 
recognized, the Commission recognized the need for a seamless and rapid 
transition process that protected the servicemember while he or she 
progressed to Veteran status. Transition became one of the major issues 
studied by the Commission. Interim recommendations addressing 
transition issues were offered as deliberations progressed.
    The Veterans Disability Benefits Commission (VDBC)
    examined the policies and processes within the Departments of 
Defense, Veterans Affairs, Labor, Health and Human Services, and the 
Social Security Administration that affected military separation or 
retirement. Each of these entities plays a significant role in the 
transition of Veterans and their families.
    Of the 113 recommendations the Commission made, many of them 
pertained to improving the transition process. I am providing for the 
record a list of the key transition recommendations and the status of 
their implementation as I understand it.

       4.4 and 4.5: VA should develop a process for updating disability 
examination work sheets and mandate the use of approved templates. 
(This is currently being addressed by the adoption of Disability 
Benefit Questionaires for the use of VA and non-VA medical examiners.)
       4.10: VA and the DoD should conduct a comprehensive 
multidisciplinary medical, psychological, and vocational evaluation of 
each Veteran applying for disability compensation at the time of 
service separation. (This is partially addressed by the IDES system for 
sick or injured servicemembers and by the expanded TAP briefings. 
Complete physical exams for all separating servicemembers are still not 
required.)
       4.23: VA should immediately begin to update the current rating 
schedule beginning with those body systems addressing the evaluation 
and rating of PTSD and other mental disorders and of traumatic brain 
injury and then proceed through the other body systems until the Rating 
Schedule has been comprehensively revised. (This is currently being 
addressed by VA with a projected completion in 2016.)
       5.7: DoD should require a mandatory benefits briefing to all 
separating military personnel, including Reserve and National Guard 
members prior to discharge from active service. (This is being 
partially addressed by the services and VA through expanded TAP 
briefings.)
       5.28: VA should develop and implement new criteria specific to 
posttraumatic stress disorder in the VA Schedule for Rating 
Disabilities. (This has been done and is awaiting approval.)
       6.9: Access to vocational rehabilitation should be expanded to 
all medically separated servicemembers. (Programs have been expanded 
but universal access has not been achieved.)
       6.10: All service disabled veterans should have access to 
vocational rehabilitation and employment services. (These programs have 
been expanded, but are still not available to all service disabled 
veterans.)
       7.11: VA and DoD should adopt a consistent and uniform policy 
for rating disabilities, using the VA Schedule for Rating Disabilities 
(VASRD). (This has largely been accomplished by DoD accepting the 
VASRD. It is an integral part of the IDES.)
       7.13: VA and DoD should realign the disability evaluation 
process so that the services determine fitness for duty and 
servicemembers who are found unfit are referred to VA for disability 
rating. All conditions that are identified as part of a single, 
comprehensive medical examination should be rated and compensated. (The 
IDES system has adopted this procedure.)
       10.1: VA and DoD should enhance the Joint Executive Council's 
strategic plan by including specific milestones and designating an 
official to be responsible for ensuring that the milestones are 
reached. (This has been fully implemented by VA and DoD.)
       10.3: DOL and SSA should be included in the Joint Executive 
Council to improve the transition process. (DOL participation in 
transition and in follow up has greatly increased.)
       10.4: To facilitate seamless transition, Congress should 
adequately fund and mandate the Transition Assistance Program (TAP) 
DoD-wide to ensure that all servicemembers are knowledgeable about 
benefits before leaving the service. (Expansion of TAP is a major 
ongoing effort in VA today).
       10.5: Benefits Delivery and Discharge (BDD) should be available 
to all disabled exiting servicemembers (to include National Guard, 
Reserve, and medical hold patients). (Progress unknown).
       10.6: DoD should mandate that separation examinations be 
performed on all servicemembers. (While progress has been made, this is 
still not a requirement in all services for all separating members. 
While requiring resources, this policy will pay great dividends in 
future years by providing a clear picture of physical and mental 
condition at separation which can be used in determining service-
connection for disability.
       10.8: DoD should expand existing programs that translate 
military occupational skills, experience, and certification to civilian 
employment. (Progress unknown.)
       10.11: VA and DoD should expedite development and implementation 
of compatible information systems including a detailed project 
management plan that includes specific milestones and lead agency 
assignment. (This complex issue is under development.)

    Of the recommendations pertaining to transition that both the 
Veterans Disability Benefits Commission and the Advisory Committee on 
Disability Compensation have offered, the one with the most potential 
to reduce the time to process claims and improve accuracy and 
consistency is the ongoing plan to revise the VASRD. This complex, 
multi-year revision will incorporate current medical knowledge and 
technology as well as streamline the diagnosis, evaluation, and 
adjudication processes.
    Another key recommendation with potential long term positive effect 
is the movement to an electronic claims record. This is another 
extremely complex challenge that the VA has accepted and is working. 
When fully implemented it will simplify and expedite the claims 
process.
    The Current IDES program incorporates many of the recommendations 
from the Veterans Disability Benefits Commission and the Advisory 
Committee on Disability Compensation. It represents a tremendous effort 
on the part of VA and DoD to focus on the transition of servicemembers 
who are sick or injured to Veteran status. All parties, including the 
Congress are frustrated by the average time still required to complete 
the transition. However, from the perspective of someone who has had 
the opportunity to contribute to this effort over the last eight years, 
I believe the progress is significant and, more importantly, that the 
progress will continue.
    On behalf of the Advisory Committee, thank you for the opportunity 
to testify on this important matter.

                                 <F-dash>
                  Prepared Statement of John L. Wilson
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the Disabled American Veterans (DAV) and our 1.2 
million members, all of whom are wartime disabled veterans, I am 
pleased to be here today to testify before the Subcommittee on 
Disability Assistance and Memorial Affairs and address the 
implementation of the Integrated Disability Evaluation System (IDES). 
DAV is actively engaged in providing claims assistance to military 
members before they leave active duty with our 30 Transition Service 
Officers (TSOs) assisting over 55,900 servicemembers in 2011 and our 
250 National Service Officers (NSOs) representing over 259,000 
veterans, their families and survivors for that same period.
    IDES is the result of a recommendation of several commissions, 
including the Veterans' Disability Benefits Commission, \1\ and the 
President's Commission on Care for America's Returning Wounded 
Warriors, which stated that the ``DOD and VA should create a single, 
comprehensive, standardized medical examination that the DOD 
administers. It would serve DOD's purpose of determining fitness and 
VA's of determining initial disability level.'' \2\
---------------------------------------------------------------------------
    \1\ Veterans' Disability Benefits Commission, October 2007, page 
376
    \2\ The President's Commission on Care for America's Returning 
Wounded Warriors (July 2007), page 7.
---------------------------------------------------------------------------
    The Disability Evaluation System (DES) pilot project was launched 
in 2007 by the Department of Defense (DOD) and the Department of 
Veterans Affairs (VA). Using lessons learned from that pilot, the 
legacy DES began the transition to IDES in October 2010 to include a 
total of 140 locations, with the goal of expediting the delivery of VA 
benefits to all out-processing military members.
    A comparison between the DES pilot and legacy DES found Active 
Component military members completed the pilot in an average of 289 
days, and Reserve Component military members completed it in an average 
of 270 days, compared to a legacy DES average of 540 days. Surveys 
revealed significantly higher satisfaction among DES pilot 
participants. On July 30, 2010, the DOD Senior Oversight Committee co-
chairs directed that IDES expand worldwide. \3\
---------------------------------------------------------------------------
    \3\ Department Of Defense Task Force On The Care, Management, And 
Transition of Recovering Wounded, Ill, And Injured Members of the Armed 
Forces, Disability Evaluation System, page D-34.
---------------------------------------------------------------------------
    The legacy DES was replaced with the IDES in four stages \4\ and 
was fully deployed by October 2012.
---------------------------------------------------------------------------
    \4\ Statement of John R. Campbell, Deputy Under Secretary of 
Defense (Wounded Warrior Care and Transition Policy), Department of 
Defense, before Senate Committee on Veterans' Affairs Hearing on Review 
of the VA And DOD Integrated Disability Evaluation System (November 18, 
2010).
    \5\ IDES Trifold Brochure

    <bullet>  Stage I-West Coast and Southeast (October-December 
2010)--28 Sites
    <bullet>  Stage II-Mountain Region (January-March 2011)--24 Sites
    <bullet>  Stage III-Midwest and Northeast (April-June 2011)--33 
Sites
    <bullet>  Stage IV-Outside Continental United States (OCONUS) 
(July-September 2011)--28 Sites
    <bullet>  Total IDES locations when complete: 140

    Under this system, military members are referred to IDES when their 
continued service is curtailed as a result of a physical or mental 
health condition and they are placed on a medical profile making them 
ineligible for deployment or unable to carry out the duties of their 
rank or military specialty. The following chart depicts the revised 
time lines for each step of the IDES process:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As a result of treatment and being on medical profile, military 
members are evaluated by a Medical Evaluation Board (MEB), which is 
typically comprised of at least two physicians. If the MEB determines 
that the member has a medical condition that is incompatible with 
continued military service, an MEB Narrative Summary is prepared and 
the case is referred to a Physical Evaluation Board Liaison Officer 
(PEBLO).
    PEBLOs guide servicemembers through the IDES process to ensure they 
are aware of the options available to them and to help with the many 
decisions they need to make while still in on active duty. The PEBLO 
compiles administrative data, informs military members of the IDES 
process and the MEB, and then refers them to the VA Military Services 
Coordinator (MSC).
    The VA MSC then meets with the military members to advise them 
about the next phase of the IDES process, assist in completion of 
documentation, establish a formal VA disability claim, and initiate 
case development. The VA MSC requests the appropriate VA medical 
examinations, monitors their progress, provides copies of the completed 
examination reports to the PEBLO, and completes any additional 
development actions as needed.
    Once the medical examinations are completed, the VA MSC provides 
them to the PEBLO and the VA Disability Evaluation System Rating 
Activity Site (D-RAS) which prepares the proposed disability rating. 
The PEBLO incorporates the medical examination results in the IDES case 
file and provides it to the MEB convening authority. The MTF then 
conducts an MEB and provides the results back to the PEBLO, including 
the results of the MEB's response to any rebuttal of the member about 
the MEB findings. The PEBLO then provides a copy of the MEB findings, 
to include the completed VA medical examination results, to the 
military member and forwards the case to the PEB administrator if the 
MEB did not return the military member to duty. The PEB administrator 
prepares and provides the member's case to the Informal PEB (IPEB).
    The IPEB is typically comprised of a two- or three-member board. 
The IPEB adjudicates the case and requests the D-RAS provide the 
proposed ratings for the military members' conditions that the IPEB has 
determined to be unfit. The D-RAS prepares the proposed disability 
ratings, and reconsideration of the proposed ratings, if the military 
member requested this. Once all information is received, the IPEB 
decides whether the member can continue in the military. If so, they 
are designated ``fit'' and returned to duty. If not, they are found 
``unfit.'' There are three broad types of medical separations the 
member can receive as a result of being found unfit: separated without 
severance pay, separated with severance pay, or retirement.
    Once the military member is informed of the IPEB's decision, they 
can either accept those findings or appeal the decision to the Formal 
Physical Evaluation Board (FPEB). The FPEB is comprised of a three-
member board, two personnel officers and a physician. They review all 
the information that the IPEB had, with the added feature of the member 
being able to personally appear before the FPEB and offer additional 
evidence. The FPEB then holds a hearing, weighs the prior evidence, the 
member's testimony as well as any new evidence presented, and renders 
its recommendation. The member can accept the decision of the FPEB, or 
request reconsideration of the proposed ratings. Just as with the IPEB, 
there are three broad types of medical separations the member can 
receive: separated without severance pay, separated with severance pay, 
or retirement.
    Military members have a final appeal option of the FPEB findings 
regarding fitness for duty through all subsequent levels allowed by 
their branch of service, such as the Department of the Navy Council of 
Review Boards and the Department of the Air Force Personnel Council.
    The three types of medical separations, separated without severance 
pay, separated with severance pay, or retirement, can result in several 
types of medical discharges. Specifically, those who receive a 
disability rating of 20 percent or less receive a Discharge With 
Severance Pay or DWSP. Those whose medical conditions were found to 
exist prior to military service and found unfit can be ``discharged 
under other than Chapter 61, title 10 or (DUOT) without disability 
compensation if their conditions existed prior to service and were not 
permanently aggravated through military service. Those who receive a 
disability rating of 30 percent or more may receive Permanent 
Retirement, or be placed on the Temporary Disability Retired List and 
reevaluated at least every 18 months until their conditions become 
stable with a final disability rating decision rendered at the five 
year point. An exception would be mental disorders due to traumatic 
stress on active duty which require re-evaluation within six months 
after discharge, if assigned a disability rating of not less than 50 
percent.
    While DAV is generally pleased with the IDES, we are concerned 
about certain aspects of the program. One area is servicemembers 
participating in IDES not having ready access to representation from a 
veterans service organization (VSO) in the same manner as they did 
under the legacy DES.
    The issue of access to counsel to advise military members on the VA 
disability claims process was cited as a concern by the Recovering 
Warrior Task Force (RWTF). The RWTF is charged with conducting an 
assessment of the effectiveness of DOD programs and policies for 
Recovering Warriors (RWs). In recommendation 19, the RWTF found during 
RWTF onsite visits that legal personnel indicated that they were 
greatly understaffed. The Army, Navy, and Marine Corps provide legal 
counsel for both MEB and PEB. The Air Force provides specific legal 
counsel only for the PEB. Air Force base level legal counsel can 
address IDES issues prior to PEB. However, the Air Force is the service 
with the lowest satisfaction with legal counsel and the only service 
who's IDES participants were not more satisfied than their legacy DES 
participants. These survey results reinforce the importance of 
providing legal counsel for the MEB as well as the PEB. \6\ The 
relationship between access to legal counsel and satisfaction with the 
IDES process is clear. Despite survey results demonstrating the value 
of having legal counsel available throughout the disability evaluation 
process, the majority of RWTF focus group participants said they lacked 
personal experience with or knowledge of these specialized legal 
resources. \7\
---------------------------------------------------------------------------
    \6\ DOD Recovering Warrior Task Force Report, September 2, 20111, 
page 22.
    \7\ Ibid.
---------------------------------------------------------------------------
    Most military members undergoing the discharge evaluation process 
may not be aware of the complexities of the disability adjudication and 
retirement systems. As a result, they may be accepting PEB decisions 
that are not in their best interest and/or the benefits they receive 
may be less than what they would have been had they understood the 
long-term consequences of their decision to accept a particular PEB 
decision. As stated in the latest RWTF report, ``Service members going 
through the IDES process often do not have a clear idea about where 
they are going and what their futures hold.'' \8\
---------------------------------------------------------------------------
    \8\ Ibid, RWTF Service member focus group results. March/April 
2011, page 43.
---------------------------------------------------------------------------
    Most servicemembers may not know how complex the IDES disability 
adjudication is and we believe their best interests would be served if 
they had access to the free assistance from certified representatives 
from VSOs who can not only provide them with a full understanding about 
the process and their rights but also act as their advocates. DAV, in 
accordance with DAV Resolution 177, and also with the other co-authors 
of The Independent Budget has urged the DOD and VA to address this 
observed gap in IDES and expand VSO access.
    DAV was actively engaged in the legacy DES but VSOs were excluded 
when the program was redesigned and replaced with IDES. Under the 
legacy DES, our TSOs represented 282 military members before DOD's 
Physical Evaluation Boards from July 2008 to June 2009 but those 
numbers have declined to 92 from July 2009 to June 2010 and to 22 from 
July 2010 to June 2011. This change was based on the DOD and VA's focus 
on speeding the delivery of benefits so they could be placed in the 
hands of separating military personnel closer to the time of their 
discharge. Just as with the larger disability claims process and its 
current focus of ``breaking the back of the backlog,'' IDES is 
similarly focused. It is our view that while speed is an important 
factor, any claim, whether while on active duty or as a veteran should 
be done right the first time with an emphasis on timeliness and rating 
decision accuracy.
    DAV brings vast experience and expertise about claims processing 
with our service officers holding powers of attorney for hundreds of 
thousands of veterans and their families. Our NSOs and TSOs continue to 
be actively engaged in informing military members of their eligibility 
for VA and DOD benefits though briefings at Transition Assistance 
Program classes. We also provide assistance to those who request 
accelerated receipt of their VA disability benefits under VA's Benefits 
Delivery at Discharge (BDD) and Quick Start. To participate in BDD the 
military member must apply within 180 days of discharge but no less 
than 60 days. If they are closer than 60 days from separation then they 
can use Quick Start. We assisted over 55,900 military members in 2011 
under these three programs. As a result, DAV and other VSOs play an 
integral part in the claims process and undeniably make the VA's job 
easier by helping veterans prepare and submit better claims, requiring 
less time and resources for them to be developed and adjudicated. If 
provided broader access, we can make the DOD's job easier as well by 
ensuring military members going through IDES do have a clear idea about 
where they are going and what their futures hold.
    There has been some positive movement that partially addresses VSO 
access. The VA Integrated Disability Evaluation System Implementation 
Guide states that VA Military Services Coordinators (VA MSCs) will 
``explain the availability of Veterans Service Organizations and 
provide a VA Form 21-22, Appointment of Veterans Service Organization 
Claimant's Representative, if the Service member expresses interest in 
this resource.'' \9\ While this is an improvement, we recommend this 
guidance be modified so the VA MSCs explain the option of 
representation by a VSO during IDES, whether or not the military member 
expresses an interest. Given the many issues that the member has to 
handle at this important juncture, changing this interchange to a more 
positive exchange may be more productive.
---------------------------------------------------------------------------
    \9\ VA Integrated Disability Evaluation System Guide, December, 
2011, page 16.
---------------------------------------------------------------------------
    While the guidance to VA MSCs is in the right direction, there has 
been no such change from the DOD directing PEBLOs to raise VSO 
representation as an option at any point in the process. Therefore, we 
recommend that PEBLOs be required to inform military members about the 
option of VSO representation as well. Having PEBLOs provide this option 
earlier in the IDES process, and on the DOD side of the rating process, 
would help ensure that military members know that VSOs are available to 
represent them not just with the VA but also with the DOD as their 
disability claim is processed.
    The last area to address is the effectiveness of the PEBLOs. The 
RWTF found in its work with focus groups that many participants had 
limited knowledge as to the role of the PEBLO. Although several spoke 
favorably, more often than not comments about PEBLOs were negative. 
Military members seemed to expect them to be more of an advocate that 
they were. \10\ Twenty-eight percent of RWs responding to the RWTF 
mini-survey indicated that the PEBLO was very or extremely helpful, 
while 32 percent indicated the PEBLO was moderately helpful. These 
statistics would indicate that, while 60 percent of respondents had a 
favorable impression of PEBLOs, a significant minority of 40 percent 
did not have a favorable impression.
---------------------------------------------------------------------------
    \10\ DOD Recovering Warrior Task Force Report, September 2, 20111, 
page 21.
---------------------------------------------------------------------------
    The RWTF mini-survey results are in contrast with the more positive 
survey findings of the DOD Office of Wounded Warrior Care and 
Transition Policy (WWCTP). They found PEBLO customer service earned 79 
percent to 88 percent satisfaction ratings across the services. DOD 
WWCTP also found that 65 percent of survey respondents indicated that 
the PEBLO managing their case was helpful or very helpful to them.
    While DAV has received information from the field that indicates 
the performance of PEBLOs has continued to improve generally, there are 
occasions in which PEBLOs have incorrectly advised members on what 
their actual disability ratings are. Recently, a PEBLO advised a member 
that he could not personally appear before the Formal Physical 
Evaluation Board to appeal the IPEBs decision. This was clearly in 
error, but one of DAV's NSOs was able to provide the correct 
information to the member. In order to prevent these types of errors 
and improve satisfaction, we believe it is imperative that the training 
and quality control be reviewed and more closely monitored.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions you may have.

                                 <F-dash>
                    Prepared Statement of Phil Riley
    Chairman Runyon, Ranking Member McNerney, and Members of the 
Subcommittee:
    Wounded Warrior Project (WWP) appreciates your holding this hearing 
and welcomes the opportunity to share our perspective on the Integrated 
Disability Evaluation System (IDES) - a critical, but still troubled 
pathway in the transition from servicemember to veteran.
    I am Phil Riley, a Senior Benefits Liaison with WWP. In that 
capacity, it is my privilege to assist wounded, ill, and injured 
servicemembers in navigating the confusing road from medical 
evaluations to the critical benefits' determinations associated with 
their military retirement or separation. As a retired Army Colonel who 
has worked with the disability evaluation process for some six years, 
including time as a veteran's service officer, it's my assessment - and 
that of WWP - that much more work is needed to close the wide gap 
between the goals underlying IDES and realization of those goals. We 
believe VA is doing its part in the IDES process. In our view, the 
Department of Defense (DoD) needs to do more remedial work.
    IDES, of course, has its roots in the problems wounded warriors 
experienced under the so-called ``legacy Disability Evaluation 
System,'' the DES. Under that system servicemembers whose injuries or 
medical conditions rendered them no longer fit for continued military 
service went through a very lengthy multi-stage processes, with both 
DoD and VA conducting their own separate medical evaluations and 
subsequent disability rating processes. Under DES, servicemembers 
routinely experienced many-months' waits between discharge from service 
and receiving their first VA benefits payment as well as 
inconsistencies in how servicemembers' injuries were evaluated in the 
two systems. \1\ In 2007, it took an average of 540 days under the 
legacy DES for a servicemember to clear both DoD and VA disability-
evaluation processes. \2\
---------------------------------------------------------------------------
    \1\ U.S. Medicine, Wait Times Heading in Wrong Direction in New 
Integrated Disability System; VA Blames `Transition Difficulties''' 
July 2011; Kimberly Hefling, The Associated Press, ``Claim Processing 
Keeps Injured Troops Waiting,'' May 18, 2011.
    \2\ Tom Philpott, ``Disability Evaluation Reforms Seen Falling 
Short,'' Army Times, March 31, 2011.
---------------------------------------------------------------------------
    The bipartisan Commission on Care for America's Returning Wounded 
Warriors (``the Dole-Shalala Commission''), formed in that year, urged 
that DES be overhauled. Among its findings, the Commission reported 
that fewer than 50% of servicemembers understood the DoD disability 
evaluation system, and that only 38% of active duty and 34% of the 
reserve component were ``somewhat'' satisfied with it. \3\ The 
Commission recommended that the two departments ``create a single, 
comprehensive, standardized medical evaluation that DoD administers,'' 
\4\ with DoD maintaining its authority to determine fitness-to-serve 
and VA becoming solely responsible for setting disability ratings and 
awarding compensation. \5\ Its recommendation aimed to update and 
simplify the disability determination and compensation process by 
eliminating parallel activities and to reduce inequities. \6\
---------------------------------------------------------------------------
    \3\ The President's Commission on Care for America's Returning 
Wounded Warriors, July 2007, p. 6.
    \4\ Id. at 7. Service members found unfit due to their combat-
related injuries would then receive payment for years served and 
comprehensive health care coverage for themselves and their families 
through DoD's TRICARE program. Id.
    \5\ Id.
    \6\ Id. at 6.
---------------------------------------------------------------------------
         Creation of IDES and the Goals of an Integrated System
    The Commission's work was carried forward by the congressionally-
established Wounded, Ill and Injured Senior Oversight Committee (SOC) 
which ultimately instituted a more modest reform to integrate the two 
systems which resulted in establishing a pilot integrated disability 
evaluation system. The vision was ``to create a servicemember-centric, 
seamless and transparent DES'' \7\ by developing a jointly-conducted 
military medical evaluation process under which servicemembers receive 
a single set of physical disability evaluations and disability ratings, 
conducted and prepared by VA, with simultaneous processing by both 
departments--using VA protocols for disability examinations and VA 
disability ratings to make their respective determinations--to ensure 
the earliest possible delivery of disability benefits. \8\ The goals of 
the new IDES process were to create: (1) a less complex and non-
adversarial system; (2) faster, more consistent evaluations and 
compensation; (3) a single medical exam and a single-source disability 
rating; and (4) a smooth transition to veteran status. \9\ The IDES 
pilot began in the National Capital Region in November 2007 with a goal 
of reducing the time (from referral of a case to the DoD medical 
evaluation board to delivery of VA benefits) to 295 days for active 
duty and 305 days for reserve component servicemembers. \10\ Following 
a phased expansion of the IDES pilot over about a year and a half 
period, IDES became fully operational as of October 2011. \11\ Under 
the new IDES process, a servicemember is to receive a full medical 
examination conducted by the VA, which is used as the basis for 
determining both fitness for continued duty in military service and 
entitlement to DoD benefits and VA compensation.
---------------------------------------------------------------------------
    \7\ Is This Any Way to Treat our Troops? Part III: Transition 
Delays: Hearing Before the H. Committee on Oversight and Government 
Reform, 112th Cong. (2011) (prepared statement of Lynn Simpson, Acting 
Principal Deputy Undersecretary of Defense for Personnel and Readiness, 
U.S. Department of Defense).
    \8\ Id.
    \9\ Integrated Disability Evaluation System Pilot Overview, 
presentation at VA/DOD Joint Venture Conference, October 2010, 
available at: http://www.tricare.mil/dvpco/downloads/lvjvc/Day2-1045--
JVConfVADODSpecialtyPanelIDES.ppt
    \10\ U.S. GAO, Military and Veterans Disability System: Worldwide 
Deployment of Integrated System Warrants Careful Monitoring, GAO-11-
633T (Washington, D.C., May 2011), 4.
    \11\ U.S Department of Veterans Affairs Budget Request for Fiscal 
Year 2013: Hearing Before the H. Committee on Veterans' Affairs, 112th 
Cong. (2012) (prepared statement of Hon. Eric K. Shinseki, Secretary, 
U.S. Department of Veterans Affairs).
---------------------------------------------------------------------------
                            The IDES Process
    The IDES process, while differing in detail from service to 
service, begins with a servicemember's treating physician \12\ or unit 
commander making a referral to a Medical Evaluation Board (MEB). That 
board, generally composed of medical care professionals, \13\ evaluates 
the servicemember's injuries and ongoing treatment to determine if the 
Member is able to meet medical retention standards and return to full 
duty - and, if not, to make a recommendation (to a Physical Evaluation 
Board (PEB)) as to whether he or she is fit for continued service 
following medical treatment. From the start of the MEB referral, the 
servicemember is to be assigned a Physical Evaluation Board Liaison 
Officer (PEBLO) to help assist him/her throughout the IDES process. The 
PEBLO is responsible for assembling all the information included in the 
servicemember's DES case file: all medical records, test results, and 
exams performed for the MEB; letters from a servicemember's chain of 
command related to how the condition impacts duty; and other personnel 
records the MEB may require. \14\
---------------------------------------------------------------------------
    \12\ A doctor is to refer a case to the MEB only upon satisfaction 
that all has been done medically to improve the condition(s). 
Department of Defense, Wounded, Ill and Injured Compensation and 
Benefits Handbook, October 2011, 17.
    \13\ Id. If a servicemember's condition includes a mental health 
condition, a mental health care provider should be on the panel, as 
well. Id.
    \14\ Id.
---------------------------------------------------------------------------
    The MEB does not conduct formal hearings, and the servicemember is 
not afforded the opportunity to appear before the board. If the MEB 
determines that a servicemember does not meet medical retention 
standards, it will forward that recommendation to a PEB. \15\ The MEB 
results and recommendation are documented in a narrative summary 
(NARSUM) which becomes the single most important piece of evidence the 
PEB uses. After the servicemember receives the MEB's NARSUM, the PEBLO 
will review it with the servicemember. A servicemember may ask for an 
Independent Medical Review (IMR) and/or a Judge Advocate General (JAG) 
counselor to review the NARSUM to ensure it is fully developed and 
accurate. \16\ The servicemember does have the opportunity to submit a 
rebuttal to be considered by the MEB. Far too often, in our view, the 
response to the rebuttal is ``no changes accepted.''
---------------------------------------------------------------------------
    \15\ If the MEB determines a servicemember does meet medical 
retention standards (or will be able to perform full duties within one 
year) the servicemember may return to duty.
    \16\ Walter Reed Army Medical Center PEBLO Office, Integrated 
Disability Evaluation System Quick Series Review Guide.
---------------------------------------------------------------------------
    In the second phase of the process, the informal PEB (IPEB) will 
evaluate the servicemember's fitness for duty. Generally, the IPEB is 
comprised of three people, with a mix of military and civilian members, 
including at least one physician and one nonmedical officer. \17\ 
Again, the servicemember does not attend this meeting. \18\ Using the 
packet compiled by the PEBLO, the IPEB will review the medical records, 
the NARSUM, personnel evaluations, and letters from the commander and 
vote as to whether the servicemember is fit to continue service. \19\ 
The PEBLO will then notify the servicemember of the findings of the 
IPEB. If the IPEB makes a determination of fitness, the servicemember 
has 10 calendar days to accept the decision and return to duty or offer 
a rebuttal and request a formal PEB. If the IPEB determines a 
servicemember is unfit, he/she has 10 calendar days to decide on a 
course of action; the options are (1) to accept the decision, (2) 
accept the decision but request a reconsideration of the VA disability 
rating, (3) offer a rebuttal and request a formal PEB, or (4) request 
both a formal PEB and reconsideration of the VA disability rating. \20\ 
If a servicemember requests a formal PEB, he/she is allowed to appear 
before the board with legal representation. The formal PEB hearing must 
conduct a de novo review- all factual questions must be addressed as if 
for the first time. The formal PEB's decision may change from the IPEB. 
The formal PEB will then notify the appropriate service headquarters of 
its determination. Once service headquarters receives the final PEB 
determination, the servicemember may be separated, medically retired, 
or returned to duty. \21\
---------------------------------------------------------------------------
    \17\ DoD regulations list minimum requirements for PEB membership 
and leaves the exact determination of who sits on the board for each 
military department to decide. Department of Defense, Wounded, Ill and 
Injured Compensation and Benefits Handbook, October 2011, 18.
    \18\ Id.
    \19\ The PEB will determine a servicemember's disposition--return 
to duty, separation, or permanent or temporary retirement. Department 
of Defense, Wounded, Ill and Injured Compensation and Benefits 
Handbook, October 2011, 18.
    \20\ Walter Reed Army Medical Center PEBLO Office, Integrated 
Disability Evaluation System Quick Series Review Guide.
    \21\ Id. If the Service member appeals the formal PEB findings, the 
appropriate military department considers the appeal and returns to 
duty, separates, retires, or assists the servicemember to complete an 
inter-Service transfer, if appropriate and approved. Under Secretary of 
Defense, Integrated Disability Evaluation System Directive-Type 
Memorandum 11-015, Dec. 2011.
---------------------------------------------------------------------------
    A servicemember found to be unfit by the PEB will still receive two 
separate disability ratings under the new IDES process: (1) a rating by 
the PEB that evaluates only those conditions deemed to make the 
servicemember unfit for duty (which determines whether or not the 
servicemember will qualify for medical retirement and what benefits the 
servicemember is eligible to receive from DoD), and (2) a VA rating of 
all service-connected conditions (whether the conditions make the 
servicemember unfit for duty or not). Both the DoD and VA ratings are 
to be based on the VA Schedule for Rating Disabilities (VASRD).
                   IDES Goals versus IDES in Practice
    In our view, IDES should be judged by reference to the goals it was 
to achieve - a less complex, non-adversarial system that operates more 
quickly and with greater transparency and consistency to provide a 
smooth transition to veteran status. Even today, however, our Wounded 
Warriors still encounter great difficulty in navigating a system they 
find to be highly complicated, difficult to understand, unnecessarily 
contentious, and often ponderously slow. We at WWP who have been 
representing these servicemembers see a serious lack of quality-control 
in a system often marked by inconsistent practices, decisions based on 
incomplete or inaccurate medical records, and wide variability in the 
reliability of information and advice furnished to servicemembers 
confronting difficult, life-changing circumstances.
                             Case Examples
    The experiences of two warriors, with whom we at WWP have worked, 
illustrate the kinds of problems we're describing. In both instances, 
these warriors are at a sensitive stage of the process and requested 
that we omit reference to their names.
    The Officer: The first, an Army officer sustained a penetrating 
head injury in Iraq. He has had a long remarkable rehabilitative 
journey, and his wife was by his side through the course of his 
painfully slow recovery. As he gradually regained lost function, the 
couple could begin to think and worry about the future. As she 
explained it, given her role as a full-time caregiver, his injury 
deprived two college-educated people of the ability to work. ``Don't 
worry,'' he was told, ``you'll be 100%; you'll be fine.'' That 
misplaced expression of confidence reflected a widespread misconception 
that inured soldiers would collect both retirement pay and VA 
disability compensation. But, as they ultimately learned--with VA 
compensation offsetting military retired pay - a 100% disability rating 
represented only 60% of his monthly military income. The couple faced a 
very confusing choice as to whether to elect to receive military 
retirement pay or Combat Related Special Compensation. Making a prudent 
decision required understanding the relationship between, and the 
calculations regarding, (1) DoD military retirement, (2) VA 
compensation, (3) VA special monthly compensation, and (4) DoD Combat 
Related Special Compensation. The couple came to realize that Army 
personnel who help the wounded navigate the system are not necessarily 
knowledgeable on the interrelationship between those financial pieces, 
and at times those advising them were not helpful. In fact, their JAG, 
finance office, and PEBLO gave the couple conflicting information on 
the critical point: would a wounded soldier receive both military 
retired pay and VA compensation concurrently? Each was unaware of how 
the above four compensation programs offset each other. Confusion on 
such a basic point of information highlights the dilemma facing 
servicemembers with often severe multiple injuries.
    Not only are key decisions facing a warrior in the course of the 
IDES process confusing, but the information from which critical 
determinations are made is often incomplete or even inaccurate. In the 
officer's case, for example, the NARSUM failed to include any 
description of his day-to-day functional impairment, but simply set out 
a list of his medical conditions. Even at that, one of those conditions 
- loss of use of an arm - was omitted from this critical document. An 
Independent Medical Review was, in fact, critical of the NARSUM and 
included the reviewing physician's observation regarding a section 
listing residuals from TBI--

       ``[It] is hard to read and almost incomprehensible to the 
military physician: it is crucial to remember that these reports are 
intended for the audience of the PEB and servicemember. The writing 
should be unequivocal and precise, which is not the case here.''

    While the MEB accepted some of the officer's points of rebuttal, 
the Board did not rewrite the NARSUM, which was ultimately the basis of 
the PEB's determination.
    While IDES was intended to foster a smooth transition, it is 
subject to troublingly disruptive pressures. For example, the Warrior 
Transition Unit to which the officer was assigned worked intrusively 
and applied pressure - to include harassing the PEBLO--to hurry the 
process along. Similarly, while the IDES process provides appeal 
rights, their experience was that the WTU actively discouraged him from 
appealing the PEB decision, as that would slow the process down. These 
weren't isolated experiences. Earlier in the course of his 
rehabilitation, the couple was subjected to pressure to sign papers 
that resulted in cutting short still-needed rehab care (against medical 
advice) and rushing him into the MEB process.
    While IDES was designed to achieve greater timeliness, the 
officer's experience was but the officer's experience in that regard 
was of a heavy-handed military attempting to push him through 
prematurely where that early haste led to errors, culminating in a 
lengthy appeal process that was compounded by long delays in getting 
needed VA examinations.
    This mature, college-educated couple's rough journey through the 
IDES process certainly calls into question how well a much less 
sophisticated young warrior with similar injuries and without expert 
representation might have fared.
    The Master Sergeant: An Army Reserve Master Sergeant with a 24-year 
military career sustained multiple severe physical injuries, a 
traumatic brain injury, and developed chronic post-traumatic stress 
disorder after the Humvee under his command was hit by a roadside bomb 
in Iraq in 2005. This servicemember endured a long, rough road to 
recovery that included 26 surgeries and over a hundred medical 
procedures, and that (among other disabling conditions) resulted in 
loss of function in the dominant hand due to severed nerves.
    Given the voluminous body of medical records that had been compiled 
by the time the MEB process was initiated in 2010, the Sergeant made 
sure to bring those records - which filled a large suitcase - to the 
meeting with the PEBLO and asked for the opportunity to review the MEB 
packet before it was forwarded to the Board. This packet was not made 
available for the Sergeant to review. Moreover, the VA physician who 
carried out the MEB physical exam had been provided only with a single 
medical record file, and even expressed frustration about the inability 
to conduct the physical exam properly without further records. Upon 
contacting the PEBLO about the missing medical records, the Sergeant 
was told, ``if additional records are needed, the VA doctors will 
request them from the MTF.''
    In February 2011, the Sergeant received a 137-page NARSUM; despite 
its length, it omitted several service-connected conditions. The 
Sergeant was overwhelmed by having to review this very lengthy 
technical document in seven days. This was compounded by not being able 
to get a face-to-face meeting with the PEBLO. A JAG officer whom the 
Sergeant asked for help provided only a limited review of the case that 
didn't allay the concerns; an effort to secure additional JAG 
assistance at another installation was rebuffed. The Sergeant was later 
referred to another JAG officer, who seemed stretched thin with a large 
backlog of cases, but who did eventually assist in drafting a request 
for an independent medical review (IMR), but the IMR wasn't done 
because the PEBLO failed to accurately explain the IMR process to the 
local primary care Air Force doctor who was to conduct the IMR. An IMR 
was finally done in April 2011, but involved only a review of the 
NARSUM without any review of the Sergeant's medical treatment records, 
and resulted simply in upholding the flawed NARSUM. Although the 
extended process appeared to be nearing an end, the Sergeant was 
informed by the PEB doctor in July 2011 that disability ratings could 
not be completed without additional pictures of the injuries. It was 
only in January 2012 that the Sergeant got notice that VA had 
``recommended'' a 100% rating but with a final decision deferred 
pending review of medical records regarding service-connection for 
other medical conditions. The adjudicative process was completed with 
assignment of a 100% rating 24 months after the Sergeant's unit 
commander requested MEB initiation.
                 Timeliness and Lack of Quality-Control
    IDES was intended to improve the timeliness of the disability-
evaluation process, but rather than realizing the 300-day goal for 
moving a servicemember through the system, the process is apparently 
taking an average of nearly 400 days. \22\ To assess IDES solely by 
reference to timeliness, however, is to overlook the dangers inherent 
in moving too quickly - and in doing so, foreclosing the servicemember 
from getting needed medical care and increasing the risk of prejudicial 
error. In fact, the IDES process is particularly vulnerable to what 
amounts to quality-control issues--incomplete examinations, examination 
reports that fail to include new diagnoses, incomplete or insufficient 
NARSUMs, and missing critical documentation. Such problems - sometimes 
attributable to pressures to move cases along - ultimately contribute 
to delay and adversely affect the ultimate disability rating 
determination. WWP often hears from warriors, especially those in 
Reserve and National Guard units, who cite long delays in the system, 
and of having to fight to get needed medical treatment.
---------------------------------------------------------------------------
    \22\ Seamless Transition: Improving VA/DOD Collaboration: Hearing 
Before the S. Veterans' Affairs Committee, 112th Cong. (2011) 
(statement of Hon. William J. Lynn, III, Deputy Secretary, U.S. 
Department of Defense).
---------------------------------------------------------------------------
    Delays encountered during the MEB process can have a compound 
effect, resulting in medical exams ``expiring'' or no longer being 
accurate, requiring nurse case-managers and PEBLOs to order new exams. 
Too often warriors' medical and mental health conditions are 
incompletely diagnosed or not even assessed during medical exams, 
resulting in incomplete exam summaries and delays in needed care. As a 
result, examiners must take extra time to clarify the summaries, and in 
some cases, redo the exam. \23\
---------------------------------------------------------------------------
    \23\ U.S. GAO, Military and Veterans Disability System: Worldwide 
Deployment of Integrated System Warrants Careful Monitoring, GAO-11-
633T (Washington, D.C., May 2011), 7.
---------------------------------------------------------------------------
    While substituting a VA evaluative medical examination for what had 
been duplicative separate DoD and VA exams under the legacy system was 
to have saved time, IDES has not eliminated sharp differences of view 
between the two departments. \24\ On that point, my experience and that 
of others representing servicemembers is aptly captured by the 
following observations:
---------------------------------------------------------------------------
    \24\ Id.

       ``The MEB places no value in the results of the VA examination. 
There are many cases in which VA has diagnosed PTSD and other 
conditions as moderate to severe, and the MEB disregards the findings 
and bases it on their own evaluation. MEB review of the Service 
Member's medical treatment records is also not thorough in many cases. 
The system is full of cases where the treating Psychiatrist and the 
Examining Psychiatrist at the VA are overruled by the Doctors on the 
MEB. Often the same thing is done in Orthopedic departments. VA 
documents the severity of the Service Member's disability by reference 
to its effect on a variety of normal daily activities including ability 
for exercise, sports and effect on a job. The MEB consistently 
disregards these findings and minimizes them in the so-called 
`Consolidation of Inconsistencies.' What is obvious is that the MEB has 
reached a decision often prior to the VA examination and refuses to 
---------------------------------------------------------------------------
take the VA examination into proper consideration.'' \25\

    \25\ Interview with Jerry Johnson.
---------------------------------------------------------------------------
    Given the MEB's mode of operation, the Board findings - documented 
in the NARSUM--are often flawed. While the NARSUM is the single most 
important document describing a warrior's physical and mental 
limitations, it is rarely fully developed, comprehensive, or accurate. 
Too often the MEB process either fails to identify and fully document 
in the NARSUM all of the warrior's medical conditions, or it minimizes 
them. It is particularly troubling, in this regard, that MEBs routinely 
fail to take the time to review a servicemember's complete medical 
records or to research those records in depth. In addition, the 
military seldom affords servicemembers the complete physical 
examination required by regulation. \26\ By law, the armed forces are 
required to document all service-connected medical conditions, 
medically acceptable for a VA disability rating. \27\ However, MEBs, in 
preparing the NARSUM, routinely fail to include the servicemember's 
medically acceptable conditions, and focus only on those conditions 
affecting the servicemember's ability to serve. The upshot of that 
narrow focus and resultant omissions is to make it more difficult for 
the servicemember to establish service-connection for disabilities that 
are incurred in service but simply not noted in the NARSUM. These 
failures also have an impact ``downstream'' - increasing the number of 
appeals in the already- backlogged VA adjudication system.
---------------------------------------------------------------------------
    \26\ ``A complete physical examination must be recorded in the 
MEB.'' AR 40-400 (27 January 2010);
    ``The overall effect of all disabilities present in a soldier whose 
physical fitness is under evaluation must be considered.'' AR 635-40, 
sec. 3-1b.
    \27\ Under Secretary of Defense, Integrated Disability Evaluation 
System Directive-Type Memorandum 11-015, Appendix 8, Attachment 4, Dec. 
2011; Department of Defense Instruction 1332.38, July 2006.
---------------------------------------------------------------------------
    In contrast to the many instances in which warriors experience long 
delays in moving through the MEB/PEB process, we see instances such as 
discussed above, where warriors are seemingly rushed through the 
process, many of them National Guard and Reserve members. These 
circumstances inevitably create problems ranging from incomplete 
treatment to erroneous disability ratings. WWP is working with several 
warriors who were referred to the MEB while still undergoing treatment 
or had developed new medical problems, and as a result received an 
incomplete NARSUM. In such instances, the MEB process should be delayed 
or stopped. All medical conditions should be diagnosed and treated 
before the MEB process even begins.
  Dual-Adjudication Undercuts the Goal of a Timely, Streamlined System
    One of the most critical barriers to a timely, streamlined system 
is that IDES retains the redundancy of a dual-adjudication process. 
Army Surgeon General, LTG Eric Schoomaker, in testifying before the 
Senate Appropriations Subcommittee on Defense, acknowledged that the 
system ``remains complex and adversarial,'' and warriors ``still 
undergo dual adjudication where the military rates only unfitting 
conditions and the VA rates all service-connected conditions.'' \28\ At 
the same hearing, the then-Undersecretary of Defense for Personnel and 
Readiness described the ideal system as one that would produce ``a 
single evaluation based upon one medical record.'' \29\ Eliminating 
this redundancy would represent an important reform, but would not 
alone eradicate the range of problems warriors encounter in moving 
through the disability evaluation system. Substantive errors in 
decision-making go unaddressed in those many cases when the PEBLO 
assisting the warrior is not adequately trained and the warrior is 
either lacks representation or is not effectively represented.
---------------------------------------------------------------------------
    \28\ Tom Philpott, ``Disability Evaluation Reforms Seen Falling 
Short,'' Army Times, March 31, 2011.
    \29\ Id.
---------------------------------------------------------------------------
          IDES Leaves Too Many Ill-informed and Unrepresented
    Generally, warriors and their family members are uninformed or do 
not understand the IDES process. The system's complexity leads some to 
become cynical, as in the case of one Wounded Warrior who commented, 
``they make it convoluted and you get so frustrated that you want to 
give up. I've never been as stressed out as I am in this process.'' 
\30\ Servicemembers' lack of understanding of the process also 
contributes to flawed case-adjudication. With the failure to inform 
servicemembers at the outset of the MEB referral of the importance of 
their medical records and the need for supporting documentation, many 
are wholly unprepared for the challenge associated with establishing 
service-connection.
---------------------------------------------------------------------------
    \30\ Beldock
---------------------------------------------------------------------------
    In theory, the military's assignment of a PEBLO to each 
servicemember undergoing the IDES process should close the information-
gap. Beginning with an initial briefing before the servicemember's 
first physical examination for the MEB, the PEBLO's role is to inform 
the service-member of what to expect at various phases of the process, 
assist the servicemember in gathering medical information and 
documentation, and review the MEB and PEB determinations with the 
servicemember. The reality, however, is that some of these officers do 
not fully understand the system or have such large caseloads they can't 
provide each servicemember adequate instruction and assistance. While 
the nature of the process requires the PEBLO to maintain an ongoing 
flow of information to the servicemember, warriors often report that 
they rarely hear from their PEBLO. But even under the best of 
circumstances, the PEBLO acts as the servicemember's counselor and 
liaison, but that officer is not the servicemember's advocate before 
the MEB or PEB.
    Servicemembers do have access to JAG representation \31\, and some 
efforts have been made to provide training for the JAGs. In our view, 
however, there is wide variability in the level of expertise on IDES 
issues among JAGs, and certainly not enough JAGs have the necessary 
expertise. Servicemembers themselves often express reluctance to avail 
themselves of the assistance of a JAG officer, often based on the 
perception that a military/government lawyer may not represent their 
best interests.
---------------------------------------------------------------------------
    \31\ In our experience, at least one JAG officer and a paralegal 
are stationed in the military treatment facilities to assist when MEBs 
take place.
---------------------------------------------------------------------------
    Not only is the servicemember generally unrepresented but that 
individual is not afforded the opportunity to appear before the MEB to 
discuss his health status. Accordingly, the MEB's development of a 
narrative summary is based, and dependent, on the medical records 
available to the MEB, and its interpretation of those records. Lack of 
representation is especially problematic at the point that the 
servicemember receives the MEB determination, because the individual is 
given just seven working days to review and appeal the NARSUM before it 
is forwarded to the PEB for a determination of fitness, separation, or 
military retirement. This is an unreasonably limited period of time for 
an individual to obtain reliable advice or counsel, particularly in the 
often complex cases that involve multiple severe injuries, let alone 
enough time for many warriors to review and comprehend NARSUM findings 
and the significance of omissions or inaccuracies in that document. The 
servicemember has only an additional five days within which to seek an 
IMR to challenge the NARSUM before the case moves to the PEB, and is 
not afforded the option of providing evidence from a specialist of his/
her own. In contrast, the IMR - generally performed by a physician 
under contract to DoD--is less than ``independent,'' and is seldom a 
specialist able to address specific issues. In our experience, very few 
such reviews come back with any change in determination; yet our own 
reviews often show strong bases for an IMR to challenge the findings.
    WWP's representation of growing numbers of Wounded Warriors through 
this process has highlighted problems under IDES, but has also led us 
to develop solutions. We offer the following recommendations in the 
belief that the IDES system can and must be materially improved, and 
urge this Committee to work with the Armed Services Committee to spur 
the Executive Branch to make needed changes.
                          WWP Recommendations
    (1)  Direct DoD and VA to provide (i) better instruction and 
outreach on IDES for warriors and their caregivers, and (ii) better 
instruction on IDES for warrior transition unit and other pertinent 
staff who work with warriors and their families and caregivers.
    (2)  Direct DoD to re-engineer, and institute quality-controls on, 
the ``front-end'' of the IDES process to--

    (a)   Provide procedures and safeguards to protect servicemembers, 
and particularly National Guard and Reserve members, from being pushed 
into and rushed through the MEB process.
    (b)   Ensure that the MEB process is not begun until optimum 
medical care has been provided and the servicemember's conditions have 
been diagnosed, and that such process will be deferred under 
circumstances where a significant new medical condition develops.
    (c)   Ensure that NARSUMs are fully developed and accurately 
document all service-connected medically acceptable conditions of a 
warrior, to include (i) requiring MEBs to review thoroughly all medical 
records, and (ii) providing opportunities for the servicemember to meet 
with the MEB.
    (d)   Allow ample time for a warrior to review his/her NARSUM with 
the assistance of an advocate and/or a medical provider (to include 
additional time for servicemembers with multiple, severe injuries).
    (e)   Provide substantially improved avenues for effective 
assistance to and representation of servicemembers undergoing physical 
and mental health disability evaluations, including expanding the 
number - and improved training--of PEBLOs and JAGs, and encouraging the 
use of certified veterans' service officers throughout the IDES 
process.
    (f)   Provide servicemembers the opportunity and sufficient time to 
obtain a review of the NARSUM and all pertinent medical records by a 
specialist(s) of the servicember's choosing, and the opportunity to 
present such specialist findings in rebuttal.

    (3)  Adopt the key recommendation of the Dole-Shalala Commission by 
establishing a single adjudication system with a single agency 
responsible for disability evaluation that would not only provide 
needed consistency, but help realize a more streamlined, timely 
process.
    (4)  Ensure leadership and oversight at the highest level to 
achieve the required system re-engineering and quality-control measures 
to realize the goals of IDES.
                               Conclusion
    WWP believes that, whatever the injury, every warrior going through 
the IDES process should receive comprehensive medical treatment, full 
and fair adjudication of their medical conditions and disability 
evaluation, and accurate compensation for service-related health 
conditions. Today, almost five years after a bipartisan commission 
called for streamlining the complicated disability evaluation system 
that so poorly served Wounded Warriors, the goals envisioned for that 
system have yet to be realized. WWP recognizes that VA and DoD staffs 
have devoted much time and effort to improving the disability 
evaluation process, but more must be done to produce a system worthy of 
our Wounded Warriors and the sacrifices they have made. We call for a 
re-engineering of IDES processes, and institutionalization of quality-
controls along with continuing Congressional oversight, as the pathway 
to meeting this obligation to our warriors.

 Reevaluating the transition from servicemember to Veteran: Honoring a 
       shared commitment to care for those who defend our freedom
             Overview of Wounded Warrior Project Testimony
    The Integrated Disability Evaluation System (IDES) was intended to 
create: (1) a less complex, non-adversarial system; (2) faster, more 
consistent evaluations and compensation; (3) a single medical exam and 
a single-source disability rating; and (3) a smooth transition to 
veteran status. In large part, those critically important goals have 
yet to be achieved. While VA has done its part, DoD still has much work 
to be done.
    DoD must address both structural and operational problems in the 
IDES. These include: (1) artificial timelines that create pressures to 
prematurely push servicemembers into the medical-evaluation process and 
result in their being rushed through the Medical Evaluation Board (MEB) 
process; (2) an MEB process that relies on reviewing only partial and 
often-incomplete medical records (and does not even meet with the 
servicemember) to produce an often-incomplete and inaccurate narrative-
summary, which is the most critical evidence considered by the final 
decisional authority; (3) resultant errors in the narrative summary 
that make it more difficult ultimately to establish service-connection 
and that have the effect of increasing the number of appeals in an 
already clogged VA adjudication system; (4) lack of sufficient time for 
the servicemember to understand and challenge the content or accuracy 
of that decision document; (5) lack of a meaningful mechanism for the 
Member to secure a truly independent medical review of key decision 
documents; and (6) wide disparity in the extent of effective assistance 
and representation of members in the IDES process.
    We urge the Committee to work with the Armed Services Committee to 
spur the Executive Branch to make needed changes. Among those 
recommendations, we urge that DoD be directed to re-engineer and 
institute quality-controls on the ``front-end'' of the IDES process. 
Among those needed steps, DoD must provide safeguards to protect 
servicemembers from being pushed into and rushed through the MEB 
process. That process should not begin until optimum medical care has 
been provided and the servicemember's conditions have been diagnosed. 
System changes are badly needed to ensure that narrative summaries are 
fully and accurately developed, to include requiring MEBs to review 
thoroughly all medical records, and provide opportunities for the 
servicemember to meet with the MEB. Servicemembers also need more time 
to review the MEB summary, and need greater access to effective 
representation and assistance, as well as the opportunity to have the 
summary reviewed by a specialist of the servicemember's choosing.
    WWP recognizes that VA and DoD staffs have devoted much time and 
effort to improving the disability-evaluation process, but more must be 
done to produce a system worthy of our Wounded Warriors and the 
sacrifices they have made. We call for a re-engineering of IDES' 
processes, and institutionalizing quality-controls along with 
continuing Congressional oversight as the pathway to meeting the 
obligation owed our warriors.

                                 <F-dash>
                Prepared Statement of Eric Greitens, Phd
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify this morning as the Founder and CEO of The 
Mission Continues. The Mission Continues challenges veterans to serve 
and lead in communities across America.
    We believe that any system that is designed to create successful 
transitions for veterans, will only work if veterans are first 
recognized for the immense abilities that they bring back to their 
communities. We have learned that by focusing on these strengths, 
despite some of the most severe disabilities, we can facilitate 
successful transitions from warrior to citizen.
    As a Navy SEAL, I served four tours in the Global War on Terrorism. 
On my last deployment in Iraq, my unit was hit by a suicide truck bomb. 
I was treated at the Fallujah surgical hospital and returned to full 
duty 72 hours later, but some of my friends - some of whom were 
standing an arms length from me - were hurt far worse than I was.
    When I returned home, I visited them and went to Bethesda Naval 
Hospital to visit other wounded Marines. As all of you know, when you 
meet with our wounded servicemembers, you are often talking with young 
men and women, the balance of their lives still before them. I asked 
each of them about their units, their hometowns, their deployments, and 
when I asked, ``What do you want to do when you recover?'' Each one of 
them said, ``I want to return to my unit.'' Their bodies had been 
injured, but their spirit of service had endured.
    My experience at Bethesda that day was not unique. In a recent 
survey of post-9/11 veterans, 92% strongly agreed or agreed that 
serving their community is important to them.
    At The Mission Continues we create successful transitions by 
engaging returning veterans to continue their service by engaging them 
in six-month fellowships at nonprofit and public service organizations 
in their communities: an Army specialist from the 82nd Airborne now 
trains service dogs for the disabled; a Marine Corps sergeant now 
builds home with Habitat for Humanity; an enlisted airman who now 
serves her fellowship as a support attendant at a women's shelter. 
During their Fellowships, our veterans are provided with stipends, 
mentors, and broad curriculum to achieve one of three post-Fellowship 
goals. They go on to full-time employment, full-time education, or 
participate in an ongoing role of service in their communities. To 
date, we have awarded Fellowships to 255 post-9/11 veterans, who have 
served with 168 organizations across the country.
    For example, in Mississippi County, Anthony Smith served his 
Fellowship working with under-privileged youth. In 2004, Anthony was 
serving as a major in the Army when he was hit by a rocket-propelled 
grenade. After spending 64 days in a medically induced coma, he awoke 
to find that he was blind in one eye, had lost his right arm underneath 
the elbow, and that parts of his leg, hip and spinal cord were damaged. 
Like many of the veterans that we work with, his transition was 
difficult, and he started to doubt whether or not he was needed here at 
home.
    After Anthony became a Mission Continues Fellow, he found a renewed 
sense of purpose. Through his Fellowship, Anthony is using martial arts 
to mentor at-risk youth. Daily, dozens students from his community 
enter Anthony's dojo. Using pushups, modeling patience, and teaching 
self-control, Anthony teaches lessons in his community everyday.
    In two independent research reports, the George Warren Brown School 
of Social Work at Washington University has found that nearly 80% of 
the participants in our program felt that serving in the community had 
a positive effect on their future employability, performance, and 
promotion, or that it instigated them to make a career change. In fact, 
86% of participants reported transferring their military skills to 
civilian employment and 100% of Fellows reported that they will 
probably or definitely stay involved in volunteer activities and public 
service in the future.
    Mr. Chairmen and Members present, the story of this generation of 
veterans is still being written. We have a tendency to rely on PTSD 
figures, unemployment statistics, and suicide rates to tell us how our 
veterans are transitioning from the military to civilian life. But 
these statistics do not tell the whole story. These statistics do not 
capture a veteran's desire to continue to serve and the willingness to 
lead in communities upon their return.
    They do not tell the story of Jake, a former Marine who now 
coordinates rescue missions to international disasters; or April, the 
Army veteran from Chicago, who serves as a mentor to refugee children 
in the classroom. Across America, veterans are serving again. In fact, 
the majority of the members in this Committee have Mission Continues 
Fellows serving in their district or neighboring districts. And last 
year, with our Fellows as examples, The Mission Continues engaged over 
15,000 Americans to spend a day of service with veterans in their 
communities. Our Mission Continues Fellows are enduring leaders who 
have overcome pain and turned it to wisdom. They are veterans whose 
commitment to our country did not end on the battlefield.
    In order for veterans to transition successfully, communities 
across America must begin to recognize the service they still have to 
give. We believe that when the story of this generation of veterans is 
written, it will not only be a story of the wars they have fought 
overseas; it will also be a story of the homes built, the parks 
restored, the young minds engaged by veterans whose mission continues 
here at home.
    Mr. Chairman, we are grateful for your support and the support of 
this Subcommittee. I would welcome any questions that you or other 
Members may have. Thank you.

                                 <all>

</pre></body></html>
